<html>
<title> - OVERSIGHT HEARING ON BLM DISORGANI-ZATION: EXAMINING THE PROPOSED REORGANIZATION AND RELOCATION OF THE BUREAU OF LAND MANAGEMENT HEADQUARTERS TO GRAND JUNCTION, COLORADO</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


    BLM DISORGANIZATION: EXAMINING THE PROPOSED REORGANIZATION AND 
  RELOCATION OF THE BUREAU OF LAND MANAGEMENT HEADQUARTERS TO GRAND 
                          JUNCTION, COLORADO

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      Tuesday, September 10, 2019

                               __________

                           Serial No. 116-21

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
                                   or
          Committee address: http://naturalresources.house.gov
          
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-679 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
   
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                   
                             ----------                                 

                              CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, September 10, 2019......................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah, prepared statement of.............................    75
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     3
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     4

Statement of Witnesses:
    Brown, Robin, Executive Director, Grand Junction Economic 
      Partnership, Grand Junction, Colorado......................    56
        Prepared statement of....................................    58
    Freemuth, John, Cecil D. Andrus Endowed Chair for Environment 
      and Public Lands; University Distinguished Professor, Boise 
      State University, Boise, Idaho.............................    40
        Prepared statement of....................................    41
    Pendley, William Perry, Deputy Director for Policy and 
      Programs, Exercising Authority of the Director, Bureau of 
      Land Management, Washington, DC............................     5
        Prepared statement of....................................     7
        Questions submitted for the record.......................    12
    Shepard, Edward W., CR, President, Public Lands Foundation, 
      Newberg, Oregon............................................    45
        Prepared statement of....................................    47
    Small, Hon. Tony, Vice Chairman, Ute Indian Tribal Business 
      Committee, Fort Duchesne, Utah.............................    49
        Prepared statement of....................................    51

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    86

    Caswell, James L., Former Director of the Bureau of Land 
      Management, Testimony for the Record.......................    75
    Coalition to Protect America's National Parks, September 4, 
      2019 Letter addressed to Chairman Grijalva.................    77
    Conservation Lands Foundation, Testimony for the Record from 
      Ann Shields, Board of Directors and Brian Sybert, Executive 
      Director...................................................    79
    Defenders of Wildlife, September 9, 2019 Letter to Chairman 
      Cox and Ranking Member Gohmert, Subcommittee on Oversight 
      and Investigations.........................................    80
    National Parks Conservation Association, September 9, 2019 
      Letter to Chairmen Grijalva and Cox and Ranking Members 
      Bishop and Gohmert.........................................    84

    Submission for the Record by Representative Haaland

        Department of the Interior, Office of the Secretary, 
          September 5, 2019 Letter from Tara Sweeney, Assistant 
          Secretary of Indian Affairs addressed to Chairman 
          Grijalva...............................................    62



 
   OVERSIGHT HEARING ON BLM DISORGANI-ZATION: EXAMINING THE PROPOSED 
    REORGANIZATION AND RELOCATION OF THE BUREAU OF LAND MANAGEMENT 
                HEADQUARTERS TO GRAND JUNCTION, COLORADO

                              ----------                              


                      Tuesday, September 10, 2019

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:01 a.m., in 
room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Committee] presiding.
    Present: Representatives Grijalva, Huffman, Lowenthal, Cox, 
Neguse, Haaland, Van Drew, Cunningham, DeGette, Soto, Tonko; 
Bishop, Gohmert, Lamborn, Gosar, Cook, Hice, Curtis, Hern, and 
Fulcher.
    Also present: Representatives Norton and Tipton.

    The Chairman. The Committee on Natural Resources will come 
to order. The Committee is meeting today to hear testimony from 
our invited witnesses.
    Under Committee Rule 4(f), any oral opening statements at 
this hearing are limited to the Chair and the Ranking Minority 
Member. Therefore, I ask unanimous consent that all other 
Members' opening statements be made part of the hearing record 
if they are submitted to the Clerk by 5 p.m. today.
    Hearing no objection, so ordered.
    Because of the broad interest in today's subject matter, we 
received interest from other Members who do not sit on this 
Committee, but would like to participate. Therefore, I ask 
unanimous consent that all interested Members be allowed to 
join us on the dais.
    If there is no objection, so ordered.
    I will now turn to my opening statement and then recognize 
my colleague, Mr. Lamborn, to put into the record the opening 
statement of the Ranking Member, Mr. Bishop.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    The Chairman. First of all, I would like to welcome 
everyone to this hearing, and thank the witnesses for taking 
the time to join us today.
    We are here to discuss what is being called a 
reorganization of the Bureau of Land Management. In reality, 
given the lack of transparency, analysis, and consultation, 
this appears to be nothing more than a poorly veiled attempt to 
dismantle a Federal agency.
    The BLM manages 245 million surface acres and 700 million 
acres of subsurface mineral interests, all of which belong to 
the American people. The Agency employs more than 9,000 people 
and has an annual budget of $1.2 billion. Try to imagine a $1.2 
billion private corporation deciding to move across the country 
without any clear timelines, reasonable analysis, or concrete 
goals.
    Yet, this is exactly what is happening with the Bureau of 
Land Management. And the BLM shareholders, the American public, 
should be deeply concerned.
    The Department of the Interior has done nothing to 
alleviate concerns that this move has been hastily planned, 
poorly researched, and questionably motivated. In fact, one of 
the few responses we received from the Department was an 
admission that no tribal consultations have been performed, a 
clear neglect of the Department of the Interior's trust 
responsibilities.
    There is no doubt that this plan fits this Administration's 
pattern of trying to sell out our environment and natural 
resources. Recent comments made by the President's Acting Chief 
of Staff, Mike Mulvaney, at a gathering of wealthy donors shed 
light on what is really going on. At the event, Mr. Mulvaney 
spoke about the decision to relocate two bureaus from 
Washington, DC to Kansas City. More than half of the 
experienced scientists and economists at these bureaus chose to 
quit instead of uprooting their families.
    Referencing that, Mr. Mulvaney said, ``Now, it is nearly 
impossible to fire a Federal worker. I know that because a lot 
of them work for me. But by simply saying to people we are 
going to take you outside the bubble, outside this liberal 
haven of Washington, DC, they quit. What a wonderful way to 
streamline government.''
    It is hard to consider anything this Administration does in 
good faith when they are so transparent about what the true 
motivations are.
    Taking BLM staff out of DC won't help customer service, but 
it will make it harder for the Agency to work with anyone other 
than the oil and gas industry and interests. It will push many 
career staff to leave their roles, destroying institutional 
knowledge and hampering the Department's ability to meet its 
mandates and standards.
    This isn't a close call or a partisan issue. This move is 
being strongly opposed, not just by the Public Lands 
Foundation, made up largely of bipartisan BLM retirees--which 
is represented here at today's hearing
    The National Association of Forest Service Retirees said 
this move would ``hamstring the agency . . . that much is clear 
to almost any leader who has spent his or her career managing 
public lands.''
    Jim Caswell, the most recent confirmed BLM Director in a 
Republican administration, said in testimony, ``If implemented, 
the reorganization will functionally dismantle the BLM.''
    Hundreds of former land managers, former leaders, former 
agency heads, Republicans and Democrats alike, with thousands, 
if not tens of thousands, of years of combined experience being 
raised, living, and working in the American West are speaking 
with one voice, and they are saying as clearly as possible that 
this is a terrible idea.
    On the other side, we have Senator Cory Gardner and the 
people of Grand Junction, who admittedly do well under this 
plan. With all due respect to the people of Grand Junction and 
the Senator, I put more faith in the voices of experts at this 
point.
    It is no coincidence that at the same time this 
reorganization was announced, the Administration appointed Mr. 
William Perry Pendley, an avowed opponent of public lands, as 
the acting head of BLM. They have even sent him before us 
today, and we welcomed him to testify.
    What better way to eliminate the BLM than to push out its 
staff, to replace them with leadership whose writings and 
speeches over three decades suggest that he thinks the Agency 
shouldn't exist in the first place?
    If this BLM organization goes through, it would represent a 
major win for this Administration and their 2-year-long 
campaign to undermine America's public lands heritage. The BLM 
plays an essential role in managing our public lands and 
protecting our public trust resources. We cannot let Secretary 
Bernhardt and the Acting Director turn it into a one-stop shop 
for companies looking to knock down public land protections on 
a quest to drill, mine, and graze on every ounce of public 
land.
    I want to again thank the witnesses, and I look forward to 
your testimony.

    [The prepared statement of Mr. Grijalva follows:]
 Prepared Statement of the Hon. Raul M. Grijalva, Chair, Committee on 
                           Natural Resources
    I would like to welcome everyone to this hearing and thank the 
witnesses for making the time to join us today.
    We're here today to discuss what is being called a 
``reorganization'' of the Bureau of Land Management. In reality, given 
the lack of transparency, analysis, and consultation this appears to be 
nothing more than a poorly veiled attempt to dismantle a Federal 
agency.
    The BLM manages 245 million surface acres, and 700 million acres of 
subsurface mineral interests, all of which belong to the American 
people. The agency employs more than 9,000 people and has an annual 
budget of $1.2 billion. Just try to imagine a $1.2 billion private 
corporation deciding to move across the country without any clear 
timelines, reasonable analysis, or concrete goals.
    Yet, this is exactly what is happening with the Bureau of Land 
Management, and the BLM's shareholders--the American public--should be 
deeply concerned.
    The Department of the Interior has done nothing to alleviate 
concerns that this move has been hastily planned, poorly researched, 
and questionably motivated. In fact, one of the few responses we 
received from the Department, was an admission that no tribal 
consultations have been performed, a clear neglect of DOI's trust 
responsibilities.
    There is no doubt this plan fits this administration's pattern of 
trying to sell out our environment and natural resources. Recent 
comments made by the President's Acting Chief of Staff, Mick Mulvaney, 
at a gathering of wealthy donors shed light on what is really going on. 
At that event, Mr. Mulvaney spoke about the decision to relocate two 
bureaus from Washington, DC to Kansas City. More than half of the 
experienced scientists and economists at those bureaus chose to quit 
instead of uprooting their families.
    Referencing that, Mr. Mulvaney said, ``Now, it is nearly impossible 
to fire a Federal worker, I know that because a lot of them work for me 
. . . but by simply saying to people we're going to take you outside 
the bubble . . . outside this liberal haven of Washington, DC . . . and 
they quit. What a wonderful way to streamline government.''
    It is hard to consider anything this administration does in good 
faith when they are so transparent about their true motivations.
    Taking BLM staff out of DC won't help customer service, but it will 
make it harder for the agency to work with anyone other than the oil 
and gas industry. It will push many career staff to leave their roles, 
destroying institutional knowledge and hampering the Department's 
ability to meet its mandates.
    This isn't a close call, or a partisan issue. This move is being 
strongly opposed not just by the Public Lands Foundation, made up 
largely of bipartisan BLM retirees, which is represented here.
    The National Association of Forest Service Retirees, said this move 
would, ``hamstring the agency. That much is clear to almost any leader 
who has spent his or her career managing public lands.''
    Jim Caswell, the most recent confirmed BLM Director in a Republican 
administration, sent in testimony saying, ``If implemented, the 
reorganization will functionally dismantle the BLM.''
    Hundreds of former land managers, former leaders, former agency 
heads, Republicans and Democrats alike, with thousands if not tens of 
thousands of years of combined experience being raised, living, and 
working in the American West, are speaking with one voice, and they are 
saying as clearly as possible: this is a terrible idea.
    On the other side, we have Senator Cory Gardner and the people of 
Grand Junction--who, admittedly, do quite well under this plan. With 
all due respect to the people of Grand Junction and the endangered 
Senator, I put more faith in the voices of the experts.
    It's no coincidence that at the same time this reorganization was 
announced, the Administration appointed William Perry Pendley, an 
avowed opponent of public lands, as the acting head of BLM--and they 
have even sent him before us today to testify.
    What better way to eliminate the BLM than to push out its staff and 
to replace them with a man whose writings and speeches over three 
decades suggest that he thinks the agency shouldn't exist in the first 
place.
    If this BLM reorganization goes through, it would represent a major 
win for this administration and their 2-year-long campaign to undermine 
America's public lands heritage. The BLM plays an essential role in 
managing our public lands and protecting our public trust resources. We 
cannot let Secretary Bernhardt and Acting Director Pendley turn it into 
a one-stop shop for companies looking to knock down public land 
protections on a quest to drill, mine and graze every acre of public 
land.

                                 ______
                                 

    The Chairman. I now will recognize my colleague, Mr. 
Lamborn, for his statement.
    Sir, the time is yours.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. Thank you, Mr. Chairman. On behalf of Ranking 
Member Rob Bishop, who is on his way, but couldn't be here at 
this moment, I will make the following opening statement. And 
it will be a different perspective.

    I appreciate my friend from Arizona for convening this 
hearing today. I, along with my fellow Republicans on this 
Committee, have long contended that the best land management 
decisions are made by those who live, work, and raise families 
closest to the areas impacted. I believe this move of Bureau of 
Land Management headquarters out West is long overdue, and will 
yield tremendous results for land management.
    Unfortunately, based on the misleading title of today's 
hearing, I fear we are in store for some melodramatic hyperbole 
from some of my friends on the other side of the aisle. It is 
important that we separate political posturing from the simple 
realities of what we are discussing today.
    The facts are quite straightforward. The BLM manages close 
to 250 million acres of land. An astounding 99 percent of those 
lands are located west of the Mississippi River. Moving BLM 
decision makers closer to the lands that they manage will 
undoubtedly improve agency efficiency, accountability, and 
local engagement. To argue otherwise is ignorant at best, and 
willfully misleading at worst.
    We have already seen great success with this concept at the 
National Interagency Fire Center, where the BLM relocated their 
Assistant Director, Deputy Assistant Directors, and staff for 
the Fire and Aviation Program to the National Interagency Fire 
Center, the Nation's support center for wildland firefighting, 
located in Boise, Idaho. By all accounts, this relocation has 
increased efficiency and improved coordination efforts to 
combat the deadly wildfires that have continued to afflict our 
Western states.
    These clear benefits, seen in the realm of fire activities, 
will most assuredly translate to other BLM functions as well. 
By having more leadership on the ground, the BLM will be able 
to respond quicker, coordinate more effectively, and manage 
with more clarity and on-the-ground perspective.
    I think it is also important to dispel any misconception 
that this is somehow a partisan issue. There is broad support 
for this move amongst a wide variety of stakeholders from 
diverse political persuasions. One of the more vocal supporters 
of this move is a former Democratic member of this Committee 
and currently Governor of Colorado, Jared Polis. I would like 
to briefly share a video clip of his thoughts, which I believe 
concisely summarize the many merits of this scheduled move.
    Will the Clerk show the clip?
    [Video shown.]
    Mr. Lamborn. I couldn't agree more. This is a good move for 
BLM, this is a good move for taxpayers, and this is a great 
move for the West.
    My hope is that today we will now evaluate the tools of 
this Committee and oversight functions of Congress to expand 
upon and improve reorganization of the Department of the 
Interior and work with, rather than against, the Department to 
improve the delivery of services to the people we represent.
    With that, Mr. Chairman, I yield back.
    The Chairman. Thank you very much, Mr. Lamborn.
    Under Committee Rules, the Chair will now recognize Mr. 
William Perry Pendley, Deputy Director of Policy and Programs 
at the Bureau of Land Management.
    Sir, thank you and welcome, and the floor is yours. Five 
minutes.

STATEMENT OF WILLIAM PERRY PENDLEY, DEPUTY DIRECTOR FOR POLICY 
 AND PROGRAMS, EXERCISING AUTHORITY OF THE DIRECTOR, BUREAU OF 
                LAND MANAGEMENT, WASHINGTON, DC

    Mr. Pendley. Thank you, Mr. Chairman. I am here to discuss 
the Department of the Interior's relocation of the Bureau of 
Land Management.
    First, however, I will address attacks on my character and 
misrepresentations of my 30 years as a public attorney.
    On July 15, 2019, I took the oath of office to defend the 
Constitution and the laws of the United States, and I 
absolutely will do so. That oath is as important and meaningful 
to me as the oath I took five decades ago, when I joined the 
Marine Corps.
    It has been asserted that I do not believe in Federal 
lands. That is not accurate, and is a misrepresentation of my 
works and beliefs. I love America's public land. I have biked, 
fished, hunted and lived there. It has always been my home. For 
me public lands are a fact of life. And as a proud and loyal 
member of the Trump administration, I wholeheartedly support 
the President and Secretary Bernhardt's crystal clear statement 
that we will not dispose of or transfer in a wholesale manner 
our public lands.
    Contrary to mischaracterizations by the media, as a leader 
of a non-profit public interest law firm I represented, pro 
bono, men and women in the West who work, live on the land, who 
log, mine, develop energy, recreate, or draw their support from 
the Federal lands that surround them. I was proud to represent 
them in defending their constitutionally protected liberties, 
demanding adherence to the rule of law, and redressing their 
grievances: a right guaranteed every American.
    In our litigation, we both defended the decisions of 
Federal agencies and sought to reverse Federal actions my 
clients found wanting. As an attorney, I take my ethical 
obligations very seriously. Thus, I sought out, obtained, and 
followed the advice of career Department ethics officials to 
ensure that I am in full compliance with Federal laws, rules, 
regulations, and President Trump's heightened ethics pledge.
    Secretary Bernhardt made clear that relocation is not just 
about where functions are performed, but whether or not we 
increase our service to the American public. As to the BLM, he 
set a high bar. We delegate more responsibility to the field, 
we maximize our services to the American people, and we 
increase our senior presence closest to the resources that we 
manage.
    After months of careful planning and advice from senior 
career leaders in the Bureau, Western states and localities, 
multiple-use stakeholders, and our neighbors, we will achieve 
these objectives by maintaining necessary core BLM functions at 
the headquarters in Washington, DC, optimizing the efficiency 
of some headquarters functions now in Washington by relocating 
them to state offices where they best support those offices' 
activities, allocating certain headquarters positions to state 
offices to perform state office functions, and establishing a 
Western headquarters in Grand Junction, Colorado.
    The realignment will have many benefits. We will enhance 
management oversight and communication, improve customer 
service in partner/stakeholder engagement, increase 
functionality, lower lease payments, increase consolidation, 
and reduce travel expenses and personnel costs.
    Specific positions will be identified for relocation 1 week 
from today, and affected employees will be notified promptly. 
The BLM values every employee, and we are ensuring each 
affected employee receives necessary information before being 
required to make any decision.
    We assembled and made available to employees teams of 
skilled human resources professionals to provide knowledgeable 
and compassionate assistance. We also scheduled employee 
assistance program counselors to support, one on one, affected 
employees and their families throughout the day and week. 
Finally, for employees unable to make the move, we hope to find 
each a position in the Department of the Interior family, where 
we are working aggressively in that regard.
    Nearly every Western state will realize significant 
benefits from this reorganization, thanks to the presence of 
additional experienced senior staff with the expertise to 
address headquarters issues and priorities, and who understand 
how to utilize that knowledge to advance each state's localized 
day-to-day operations.
    More importantly, however, the BLM will be better able to 
serve the American people with an increased staffing presence 
closer to the resources that it manages.
    Thank you.

    [The prepared statement of Mr. Pendley follows:]
 Prepared Statement of William Perry Pendley, Deputy Director, Policy 
    and Programs, Bureau of Land Management, U.S. Department of the 
                        Interior, Washington, DC
                              introduction
    Chairman Grijalva, Ranking Member Bishop, and members of the 
Committee, thank you for the opportunity to discuss the Secretary's 
vision for realignment of the Bureau of Land Management (``BLM'' or 
``Bureau'') and its personnel. Realigning the Bureau of Land 
Management's human resources closer to the lands and resources it 
manages has been of significant interest not only to Congress, but also 
its constituency of states, tribes, and local communities. The 
Bipartisan support the realignment has received recognizes a number of 
significant benefits, ranging from more informed decision making to 
increased efficiency and coordination. This realignment is an important 
undertaking that is long overdue.
                               background
    When Congress created the position of Deputy Secretary (then Under 
Secretary) for the U.S. Department of the Interior (DOI) in 1937, it 
was envisioned that DOI would maintain a significant human presence in 
the West. Congress recognized then that the ability of the Secretary of 
the Interior to fulfill his statutory responsibilities was enhanced 
greatly by the location of Federal personnel across the vast Federal 
lands for which they are responsible. It was true in 1937; it is even 
more true today.
    Congress was not alone in that realization. Over the decades, 
western governors, tribal leaders, and rural residents, represented by 
mayors, commissioners, and citizen groups, have chafed at the fact that 
in order to address matters of critical importance to them, they had to 
travel to Washington, DC to make their case. Although many BLM 
employees live in the West and are fellow residents, neighbors, and 
even friends, most are not the ultimate or even the most senior 
decision makers. Instead, nearly half of the Bureau's 24 SES employees, 
over 60 percent of the 79 current GS-15 positions, and nearly half of 
the 265 GS-14 positions are located in Washington, DC.
    Meanwhile, through the years, the requirements imposed upon Federal 
land managers have increased dramatically, as a result of Acts of 
Congress, rulemakings by agencies, and numerous judicial decisions. 
While other land management agencies face similar challenges, BLM is 
unique because it is also responsible for 245 million surface acres, 
almost exclusively in the American West, and for 700 million mineral 
subsurface acres, primarily west of the 100th Meridian. To comply 
efficiently with its land management obligations, there is no 
substitute for being on the ground to see the land and know its people, 
and to develop a sense of the local impacts of BLM's decisions in a 
deeper and more meaningful way than one can do as a visitor.
    The case for implementing Secretary Bernhardt's plan is compelling 
and the timing is fortuitous. Today, the BLM faces a stark choice: 
either it must relocate most of its positions and personnel to State 
Offices and a new headquarters in Grand Junction, Colorado, or it must 
consolidate, into limited and costly space in the Washington, DC 
metropolitan area. Because BLM's lease on its M Street, S.E. location 
near the Washington National's baseball stadium expires on December 31, 
2020, time is of the essence. Therefore, Secretary Bernhardt seeks not 
only to maintain the BLM's State Office structure, but also to 
strengthen the Bureau's organization at the state level.

    Secretary Bernhardt maintains that meaningful realignment is not 
simply about where functions are performed; rather, it is rooted in how 
changes will better satisfy the needs of the American people. 
Therefore, Secretary Bernhardt required that any realignment must 
achieve the following objectives:

    <bullet> Delegating more responsibility to the field;

    <bullet> Maximizing services to the American people; and

    <bullet> Increasing the Bureau's presence closest to the resources 
            it manages.

    After months of careful planning, consultation with those affected 
both inside and outside of the BLM, and reflection, those objectives 
will be achieved through the following actions, which are now underway:

    <bullet> Maintaining the necessary core BLM headquarters functions 
            in Washington, DC;

    <bullet> Optimizing the efficiency of some headquarters positions 
            currently based in Washington, DC by relocating them to the 
            State Offices across the West that their work supports;

    <bullet> Allocating certain positions to State Offices to perform 
            State Office functions; and

    <bullet> Establishing a BLM Western Headquarters in Grand Junction, 
            Colorado.

    Secretary Bernhardt appreciates the enthusiastic response from 
western Governors, Senators, Members of Congress, and state and local 
officials who have long recognized the important role BLM State, 
District, and Field Offices provide in supporting the needs of their 
constituents. They recognized that, under Secretary Bernhardt's 
realignment, the expectation is that BLM operations in every Western 
state will gain additional human resources, which will be invaluable as 
BLM serves the American people more efficiently and advances the their 
multiple-use, sustained yield mission more effectively.
                         realignment in detail
    BLM assessed and analyzed each position currently performing 
headquarters-specific functions both in Washington, DC and in the 
field. A total of 550 positions were evaluated, 166 of which are 
already assigned to locations in the field. Of the total 550 positions, 
74 will be allocated to the BLM State Offices, leaving 476 positions 
performing headquarters duties.
    Under the BLM's implementation plan, the Deputy Director of Policy 
and Programs will remain in Washington, DC, along with 60 staff who 
will continue to perform functions in the Main Interior Building that 
are inherently and logically located in Washington. For example, a 
majority of the Bureau's staff who directly inform and perform duties 
tied to its budgetary responsibilities will continue to remain in 
Washington, DC as will a majority of the staff performing functions in 
its Legislative Affairs, Regulatory Affairs, Public Affairs, and 
Freedom of Information Act divisions.
    Two hundred and twenty-two positions currently performing 
headquarters duties in Washington, DC will continue to accomplish these 
functions while being based in locations throughout the BLM's western 
regions and landscapes in order to optimize the BLM's presence where 
the needs are greatest.
    Given the need for additional technical experience in the field, 
the Bureau will allocate 74 headquarters positions, some of which have 
been vacant and unfilled for several years, to perform critical duties 
closer to the Bureau's resources in its State Offices. The resources 
available for these positions will be realigned to the budgets of the 
appropriate State Office to address immediate needs and priorities. For 
example, the BLM proposes dispersing additional planning and 
environmental analyst resources, which formerly performed key functions 
for National Environmental Policy Act (NEPA) reviews at headquarters, 
to states with environmental analyses in process, ranging from Colorado 
to Oregon. Given that under Secretary's Order 3355 the responsibility 
for this work has shifted to BLM State Directors, it is important to 
allocate these resources to State Offices. In determining the proper 
allocation, BLM consulted with State Directors on their staffing 
necessities.
    Lastly, the BLM Director, Deputy Director of Operations, Assistant 
Directors, and a few selected members of their staffs, totaling 27 
positions, will be located in Grand Junction, Colorado, as part of an 
initiative to establish a Western Headquarters.
                 the benefits of relocation to the west
A. Enhanced Management, Oversight, and Communication
    Relocating staff to State Offices and leadership to a Western 
Headquarters will strengthen the Bureau's organizational effectiveness 
in order to better achieve its multiple-use, sustained yield mission 
under FLPMA.
B. Improved Customer Service and Partner/Stakeholder Engagement
    Currently, required travel creates a burden for BLM stakeholders to 
interact directly with BLM executives. Closer physical proximity of BLM 
leadership to Bureau stakeholders and constituents will improve Bureau 
operations and decision making. Strong relationships with Western 
states, communities, and other partners in states and regions are 
important for effective communication.
C. Increased Functionality
    The vast majority of the functions the BLM performs are located in 
the Western United States, including many of its highest priority 
programs. Relocating BLM leadership closer to their activities in which 
the agency engages will provide greater understanding of the needs on 
the ground and better facilitate meaningful policies.
D. Potential for Reduced Leasing Costs and Consolidation
    Relocating staff will lead to a more efficient operation and 
substantial cost savings for the Bureau. Perhaps the most striking 
savings is in lease space costs. With the location of a Western 
Headquarters in Grand Junction, which has affordable leasing options, 
BLM can achieve cost savings while increasing the Bureau's leadership 
presence closest to the resources it manages. As part of its 
examination, the BLM compared and analyzed lease space based on the 
General Services Administration (GSA)'s lease rates per square foot 
data for the Main Interior Building (MIB) in Washington, DC, and an 
office location in Grand Junction, CO. The costs for 27 staff 
identified as part of the establishment of a Western Headquarters are 
as follows:

    <bullet> $50.00/per square foot for the MIB;

    <bullet> $32.35/per square foot for an office space in Grand 
            Junction.

    The lease rates are specifically of immediate importance right now 
because the BLM is at a crossroads for its Washington, DC office. 
Currently, employees in Washington, DC are located in two facilities; 
the MIB on C Street in Northwest DC, and the 20 M Street building in 
Southeast DC. The lease for the M Street location expires at the end of 
calendar year 2020. A renewed lease for the M Street location is not an 
option, as the new rate would exceed $50 per square foot--a cost that 
is substantially greater than is currently being paid and much higher 
than would be offered in Grand Junction.
    For the 296 positions that will be relocated to the West and 
allocated to State Offices, existing office space in State, District, 
and/or Field Offices will be used to house staff, resulting in no 
incremental space costs as opposed to the real expense of moving these 
positions into the MIB. In the event that additional lease space does 
need to be acquired by State Offices, estimated commercial lease costs 
per square foot range from approximately $14.00/per square foot to 
approximately $32.00/per square foot, which will offer a significant 
savings compared to the MIB square foot costs.
E. Decreased Travel Expenses
    For fiscal year (FY) 2018, BLM employee travel between Washington, 
DC, and Western states totaled more than $3.2 million. Relocating staff 
to State Offices and establishing a Western Headquarters will 
significantly decrease travel expenses.
    Establishing a Western Headquarters in Grand Junction will improve 
travel efficiency by reducing the number of long cross-country flights, 
which results in shorter trips and will allow more opportunities for 
day trips in some areas. Shorter duration travel is more efficient, 
cost-effective, and is expected to increase productivity with increased 
time spent on work activities rather than travel. The alignment of 
staff to State Offices across the West will also result in similar 
benefits.
    The BLM's training centers, located in Phoenix and Boise, are 
important resources for agency staff. These centers also provide space 
for meetings and conferences that many BLM staff already attend. The 
location of the training centers allows easy access by BLM and other 
DOI staff located in Western cities. Shorter direct flights, or drives, 
could replace long, cross-country trips. Relocation would also enable 
BLM leadership to more easily attend trainings and meetings and provide 
leadership perspectives for attendees. By locating staff closer to the 
training centers, this enhances opportunities for career development.
F. Reduced Personnel Costs
    Relocating staff from the expensive Washington, DC metropolitan 
area, to areas with a lower cost of living will also create increased 
purchasing power for employees, and reduce personnel costs for the BLM 
at the same time, due in part to lower locality pay rate adjustments. 
For example, locality adjustment rates for Western locations range from 
15.67 percent to 26.30 percent, while the Washington, DC locality pay 
adjustment is 29.32 percent. These savings extend to both the Western 
Headquarters and State Offices where employees will be relocated and 
aligned.
    Ultimately, a Western Headquarters will maximize services to the 
American people while increasing the BLM's presence closest to the 
resources it manages.
                             implementation
    Implementation of the FY 2019 spend plan will utilize the $5.6 
million BLM funding allocation in the Department of the Interior's 
reorganization efforts. The initial relocation of approximately 27 
employees to the BLM's Western Headquarters will be achieved through 
voluntary reassignments, providing commitments are secured. Once there 
is a commitment, the Bureau would issue the employee transfer orders, 
which will allow employees to work with the agency travel office to 
estimate moving costs and obligate the necessary funds for the 
permanent change of station (PCS). Positions that are currently vacant 
will be advertised in Grand Junction. Directed reassignments will 
capture the balance of positions that will establish the Western 
Headquarters.
    The remaining positions will be relocated to their newly assigned 
locations in the various State Offices following a similar method. 
Voluntary reassignments will be made as State Offices identify space 
and funds remain available for PCS costs. Currently vacant positions 
will be advertised in their respective locations. Implementation of 
relocations and realignments will take place over the next 15 months 
until the BLM's M Street Office lease expires at the end of calendar 
year 2020.
                           benefits to states
    Nearly every Western state, where the vast majority of BLM's lands 
and programs are located, will realize significant benefits from this 
realignment by virtue of augmented staffing levels. Collectively, the 
state-by-state approach to BLM realignment is the most meaningful way 
to optimize positions across the Bureau's western footprint. States 
will benefit from the presence of additional staff that possess 
experience and expertise in performing duties that address headquarters 
priorities, but who understand how to utilize that knowledge to advance 
each state's localized, day-to-day operations. More importantly, the 
Bureau will be better able to serve the American people with an 
increased staffing presence closer to the resources it manages, which 
in turn will allow for more informed and locally coordinated decision 
making.

    A few significant examples include:

    Arizona: Thirty-four positions currently in Washington, DC will be 
relocated to the Arizona State Office and the National Training Center, 
which is based in Phoenix. These positions will support both national 
and on-the-ground priority work related to planning, lands, and realty. 
Five additional positions will also be allocated to the State Office. 
Given the ongoing work occurring in the state, as well as the training 
opportunities that the National Training Center provides to employees 
across the country, the location of these staff members will be 
integral to educating and empowering the Bureau.

    California: Twelve positions currently in Washington, DC will be 
relocated to the California State Office in Sacramento and eight 
additional positions will be allocated to the State Office. Because 
there are a number of solar, wind, and geothermal projects in process 
in California, and in neighboring Nevada, the primary focus of these 
positions will be in support of the Renewable Energy Program. 
Collectively, these positions will be best able to support national 
policy needs while also providing support to the State Office. Several 
positions will be derived from the Bureau's Communications directorate 
to support both national Bureau objectives and the state's emerging 
media outreach initiatives.

    Colorado: Eighty-five positions currently in Washington, DC will be 
relocated to Colorado. Fifty-four positions will be split between the 
Colorado State Office and the National Operations Center in Lakewood. 
Twenty-seven positions will be located in the BLM's Western 
Headquarters in Grand Junction. Four additional positions will be 
allocated to the State Office. Colorado has diverse resource needs, 
ranging from minerals to recreation, and it also serves as a hub for 
the Bureau's Geographic Information Systems (GIS) projects and 
priorities. As such, positions from nearly every Directorate will be 
located in the Lakewood offices. This includes Business and Fiscal 
Resources Management positions, which will allow both the state and the 
Bureau to benefit from the development of policies and procedures that 
directly impact day-to-day operations.

    The relocation of these positions will also facilitate the transfer 
of knowledge from senior staff to the next generation through their 
proximity to State and Field Office personnel. Relocated staff will be 
able to provide a shared resource and expertise to support field 
operations. These employees will be able to take on complex strategic 
assignments, such as negotiating State Historic Preservation Office 
protocols and streamlining the policy development and review processes. 
Having these positions relocated to Colorado will enable these 
professionals to integrate into existing BLM work groups and networks 
and improve their functional capabilities.

    Nevada: Approximately 67 percent of Nevada's 48 million acres is 
managed by the Federal Government. Nevada has several program areas 
that would benefit from the assignment of headquarters positions to the 
State Office in Reno. Specifically, the state has a demand for:

    <bullet> National project management in the minerals program for 
            the Anaconda Mine cleanup under the Comprehensive 
            Environmental Response, Compensation, and Liability Act;

    <bullet> National geothermal program management, given that Nevada 
            has the largest program in the Bureau;

    <bullet> National project management for utility scale renewable 
            energy projects, including interstate transmission lines, 
            and wind and solar energy projects; and

    <bullet> Additional on-range management of the Bureau's wild horse 
            and burro program, given that Nevada has the highest horse 
            and burro population in the Nation.

    These specialists will be an asset to Nevada's work force and will 
provide strategic planning, mentoring, and knowledge transfer. For this 
reason, 32 positions currently in Washington, DC will be relocated and 
17 additional positions will be allocated to the Nevada State Office. 
Collectively, this realignment will enable Nevada to leverage national 
program staff where the BLM resources, partners, and public land users 
are located.

    New Mexico: Thirty-two positions currently in Washington, DC will 
be relocated and seven additional positions will be allocated to the 
New Mexico State Office in Santa Fe to perform priority and 
understaffed functions. This includes support for the minerals program 
and support for cultural, paleontological, and tribal programs. Given 
the significant activity across the state, including the revision of 
several Resource Management Plans, aligning staff to assist with both 
functions will benefit the public by having the capacity to leverage 
resources to promote better coordination, including with our partners 
on the ground.

    Additional advantages specific to New Mexico include:

    <bullet> Program alignment featuring more hands-on assistance, 
            coaching and feedback;

    <bullet> Enhanced training with corporate knowledge sharing, which 
            directly bridges to the states.

    A number of the allocated positions are specific to communications, 
human resources, and budget support. These positions are being 
allocated to the State Office to expand its capacity for state-wide 
communications and enhance support for employees.
                               conclusion
    The implementation plan will delegate more responsibility and 
authority down to the field, optimize services available to the 
American people, is demonstrably cost-effective, and will provide an 
increased presence closer to the resources the BLM staff manages. This 
is achieved through the following actions:

    <bullet> Maintaining the necessary core headquarters functions in 
            Washington, DC;

    <bullet> Optimizing the efficiency of positions currently based in 
            Washington, DC by relocating them to the State Offices 
            across the West which their work supports;

    <bullet> Allocating positions to State Offices to perform essential 
            State Office functions;

    <bullet> Establishing a Western Headquarters in Grand Junction, CO.

    The redeployment of the BLM's headquarters functions to Western 
locations is beneficial for the BLM's employees, the constituents they 
serve, and for every American taxpayer. The savings generated from 
reduced costs for facilities, travel, payroll, leases, etc., are 
significant. In addition, this initiative brings employees closer to 
the land they manage, which will result in more informed and better 
coordinated decisions made in the work the BLM does, so that land 
management decisions affecting the way of life for residents across the 
West will now be made and advised by staff based in the West, not in 
Washington, DC.
    This effort represents the Department of the Interior's role in 
fulfilling Congress' commitment to the West more than 82 years ago by 
properly aligning the BLM's function with its resources and 
constituents. We welcome the Committee's interest in the BLM 
realignment, we appreciate the support members of the Committee have 
expressed, and we look forward to working with you as we proceed with 
implementation.

                                 ______
                                 

Questions Submitted for the Record to Mr. William Perry Pendley, Deputy 
    Director, Policy and Programs, Bureau of Land Management, U.S. 
               Department of the Interior, Washington, DC
Mr. Pendley did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

             Questions Submitted by Representative Grijalva
    Question 1. Acting Director Pendley, this Committee has requested 
additional information on the BLM reorganization on numerous occasions. 
Many of those requests were repeated at your September 10 hearing. 
Please provide the following no later than September 24, 2019:

    1a. A 5-year cost benefit analysis of the proposed reorganization 
plan, breaking down costs by expenditure type.

    1b. Workflow analyses and/or professional consultation and analyses 
that demonstrate the projected benefits of this move, such as improved 
communication and coordination.

    1c. The position-by-position analysis used to determine which staff 
would be relocated, where staff would be relocated, and why.

    1d. A breakdown of the current staff relocation plans, including 
each title, current role, GS level, planned relocation site, timeline 
for relocation, whether the position is encumbered, and, if 
unencumbered, the length of time the role has been vacant.

    1e. The Department's disparate impacts analysis for this planned 
reorganization, demonstrating these relocations will not 
disproportionately impact any protected classes of employees.

    1f. Formal documentation of the Department's consultation with 
sovereign tribal nations on the reorganization of the Bureau of Land 
Management, including concerns raised by tribal leaders on the BLM's 
reorganization and the Department's responses to those concerns.

    1g. Documents demonstrating DOI's work with the General Services 
Administration to seek out alternative space in the National Capital 
Region to replace the capacity of the M Street location.

    1h. Surveys conducted to determine how many employees might retire 
or otherwise leave the BLM as a result of these planned moves.

    1i. Copies of any other reorganization plans reviewed or analyzed 
to outline this planned reorganization.

    1j. Details on the planned relocation costs for this 
reorganization, including cost estimates for the lump sum relocation 
incentives, house seeking trips, and temporary housing incentives 
provided to staff.

    1k. All continuity plans the Department developed to avoid 
disruptions to agency work products dming the reorganization.

    1l. Documents and communications relating to the selection of the 
locations at which current BLM staff in Washington, DC would be 
relocated, including any criteria for selection that was considered.


    Question 2. Acting Director Pendley, during Ms. Robin Brown's 
question period she referred to extensive consultations between the 
city of Grand Junction and DOI. She claimed that DOI requested 
information from the city, including transportation and lodging 
options, amenities, workforce analyses, etc; however, it is not clear 
that these consultations were part of a formal request for information 
put out by the Department. Can you please provide:

    2a. An outline of the process DOI used to request information on 
potential office locations.

    2b. An explanation of why these information requests were not part 
of a public, formal request for information.

    2c. Documentation of all public (i.e. non-Federal) consultation 
done on potential office locations.

    2d. What criteria DOI used to analyze potential office locations.

    2e. A list of all the cities considered as potential office 
locations.

    2f. A copy of the information provided by each city considered as a 
potential office location to DOI.

    2g. The analysis used to detennine why Grand Junction specifically 
was the best potential office location.

    Question 3. Acting Director Pendley, before your appointment to 
your current role earlier this year you worked on a number of high-
profile cases concerning decisions made by Federal agencies on resource 
protection and development. In order for the Committee to better 
understand how your leadership might impact agency decision making on 
these issues, we request the documents and information below:

    3a. A copy of your ethics recusals, including the scope of the 
recusal identifying any particular matters, name of the 
organization(s), people included in the recusal, the duration of any 
recusal, and what policy issues the recusal prohibits you from 
engaging.

    3b. Are you recused from all matters concerning Solenex LLC 
(Solenex) in the Badger-Two Medicine region of Montana? If yes, please 
provide the description of the recusal, the reason for the recusal and 
the duration of the recusal.

    3c. Are you recused from matters represented by his former 
employer, Mountain States Legal Foundation? If so, please provide the 
details of the recusal and the duration of the recusal.

    3d. Are you still the attorney of record for any litigation 
involving the Montana Badger-Two Medicine oil-and-gas lease? If not, 
when did you withdraw as counsel? Please provide documentation of this 
withdrawal.

    3e. Are you recused from all matters concerning the Bears Ears and 
Grand Staircase-Escalante National Monuments? If yes, please provide 
the description of the recusal, the reason for the recusal and the 
duration of the recusal.

    3f. Are you still the attorney of record for any litigation 
involving the Bears Ears and Grand Staircase-Escalante National 
Monuments? If not, when did you withdraw as counsel? Please provide 
documentation of this withdrawal.

              Question Submitted by Representative Haaland
    Question 1. Acting Director Pendley, the BLM has an obligation 
under The Federal Land Policy and Management Act FLPMA to ``give 
priority to the designation and protection of areas of critical 
environmental concern'' (ACECs) when preparing or revising land use 
management plans (43 U.S.C 1712(c)). These ACECs are used to provide 
special management and protection for biological, cultural, historic, 
scenic, and ecological resources and values.

    However, recent BLM draft resource management plan revisions have, 
instead of designating and protecting new ACECs, reduced or eliminated 
existing ones. For example, the draft Lewistown (MT) resource 
management plan proposes to eliminate all ACECs that exist in the 
planning area today. The draft Bering Sea-Western Interior (AK) plan 
would eliminate 1.8 million acres of existing ACECs and designate zero 
new ACECs, despite BLM's own determination that there are more than 4.2 
million acres that meet the relevance and importance criteria for ACEC 
designation. Many of these acres in the draft Bering Sea-West plan were 
further supported by many of the tribal nations in the region, who rely 
on the resources protected by the ACECs for customary and traditional 
uses, including subsistence nutrition.

    1a. How do you reconcile the elimination of existing ACECs in these 
draft resource management plans' with FLPMA's requirement that the 
Secretary ``give priority to the designation and protection of areas of 
critical environmental concern'' and ``take any action necessary to 
prevent unnecessary or undue degradation of [BLM] lands''?

              Questions Submitted by Representative Levin
    Question 1. During your testimony before the House Natural 
Resources Committee on September 10, you stated that you hoped that DC 
BLM employees who were identified for relocation would remain with the 
BLM after being so notified. You also stated that DOI did not conduct 
any prior survey or discussions with BLM staff about whether or not 
they would leave the BLM if advised that they were being transferred to 
a western state and that the affected employees would learn their fate 
with a notice that will be provide September 17. If you learn that more 
than 25 percent of DC staff will leave BLM rather than transfer to a 
western state, will DOI stop this process? Is there any threshold 
percentage of DC staff who inform DOI that they will leave BLM rather 
than transfer to a western state, that will cause DOI to stop this 
process?

    Question 2. You have told D.C. staff that they will start to be 
moved at the beginning of Fiscal Year 2020. Have you provided details 
about incentives for those who agree to move? Have you provided a 
timeline for when employees have to leave? How much advance notice of a 
required move will the September 17 notice provide to the affected 
employees? Are you not concerned about the negative impacts on morale 
that this move will have on the affected employees?

    Question 3. You have stated that DOI intends to use the $5.6 
million that Congress appropriated in the current budget cycle for the 
relocation. You have also stated that you are confident that Congress 
will provide additional funding as the process advances in the months 
ahead.

    3a. Does DOI have a contingency plan if Congress does not provide 
the additional funding that DOI is anticipating? Why is this process 
being pushed?

                                 ______
                                 

    The Chairman. Thank you, sir, for your valuable testimony. 
The Chair will now recognize Members for questions. Under 
Committee Rule 3(d), each Member will have 5 minutes.
    I am going to defer my questions. And in order of people 
coming into the meeting, let me recognize Ms. Haaland for her 
questions.
    Ms. Haaland. Thank you, Chairman, and thank you, Mr. 
Pendley, for being here. Thank you for your service as a Marine 
to our country.
    Mr. Pendley. Thank you.
    Ms. Haaland. I appreciate that.
    I just have a few questions. In 2009, at a Republican 
breakfast forum, you were quoted mocking American Indian 
religious practitioners that increasing insistence that Federal 
lands and private property be off limits because it is holy to 
them--using air quotes to punctuate holy. Do you believe this 
behavior is a good representation of the Bureau of Land 
Management that is responsible for--and I quote from the BLM's 
Fiscal Year 2020 budget request--the largest, most diverse, and 
scientifically important aggregation of cultural, historical, 
and paleontological resources on public lands?
    Mr. Pendley. I was not speaking as a member of the BLM. I 
was speaking as a private attorney representing private 
clients.
    I am proud to speak on behalf of the Bureau of Land 
Management now, and I am particularly pleased with the 
opportunities to work with the Bureau of Indian Affairs and 
tribes to establish tribal energy resource agreements to permit 
tribes to develop their energy resources. And I think that is 
one of the reasons why we need to make the move west with our 
skilled people, because we need to have the energy, mineral, 
and realty management experts who are now in Washington out in 
the field with the state offices to work hand-in-glove with 
tribal leaders on tribal lands to ensure their ability to 
develop the resources.
    Congress passed last year in 2018 a change to that law to 
permit more of these agreements. We are working aggressively 
with the BIA to have those agreements, and I will be a very, 
very strong advocate for tribes being able to enter into those 
agreements to take over the oil and gas leasing functions on 
their land, if that is their decision to do so.
    I am pleased to have that responsibility. And believe me, I 
will be speaking as the leader of the Bureau of Land Management 
in our work with tribal leaders. I think that the work that we 
perform in these agreements will be proof of the pudding for 
our willingness and desire to serve their needs and their 
interests, ma'am.
    Ms. Haaland. I am a little confused. So, you were able to 
just forget what you did back then, and now that you are 
working for BLM, everything is OK, is that what you are telling 
me?
    Mr. Pendley. I have a new client. My client is the American 
people. I am a zealous advocate for my client. I will be a 
zealous advocate for the American people in serving their 
interests and the interest they have in multiple-use lands 
managed by the Bureau of Land Management.
    It is not just energy minerals, it is recreation. And a 
hallmark of the Trump administration is access to recreational 
land.
    Ms. Haaland. Thank you. So, would it be fair to say, then, 
that the BLM has a significant responsibility for managing 
cultural resources use?
    You talk a lot about developing energy resources, but there 
are tribes who want to protect their land, who want to protect 
their ancestral homelands, because right now they feel like 
they are under attack. How can the BLM justify not performing 
any consultation with tribal leaders on the BLM reorganization?
    Cultural resources are not just a matter of course; they 
represent a history and culture and are living connections to 
our past--and not just my past, my ancestral homelands are 
Chaco Canyon, Bear's Ears, Grand Staircase-Escalante. But these 
belong to every single American. So, how can you justify not 
having proper tribal consultation when that really is one of 
the missions of the Department of the Interior?
    Mr. Pendley. I arrived on July 15. I am advised that the 
consultations that were required took place before I arrived.
    Ms. Haaland. OK, thank you.
    Mr. Pendley. And I will continue to engage in those 
consultations.
    I will tell you that I think the best way for us to achieve 
the objectives you seek and that I seek in the protection of 
cultural resources for which we have a legal responsibility 
is----
    Ms. Haaland. Thank you. I will move on to another question 
right now.
    Mr. Pendley. Yes, ma'am.
    Ms. Haaland. Thank you so much. So, now that you know that 
tribal consultations were not performed properly, if you will, 
I mean, you come in on July 15 and they tell you they've been 
done. But now that you know they haven't been done, because I 
am telling you they haven't been done properly, because I have 
heard from many, many tribes who said they were not done 
properly, do you feel a commitment to make sure that you right 
that wrong, that you remedy the situation, and go out and 
discover exactly what it is that Indian tribes want, or that 
their voice is even heard within the BLM?
    Now that you know that it wasn't done properly, can you 
commit to making sure that it will be done properly?
    Mr. Pendley. The voices we continue to hear from are 
Western voices, Members of Congress, governors, tribal leaders, 
local leaders, and what we are hearing is that we at the BLM 
lack resources, we lack people at the state and district and 
field offices to engage in the very activity you speak of, 
which is consultation.
    We need our expert energy people now in Washington to be in 
these state offices to meet those needs.
    Ms. Haaland. Thank you. It is very clear that the energy 
part is what is important to you, and not the voices of the 
people. Thank you.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. I am going to quote 
my illustrious friend to my left here, the Chairman of this 
Committee. He said in July, on this move, the BLM officials 
based in Washington are here to work directly with Congress and 
their Federal colleagues. BLM officials are here to work with 
Congress.
    That is one way of looking at the world. Many of us look at 
it entirely differently, that the role of the BLM is to work 
with the public, to work with the American people. So, we have 
two ways of looking at the world.
    Does BLM work for and with Congress, or do they work for 
the American people? And if they work for the American people, 
doesn't it make sense that they are located where the lands 
they administer on behalf of the people are located? I think it 
does.
    And I hear a charge that this is somehow a dismantling of 
BLM. It is to make the Agency less effective, to make it wither 
up somehow, and dry up, and blow away, instead of making it 
more effective. I think, actually, this move will make things 
more effective.
    Mr. Pendley, I would like to hear your views on this.
    Mr. Pendley. Well, I absolutely concur, Congressman.
    I will respond to one of the comments the Chairman made, 
simply it is my desire, it is the Secretary's desire, that we 
not lose a single employee. Our effort is to ensure either 
employees are able to go to a more fulfilling job out West, 
where they have a lower cost of living, increased purchasing 
power, they have shorter commute times, and they have 
availability to the resources we as Westerners love to enjoy. 
And if they are not able to do that, we want to find them a 
home in the Department of the Interior.
    We put on a freeze in the Bureau of Land Management at the 
end of August. We are not going to hire anybody except the 
people who may be displaced, and we have a freeze underway 
department-wide at the Department to ensure the availability of 
these opportunities.
    I want to assure Congress that we will continue to do our 
core headquarters functions. And by that I mean our 
congressional affairs, our regulatory affairs, our public 
affairs, our budget function, and our Freedom of Information 
Act requests.
    And with regard to those employees--to counter concerns 
expressed by former employees--those people will no longer be 
over on M Street, next to the Washington Nationals baseball 
stadium. They are going to be in main Interior, a hallway away 
from the Secretary of the Interior, the Deputy Secretary, and 
other decision makers, and they will be able to be responsive 
to the requests of Congress.
    But at the same time, our top people--and bear in mind who 
we are talking about here, we are talking about nearly half of 
our 24 SES, nearly half of our 256 GS-14s, north of 60 percent 
of our 79 GS-15s are all in the headquarters, are all here. We 
need them out in the field to answer the concern of Western 
Members of Congress, governors, local leaders, tribal leaders, 
and stakeholders to say, ``Hey, you need to staff up, we need 
your best people here.''
    And one of the things that I think we are going to see is 
we are going to see a better relationship with our 
stakeholders. We are going to see a better understanding of 
Western communities. And we are also going to see decision 
making, problem solving earlier in the process. Instead of 
waiting for a problem to blow up when it reaches M Street or 
headquarters, we can solve that problem by meeting with local 
people and having our top people out there, our top SES and GS-
15s and GS-14s in the field, with more oversight and 
accountability.
    Mr. Lamborn. Thank you.
    Mr. Chairman, I would like to read two items into the 
record, with unanimous consent.
    One is a letter from myself, Representatives Tipton and 
Buck from the Colorado Delegation, and Senator Gardner.
    The Chairman. Without objection.
    Mr. Lamborn. And the second is a letter dated today from 
the Associated Governments of Northwest Colorado endorsing this 
move.
    The Chairman. Without objection.
    Mr. Lamborn. Thank you.
    Mr. Pendley, if everything was to stay neutral, everything 
was to be a wash and function just the same as it did before 
after this move takes place, I think a lot of us would be 
happy. But it sounds like this will actually be an improvement 
in both accountability and efficiency. Is that true?
    Mr. Pendley. Absolutely. I think it will be a remarkable 
improvement. And let me give you an aspect of that.
    Many of our jobs--we are talking about 222 jobs going to 
perform headquarters functions in the state offices. We are 
talking about 74 jobs going into the state office to do state 
office functions. Many of those jobs are unfilled, and they 
have been unfilled for weeks, if not months and sometimes 
years. And it is simply because it is almost impossible to hire 
people here in the Washington area.
    You know better than anybody, all of us do, the cost of 
living in Washington, DC. The commuting times are crazy, the 
cost of living. So, we are going to have an increased ability 
to hire people in the field, whether they be recreational 
experts, planning experts, oil and gas or logging people, or 
people who can help us with our expertise that we need. I think 
we are going to have an easier time hiring employees. It will 
be better for the Bureau.
    The Chairman. Thank you.
    Mr. Cox.
    Mr. Cox. Thank you so much, Acting Director Pendley. The 
Department of the Interior's July 16 letter to the 
Appropriations Committee informing them about the Department's 
plans for the BLM reorganization has clearly stated that, 
``each position currently performing headquarters specific 
functions both in DC and in the field were assessed and 
analyzed.'' Yet, we are here today as the authorizing Committee 
for BLM, and this analysis has never been provided.
    I don't think you, frankly, inspired a lot of faith in 
making these drastic changes without providing nearly any 
background to Congress, or even to your own employees, who seem 
to have some major concerns about these moves.
    So, my questions for you today are how and when was this 
analysis conducted, and how did it occur without consulting 
with current agency staff, who seem to be blindsided by these 
changes?
    You, yourself, I think, quoted the other day that, ``I 
deeply regret''--and this is to your own employees--``that we 
have not been able to be more factually forthcoming with you 
prior to today.'' And I think that was just a few days ago, 
that you had not been factually forthcoming with your own 
employees.
    So, first question, if you can get back with how did this 
study occur, and can you provide us with a copy of that 
analysis?
    Mr. Pendley. Well, we did provide a copy of the analysis, 
the cost benefit analysis that was prepared by our Policy 
Management and Budget Office. And it has reached conclusions 
that this is a cost benefit effective way to go, that it will 
save money in the long run, and it will make us more effective 
as an organization.
    I can tell you that our Assistant Director for Operations, 
Mike Nedd, who has testified here in the past, has worked hand-
in-glove with our Assistant Directors, Assistant Secretary Joe 
Balash, and Deputy Assistant Secretary Casey Hammond, in 
interviewing and discussing each individual position of the 222 
and the 74, to say where is the best position for this person 
to be.
    I will give you an example, California. California is 
really the best location for our all-of-the-above energy 
solutions, whether it is fossil fuels, wind, solar, or 
geothermal, as well as Nevada. And we are sending some of our 
top people who are experts in those areas out to California to 
do those headquarters functions and to make California a center 
of excellence with regard to renewable energy.
    But those consultations have been made. And when I said in 
my opening remarks, I meant it sincerely--specifically with 
Assistant Directors on an individual-by-individual, position-
by-position basis, saying where should this person go, where 
should this job go, where do we get the most bang for the buck 
to serve the needs of the American people.
    Mr. Cox. Well, thank you so much. On that, it doesn't seem 
like, though, you spoke to the staff-level employees.
    But the other question is, unlike today, I think most of 
the BLM's lands are probably in Nevada. And a flight from Reno, 
Nevada to Washington, DC was $300. To Grand Junction, Colorado 
it was $600. So, why Grand Junction? What is the justification 
for locating there?
    No disrespect to my colleagues from Colorado, but there is 
no major airport there. Denver is 250 miles to the east, Salt 
Lake, 200, 300 miles northwest. No other Federal agency is in 
Grand Junction. And how can Grand Junction be more efficient 
than someplace else out West, be it Denver, or Reno, or Fresno?
    Mr. Pendley. We have many offices throughout the Mountain 
West and throughout the 11 Western states and Alaska. And one 
of the touchstones was we don't want to put a national 
headquarters where a state office is, or maybe a district 
office is, simply because we want to follow chain of command. 
We don't want somebody in, say, Denver, Cheyenne, Boise, or 
Billings going to see the Director when they really should be 
going to see our State Director.
    One of the things that we have sought to maintain with this 
program is to strengthen the power and responsibility of our 
State Directors. And we do that by making them the final 
arbiter of these decisions that affect their states.
    Mr. Cox. Yes.
    Mr. Pendley. We feared putting a national office where one 
of those state offices is would cause a conflict.
    Mr. Cox. Thank you so much. I mean when you say you are 
putting them out in the field, I think you probably meant left 
field. Grand Junction--although it is probably a beautiful 
place, I have never been there--I cannot see how some place 300 
miles from the nearest major airport could be more efficient to 
the stakeholders.
    But the fact is, prior to your previous testimony, there 
has not been a cost benefit analysis provided to this 
Committee. And we also would like to see the position-by-
position analysis that you have referenced. Can you commit to 
providing that to this Committee?
    Mr. Pendley. Congressman, I will have to defer to 
Congressional and Legislative Affairs. I will submit your 
question to them for their response.
    Mr. Cox. Thanks very much.
    The Chairman. Mr. Gosar, the time is yours.
    Dr. Gosar. Thank you, Mr. Chairman.
    Deputy Director Pendley, thank you very much for making 
time for us today.
    Let me ask you a question. A mission statement for the BLM, 
what is it?
    Mr. Pendley. Manage our multiple-use resources to the 
benefit of the American public, as far as I am concerned.
    Dr. Gosar. OK, and where are your resources located? East 
or west of the Mississippi?
    Mr. Pendley. Almost exclusively west of the Mississippi. 
Two hundred forty-five million acres of land, almost 
exclusively in the 11 Western states and Alaska, sir.
    Dr. Gosar. So, almost 99 percent of that jurisdiction is 
west of the Mississippi, right?
    Mr. Pendley. Absolutely.
    Dr. Gosar. Yes. See, the problem we are having here is that 
the swamp wants to keep centralized control over everything, 
instead of what is best is politics that are driven locally. 
So, people feel this.
    And I am just going to share a story. Secretary Bernhardt 
shared a story with us at the Western Caucus in regard to one 
of the senior BLM employees who was excited about this move, 
because this will be the first time he has actually seen 
sagebrush.
    Mr. Pendley. Wow.
    Dr. Gosar. How sad is that, that you have jurisdiction over 
this whole area, and over the multiple decades this man was in 
service he had never seen sagebrush? It tells me a lot.
    Are you familiar with markets?
    Mr. Pendley. Markets?
    Dr. Gosar. Yes.
    Mr. Pendley. I am a lawyer, I am not----
    Dr. Gosar. I just heard my colleague from California talk 
about the cost of Grand Junction. The more you use an airport, 
do the prices go up, or do they usually go down?
    Mr. Pendley. Prices go down, sir.
    Dr. Gosar. That is what I thought. But that is kind of the 
distorted view, I guess, we see from California, from that 
aspect.
    So, tell me why Grand Junction. Tell me what deliberative 
process went through picking and moving this agency. I know we 
had a lease expiring that was never going to be renewed due to 
cost. Tell me a little bit how deliberative this process was.
    Mr. Pendley. Well, I regret that I can't go into the 
specifics of that decision, but I have been assured that it was 
one that was batted around for a couple of years. I mean this 
relocation arose beginning with President Trump's Executive 
Order mandating that executive agencies reorganize to better 
serve the American public. We adopted our unified regions in 
2018, and the Bureau of Land Management relocation is the next 
step on that process.
    You are absolutely right on where the resources are. And 
you are absolutely right that 97 percent of our career 
employees are out there, too. What we are talking now is about 
a scant 3 percent--whether those top executives, the real 
decision makers, the ones giving advice to the Secretary, 
should they be here in our hallways, or should they be out in 
the field, seeing sagebrush for the first time, or examining 
the site? And that is the Secretary's opinion, that they need 
to be on the ground.
    We can solve problems earlier in the process if we see them 
earlier, if we have meetings, more frequent and meaningful 
engagements with local people. We will understand local 
communities better.
    I have appeared before the Supreme Court of the United 
States. And one of the things you will hear advocates at the 
court always talk about is having been on the site, been to the 
location, been where the facts of this case arose so that the 
justices can understand what is happening and the impact it 
will have. No attorney would appear before the Supreme Court 
not having done that.
    Yet, with the Department of the Interior, we are making 
decisions based on papers, photographs, and maps, when we 
really need our experts, our top people in Washington, to be on 
the site, on the location. And that helps them train our future 
leaders, because they are out there on the ground providing 
them headquarters experience and knowledge, and applying that 
to on-the-ground experience.
    Dr. Gosar. So, you are telling me that hands-on really is 
something that is beneficial to the employee, as well as to the 
American people?
    Mr. Pendley. Absolutely. It is hard to think of anything 
more important than actually being on the ground and seeing the 
site. The West is so diverse. There is so much out there, so 
much to see. And there are so many issues involved.
    The Representative was talking about cultural issues and 
understanding cultural issues. You just can't get it if you 
haven't been there, if you are not there. And we have decision 
makers in Washington who are over on M Street, and haven't been 
on the ground, and they need to be out there better serving the 
American people.
    Dr. Gosar. I am going to end with this. Grand Junction 
seems like it came out of left field, but, in fact, it actually 
is not, because we don't see the big city corruption in Grand 
Junction. I am very familiar, I actually have family that lives 
in Grand Junction. It is very centrally located.
    So, there is a big benefit to having the ability--these 
workers are dependent upon that interaction with the 
surroundings that they serve. Is that true?
    Mr. Pendley. Well, I absolutely believe--I live in 
Evergreen, Colorado. That is my home, and has been my home for 
30-some years. I look out on Mount Evans 14,000 foot, and I 
wouldn't trade that for anything. It beats the heck out of the 
view out of my studio apartment here in Washington, DC. And I 
dare say people going out to Grand Junction will love what they 
see.
    Dr. Gosar. Especially when you hear that elk whistle.
    The Chairman. Thank you, Mr. Gosar.
    Mr. Neguse, the time is yours.
    Mr. Neguse. Thank you, Mr. Chair, for holding this 
important hearing. I certainly appreciate the opportunity to 
talk about these issues.
    Thank you, Mr. Pendley, for your service to our country. 
And it is an honor to be able to represent you as a 
constituent. I represent the great area of Evergreen, as well 
as Western Jefferson County, and a number of other counties in 
the 2nd Congressional District in Colorado.
    I just want to say a couple of things. Obviously, as a 
Member from Colorado on this Committee, this is a particularly 
important issue to me. And I want to reiterate a comment that I 
made many times before in this Committee, and that is Colorado 
is home to world-class research institutions, labs, scientists, 
that I am confident we would do outstanding work for the BLM. 
Providing the best science for any agency is a good thing.
    With much respect to my colleague from the state of 
California, I would defend Grand Junction is a wonderful place, 
a wonderful community, a robust city, as I know, my colleague 
from the 3rd Congressional District is certainly well aware, 
and I know the people there would certainly do a wonderful job 
at the BLM, and supporting the BLM work.
    With all that being said, obviously there are some 
important questions that have been raised by members of this 
Committee and elsewhere in the Congress. And those are 
important questions. And it is important for the Director to be 
able to come in and answer those. I want to focus just on two 
particular areas.
    The first is with respect to public lands in general. 
Director Pendley, this is the first opportunity we have had to 
have you before the Committee since you took your position. In 
2016, you wrote an article titled, ``The Federal Government 
Should Follow the Constitution and Sell Its Western Lands.''
    And I guess I want to give you an opportunity to disavow 
that article, that that is no longer your belief, because 
obviously that causes a lot of alarm for those of us who care 
deeply about public lands, and ensuring that they be maintained 
for the use and enjoyment of future generations, which is the 
position, the mission statement of the BLM, I should say, per 
your website.
    Mr. Pendley. Absolutely. Mr. Chairman--Congressman, I 
appreciate the----
    Mr. Neguse. Not a chairman yet.
    Mr. Pendley. Exactly. Excuse me. Congressman, I appreciate 
the opportunity to respond.
    I love America's public lands. I have never advocated the 
wholesale disposal or transfer of those lands. And more 
importantly, as a loyal and proud member of the Trump 
administration, I support the President and Secretary Bernhardt 
in their crystal clear opposition to the wholesale disposal or 
transfer of public lands.
    Mr. Neguse. I am just going to stop you there, Director, 
because you mentioned that in your opening statement.
    Mr. Pendley. Yes, sir.
    Mr. Neguse. I have limited time. I have another question I 
want to get to.
    This notion of continuing to use the phrase ``wholesale'' 
to me, is a qualifier that I don't think is appropriate. It 
sounds as though you are denoting that----
    Mr. Pendley. It is not a quibble.
    Mr. Neguse [continuing]. Some sale of the lands is 
appropriate, and I just--well, we fundamentally disagree on 
that point. So----
    Mr. Pendley. Well, if I can respond, please, it is not a 
quibble. The point is Congress makes decisions about the 
disposal of lands. You provide the BLM authority to dispose of 
lands, for example, for educational purposes, or for landlocked 
circumstances, or for other reasons. And when Congress makes 
the decision to do that, then we will salute and we will do it, 
we will obey.
    That is the wholesale part. There may be case-specific 
circumstances where we do transfer or dispose. But Congress is 
the boss under the property clause, and it will tell us when we 
can do that, sir.
    Mr. Neguse. I appreciate that. Thank you, sir. To that 
point, there was an article, I believe, earlier this week in 
E&E--Representative Cox referenced it. The title was, ``BLM 
staffers rip relocation plans in closed-door meeting.'' I want 
to ask you about the piece of the article referencing 
congressional oversight. And there is an exchange in this 
article. I will just quote from it:

        Pendley also referenced $5.6 million that Congress 
        appropriated in the current budget cycle for the 
        relocation. ``It's there, and we intend to utilize it, 
        believing that that will be sufficient, and we are 
        confident that Congress will provide additional funding 
        as the process advances in the months ahead,'' he said.

        That answer seemed to rile employees, one of whom said 
        that she understands Congress holds the ``power of the 
        purse strings,'' and that employees need more than 
        assurances from Pendley, ``that the secretary believes, 
        or the secretary is confident'' Congress will fund the 
        relocation.

    Here is why it matters. Here is why I am referencing this. 
You mentioned a few times that you are a ``loyal member of the 
Trump administration.''
    Mr. Pendley. Yes.
    Mr. Neguse. And, obviously, right now we are enmeshed in 
this Congress in a very big debate about the Administration's 
ongoing efforts to steal money from military appropriations and 
defense projects very important to the state of Colorado, to 
use those to build a border wall. And I just hope that you 
understand and the BLM understands, for those who support this 
move and for those who don't, that the Congress has a role to 
play.
    And it is going to be important for the BLM to work in 
tandem with the Appropriations Subcommittee Chair, 
Representative McCollum, as well as the chair of the 
authorizing committee that is Mr. Grijalva, as you move forward 
with this plan.
    So, I just want to make sure we reiterate that. I am happy 
to give you a chance to respond, although I see my time has 
expired.
    Mr. Pendley. May I respond, Mr. Chairman?
    The Chairman. Please.
    Mr. Pendley. Thank you very much. I get it. We understand. 
And that is why we are here, because we believe that we can 
persuade you, the Committee and Congress, that this makes 
sense, that it makes sense for the American people, it makes 
sense for the Bureau of Land Management and its employees.
    And we know, at the end of the day, you hold the purse 
strings. And we understand that. But I was asked by that 
employee to speculate on what might happen. I knew two things. 
One, that Congress had decided to give us $5.6, and the 
Secretary made a decision to utilize that to move. So, we are 
on with the march.
    And we are hoping to be persuasive that this makes a 
tremendous amount of sense. It will benefit economically in the 
long run, but it will be more than just economically 
beneficial. It will make for the wise use of our natural 
resources.
    Mr. Neguse. Thank you.
    Mr. Pendley. Thank you, Mr. Chairman.
    Mr. Bishop. Thank you for being here. I want to welcome Mr. 
Tipton back with us again. It is good to have you here. How 
come we put him down in the beginner seats?
    [Laughter.]
    The Chairman. He volunteered.
    Mr. Bishop. You could sit with the real people if you 
wanted to. Thank you. OK. Yes, I have your back, that's for 
sure.
    Mr. Pendley, thank you for being here. Let me go through 
some of the blinding, obvious questions very quickly again.
    There are those who are still saying that if this move 
takes place, there are those who will lose a seat at the table. 
I am supposed to ask you is that a bogus claim, but I am going 
to ask you why is that such a silly bogus claim?
    Mr. Pendley. Well, I don't know who could possibly lose a 
seat at the table. I think this is a win-win, all around. I 
think it is a win for our people in the field, who will have 
our best experts coming to the field to provide leadership, 
guidance, supervision, and to train our next group of leaders.
    I think people who remain here in Washington, DC will have 
a proximity to the Secretary of the Interior and the Deputy 
Secretary that is unprecedented in the history of the Bureau.
    Mr. Bishop. So, let me help you out with this.
    Mr. Pendley. Thank you, I am sorry.
    Mr. Bishop. What you are saying is you don't have to 
actually be in point X to make decisions that are wise, as long 
as you understand the areas in which you are talking about. So, 
if we have the Center for Disease Control in Atlanta, have the 
firefighters in Boise, they can still function just as well.
    And if, indeed, one believes in the principle of 
propinquity--first of all, you are down by Nats Stadium, right, 
which is certainly a hell of a lot better than going back to 
the Interior Department. You should probably stay there. But I 
understand that is going to be really expensive property down 
there. And what remains after this transfer would be moved back 
here with the rest of the Department. So, if you actually 
believe in the rule of propinquity, you actually--it is a win-
win situation from that.
    Mr. Pendley. Well, we have a deadline. It seems a long way 
away, December 31, 2020, but it is soon. And we have to make 
plans about how to use that--what to do with those employees. 
And our plan is to put them in the main Interior building, and 
the others we are going to put in the field so they can better 
serve the American public.
    Mr. Bishop. At least stay there through the play-offs. That 
is a wise thing to do at the same process.
    Mr. Pendley. Thank you.
    Mr. Bishop. Let me come back with some of the other things 
that we have talked about.
    We have brought up how much it costs to fly from Grand 
Junction. I am assuming there were other factors when you came 
up with a decision that dealt with the cost of each area--you 
also include the cost of housing, cost of living, school 
element, where it would be possible. Did you consider all of 
those factors, not simply the price of an airline ticket?
    Mr. Pendley. I am advised all of those factors were 
considered. I will tell you what we are looking at right now 
with regard to cost per square foot, we are looking at between 
$28 and $30 per square foot for our new headquarters in Grand 
Junction, Colorado. We are paying $50 or more per square foot 
at our M Street location.
    Even if we could obtain that--and that is our calculation 
for the main Interior building, as well--we will have to build 
out with regard to some of our locations in Reno, Carson City, 
Salt Lake City, Santa Fe, or Albuquerque. But there we are 
looking at costs between $14 and $20 or $8 or $30 a square 
foot. So, it is much more economic to be there. It is a lower 
cost of living. Our dollars go further and our people are close 
to the resources.
    Mr. Bishop. All right. And one of the things I think we 
have forgotten in this entire discussion is that you are not 
just moving everything to Grand Junction. I appreciate you 
taking all those factors into consideration. You still should 
have been in Utah. But Grand Junction is not necessarily where 
everyone is going to go.
    Mr. Pendley. Absolutely.
    Mr. Bishop. We are also moving people to New Mexico. You 
are moving people to Arizona, to Nevada, over to Utah, up to 
Idaho, where their function can be better enhanced by being in 
those particular areas. So, this is not just a wholesale move 
from that stadium to Grand Junction. You are covering the 
entire West, and you are going to allow a greater expertise and 
a greater experience throughout the entire area in which you 
find BLM lands. Right?
    Mr. Pendley. That is absolutely the case. We have 74 people 
going to various state offices to perform state office 
functions. We have 222 people going to state offices to perform 
headquarters functions. Nearly every--well, not nearly--every 
Western state will benefit from the infusion of experts.
    Mr. Bishop. We all will benefit, and I appreciate that.
    Mr. Pendley. Yes, sir.
    Mr. Bishop. Just don't send ours to Salt Lake. That is the 
only thing you have to remember.
    Let me go with one other thing here, too. In addition to 
all of that stuff--I am sorry, that was my ad--historically 
what we are doing is trying to understand how land--if you 
really care about your land, you have to take care of it.
    In the 1860s, historically, we started the Homesteading 
Act. And I am quoting from Dr. Nelson, University of Maryland, 
now, who has done a lot of studies as far as the history of 
land management and land decisions. Almost all of those 
homesteading acts--I think the last one was like 1912, 1916--
that were attempted failed. And in his analysis it failed for 
one reason: the people making decisions on those lands lived 
thousands of miles away from the land in which they were trying 
to adjudicate.
    That is what you are trying to say in here, is the land is 
out in the West, not just in Nevada, but it is in the entire 
West. Moving people closer to that will make a better decision. 
And we have historical evidence of doing that. Did you want to 
say something, I'm over, but so is everybody----
    Mr. Pendley. Absolutely. If the Chairman will allow, my 
response is simply we want to be a good neighbor, and we cannot 
be a good neighbor if we are not first a neighbor. So, we need 
our employees to be neighbors so they can be good neighbors, 
and serve our communities, our states in the West, but also 
serve the American people.
    Mr. Bishop. Thank you. I appreciate your being here. I 
appreciate your answers. And somebody else is going to have to 
ask you about consultation.
    Mr. Pendley. Thank you.
    The Chairman. Mr. Hice.
    Dr. Hice. Thank you very much for being here today, Mr. 
Pendley. And, listen, I very much appreciate this 
Administration's efforts to drain the swamp, and to help push 
as much of the Federal workforce outside the DC Beltway. I 
think this is a great idea.
    And Mr. Chairman, I appreciate us having this hearing today 
to discuss this.
    You have stated that, in your opinion, relocating BLM 
leadership closer to the activities and states will provide a 
greater understanding of the needs on the ground in those 
various states and regions, and facilitate, as a result, more 
meaningful policies.
    I would like to go further on the discussion that has 
already been taking place. How will the American people 
themselves be able to visualize and experience how Americans 
are going to be better served if the leadership and the 
resources are moved closer to the actual places that are 
impacted and involved with BLM?
    Mr. Pendley. Congressman, I think one of the ways is better 
decision making earlier in the process. None of us like the 
logjam that we have seen, for example, with the National 
Environmental Policy Act, where we have endless litigation, and 
it makes it difficult for rubber to hit the road, and whether 
we are doing a recreational project, or grazing renewal, or oil 
and gas operations, whatever we are doing. They get bogged 
down.
    And one of the things the Secretary has done is forced 
those decisions out into the field with Secretarial Order 3355 
to shorten our NEPA process and get it done right. And one of 
the ways we can most effectively do that is having our top 
people in the field--to have them close to the resource, to 
have them making decisions not based on paper or photographs or 
maps, but actually being on the ground.
    We are going to have early problem solving. We are going to 
understand the Western communities. We are going to have more 
frequent and meaningful conversations with our stakeholders. 
And I think it is going to inform our decision-making process. 
The beneficiary will be the American people, because whatever 
decisions we are making, whether it is a recreational issue, or 
logging issue, a mining issue, or land transfer as ordered by 
Congress, we are going to do it more expeditiously, we are 
going to do it with local input, and we are going to get the 
decision made more promptly.
    Dr. Hice. So, the policy side of things will be beneficial.
    I would like to go a little bit further on where Chairman 
Bishop, Ranking Member, was just talking, and some of the 
savings to the American taxpayer, as well. Obviously, I would 
think this would be a significant savings in multiple ways to 
the American taxpayer. But you mentioned where the BLM is 
currently located on M Street. Did I hear you correctly? It is 
$50 per square foot?
    Mr. Pendley. It is $50. That is what we are being told----
    Dr. Hice. Fifty dollars?
    Mr. Pendley. And it is going to be north of $50 a square 
foot. We are paying $4 million a year for that space.
    Dr. Hice. All right. That is what I wanted to get to.
    Mr. Pendley. Yes, sir.
    Dr. Hice. Some of the totals. So, $4 million where you 
currently are, and in Colorado it would be--did you say $38?
    Mr. Pendley. We are looking at $28 to $30, sir.
    Dr. Hice. Twenty-eight to thirty?
    Mr. Pendley. Twenty-eight to thirty dollars per square 
foot. Yes, sir.
    Dr. Hice. So, what would that total be?
    Mr. Pendley. Well, we are looking at 10,000 square feet. We 
are looking at $280,000 to $300,000 for--we are not going to 
have 350 people there. Right now we are going to have 27 people 
there.
    But still, again, it is going to be a substantial savings 
per person. We are also going to save on locality pay, the 
extra costs we pay employees when they are in a high cost of 
living location. We are also going to save significantly on 
travel. We are going to have shorter trips. We are going to 
make more efficient trips. I think we are going to find people 
making shorter trips and even drives, operating in the same 
time zone.
    And, of course, as one of the Members has already stated, 
we are in a new technological world. We don't have to be just 
down the hall from somebody to be in full communication with 
them. What we need to do, though, is we need to be on the 
ground with those resources.
    Dr. Hice. Excellent. And I think that is an extremely great 
point, and a lot of benefit to the taxpayer.
    Last question, and I will let you wrap up with this. Going 
with the consultation with local partners, what has taken 
place, and what is the attitude of the locals?
    Mr. Pendley. I have not been able to be out west as often 
as I want, but I will tell you what the Secretary's response 
is, and what Joe Balash, when he was here, and also our Deputy 
Assistant Secretary Casey Hammond's response is. Each one of 
them says, ``Every time I go out west and meet with local 
leaders, they say, `We are so thankful that you are sending 
your folks out here, that you are going to have an increased 
presence.' ''
    I will tell you consistently what we have heard--and I know 
you have heard it, because you oversee what we do--and that is 
we don't have the resources and the people we need in our 
state, district, and field offices. We are going to put them 
there.
    Dr. Hice. Thank you very much.
    The Chairman. Ms. DeGette.
    Ms. DeGette. Thank you so much, Mr. Chairman.
    Mr. Pendley, welcome. You had a majority of our Colorado 
Congressional Delegation here this morning. And I think we 
could all agree on a bipartisan basis, and we would agree with 
you, any day in Colorado is a better day than when we have to 
be here. I think all four of us agree with that.
    And I also agree with you that you really need to see what 
is on the ground when you are dealing with Western land 
management issues. And that is why you probably know I have a 
wilderness bill for Colorado that we are looking at this fall 
in this Committee, which has a number of BLM wilderness study 
areas and others that we are thinking about making permanent.
    And I do want to commend the BLM, which has been working 
with us quite well on map development and so on. And that 
really goes to the questions I wanted to ask you about the BLM 
staffing, because it is one thing to move the BLM to Grand 
Junction, Colorado. And being from Denver, I will say the only 
thing I disagreed with was when Mr. Gosar said big cities were 
corrupt and little cities weren't, because I don't agree with 
that. I think every place in Colorado is wonderful.
    But my question is just moving the office to Grand Junction 
is not necessarily going to solve some of the staffing issues. 
I want to ask you about that. Recently, it was reported that 
there are 323 positions at the BLM theoretically being moved to 
the Western states. But right now there are only 177 staff in 
those positions. They haven't been filled.
    Mr. Pendley. That is correct.
    Ms. DeGette. And in addition, the BLM estimates that at 
least 45 of those 177 positions will either retire or leave the 
Agency for other jobs because they don't want to have to move, 
which, I certainly don't understand that.
    So, in the meantime, I was in Mr. Tipton's hometown of 
Cortez over the August recess, looking at some of my wilderness 
areas and working with the Tres Rios BLM office down there. 
They are also short-staffed. They have an Acting Director down 
there. They have many staff vacancies. And they were not really 
able to--I mean, they worked hard to help support my visit down 
there, but they didn't have a lot of the information that 
having a steady, long-term staff down there would have had. So, 
I am not sure moving the headquarters solves these problems.
    And, as you know, having been a lawyer, there are a lot of 
issues that the BLM staff in these regional offices need to 
address: development of oil and gas and mineral leases in BLM 
lands; recreation plans, especially in places like Colorado, 
but throughout the West.
    So, I am wondering if you can tell me--that is a longer 
question than I usually ask. But what I would like to hear from 
you is: (1) How do you think that simply moving the office to 
Grand Junction and other points in the West will solve these 
staffing problems? And, (2) What is the BLM's longer-term plan 
for filling these positions with qualified personnel?
    Mr. Pendley. Absolutely, great questions. And I don't want 
to conflate things. The move to Grand Junction with our 
headquarters and the 27 slots that are allocated there is one 
thing. The other part of that is the 222 that are going to be 
relocated from the headquarters through the various state 
offices to perform headquarters functions, and then the 74 that 
are going to be allocated at the state office to do state 
office functions.
    Ms. DeGette. That is great, but that still doesn't fill the 
vacancies throughout the Agency, not just at the headquarters 
level.
    Mr. Pendley. Exactly. I totally understand. And part of the 
problem is simply that we have not been able to staff up, 
because we are trying to staff up in Washington, and we need to 
be able to fill those slots. And I think offering people an 
opportunity to live in and work in the West will overcome a 
part of those problems.
    Ms. DeGette. Well, actually, though, 45 of those 177 people 
you have now, they said they are not going to move to the West.
    Mr. Pendley. All right----
    Ms. DeGette. Do you have people in the West who are 
qualified, who say they are going to take that job?
    Mr. Pendley. If I could slightly correct that statement, 
that is an estimate that our policy, budget, and management 
people made calculating that typically 25 percent----
    Ms. DeGette. Did they find 25 percent that want to go 
there?
    Mr. Pendley. No, no, it is simply a rough calculation. We 
have to make some numbers, we are going to try to get a number 
to provide Congress. What is our PECS going to----
    Ms. DeGette. I understand. Did they get the number on the 
other side of how many more people would want to come in? Do 
you have that number?
    Mr. Pendley. I don't have that number.
    Ms. DeGette. Thank you very much.
    Mr. Pendley. Yes, ma'am.
    The Chairman. Thank you very much.
    Mr. Curtis.
    Mr. Curtis. Thank you, Mr. Chairman. I am from Utah's 3rd 
Congressional District, and I have always imagined that we were 
BLM's favorite district until this recent decision.
    [Laughter.]
    Mr. Curtis. And now I am content to say I am your second 
favorite district.
    Mr. Bishop. Third.
    [Laughter.]
    Mr. Curtis. This is my time.
    [Laughter.]
    Mr. Curtis. Interestingly, my district is only 33 minutes 
away from Grand Junction in Utah.
    Mr. Pendley. Awesome.
    Mr. Curtis. The furthest part of my district is 5 hours 
away from Grand Junction. So, you can imagine, although we 
would love to have it in Utah, the pleasure of my counties down 
in that part of my district to learn of your decision.
    I was recently down in that part of my district, and every 
time I am there I consistently hear, ``We love our BLM agents 
on the ground, and we are really frustrated with those 2,000 
miles away.'' It is just this repeated theme. There is a sense 
that they don't understand what they are dealing with, and the 
decisions that they are making, how they impact them. So, this 
decision is met with great pleasure throughout my district. 
They are really excited to have you there, looking forward to 
having those making decisions right there, near them in their 
daily lives.
    And I would like to mention two things, just quickly. One 
of them is likely on your radar and one would not be. The Emery 
County public lands bill recently passed with the large lands 
package this year requires a ton of work from BLM, and I just 
want to thank your good people for the work they have done, and 
get that on your radar. A lot of work still needs to be done on 
the ground there.
    Mr. Pendley. Yes.
    Mr. Curtis. And the second thing is--this is a small thing 
here in Washington, but, here again, a very large thing back in 
the district. During my visit, I visited a canyon called Nine 
Mile Canyon. It is full of antiquities from the Fremont 
Indians. Unbelievable treasures throughout that canyon. They 
have been working for years with BLM to get signage in that 
canyon, and have been unsuccessful simply because of lack of 
resources. So, I wanted to get that on your radar, so we could 
follow up with your staff, and see if there is any chance that 
we could expedite that.
    Mr. Pendley. Thank you.
    Mr. Curtis. And with that, I have no more questions, but I 
would like to yield to my colleague from Utah, Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Curtis, I appreciate that. And I 
realized you share the border with that part of Colorado. And 
it is a great area.
    Mr. Pendley, I would like to ask one question, simply 
because one of the attorneys wrote testimony in here saying 
there were no consultations with Native Americans. Is that 
accurate?
    Mr. Pendley. I do not believe it is accurate. I am advised 
that we did engage in consultation with tribal leaders with 
regard to a multiple set of issues, especially, for example, 
the unified region decision that was made, and the 
recommendation from tribal leaders, the BIA, the Bureau of 
Indian Education, and our special trustee.
    And I know for a fact that, because of our on-the-ground 
activities in working with tribes through the--for example, 
these tribal energy resource agreements--and I am not just 
focusing on energy issues, but simply that is a big issue for 
many of the tribes. It was an issue for this Congress--that 
they need our on-the-ground ability to help them out on those 
issues. And having people there in the West, and not here in 
Washington, is the solution, in my view.
    Mr. Bishop. Thank you. And I would like to introduce for 
the record also the letter that Assistant Secretary Sweeney 
sent to Mr. Grijalva explaining what the process was. And 
indeed, there were 11 formal consultation sessions, and an 
additional 7 listening sessions.
    I know some people have said that that is not the proper 
type of consultation, which is a word--I don't know if anywhere 
is actually defined of what ``proper'' is. But do you think 11 
formal consultations, 7 additional listening sessions, having 
the transcript of all of those for public comment, and then the 
feedback that you got from indigenous and digital views--do you 
think you actually did due diligence in going through this 
consultation process?
    Mr. Pendley. Absolutely.
    Mr. Bishop. I think I do, too, and so does the letter that 
was sent there. So, if I could have this put in the record.
    The Chairman. Without objection.
    Mr. Bishop. Thank you. And thank you once again for your 
indulgence. I will yield back.
    The Chairman. Thank you.
    Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair, and thank you to our 
witnesses for being in attendance here today.
    I am deeply concerned with the Department of the Interior's 
proposal for the reorganization and relocation of the Bureau of 
Land Management headquarters from Washington, DC to Grand 
Junction, Colorado. To me, this proposal seems to be a 
continuation of the Trump administration's effort to drain the 
swamp, which oftentimes becomes adding to the alligators, 
which, in reality, is an attempt to push out career employees 
and weaken Federal agencies. This is a dangerous move, one that 
not only disrespects Federal employees and their dedication to 
public service, but also threatens to rid Federal agencies of 
institutional knowledge and devoted civil servants.
    This proposal has not taken into account external or 
internal stakeholders. Agency personnel have not been 
consulted, and were only given notice of this proposal when it 
was released to the public. Winning political points should 
never take precedence in decision making over working toward 
the mission of the protection of our Federal public lands and 
our service to the American people. These decisions must be 
fully examined, since any detrimental effect will be felt for 
years and possibly generations to come.
    So, Acting Director Pendley, one of DOI's rationales for 
this reorganization is to enhance coordination with partners 
and stakeholders. What evidence or analysis do you have that 
shows that spreading headquarters staff and teams across 12 
offices will improve coordination?
    Mr. Pendley. What we hear consistently from Members of 
Congress, governors, Western leaders, stakeholders, our 
partners in the field is simply that we don't have the staffing 
we need in the field offices and the state offices to be 
responsive and to understand fully their problems and their 
concerns. And we are being responsive to that by putting our 
best experts in the field so they can join with the people who 
are already there to make better decisions earlier in the 
process in a more timely way.
    Mr. Tonko. But how is that--I hear the effort to put people 
on the ground in certain regions and understand the benefit of 
that. But how is that enhancing coordination? It seems to me 
you have more locations, so the coordination effort becomes 
even more difficult.
    Mr. Pendley. Well, having our employees two time zones 
closer reduces the geographic barriers that we have right now, 
because they are in the Mountain West, they are in the Western 
states. They are available to the stakeholders and the 
shareholders and the various constituents and partners that we 
have. They are a short flight away, or they are a drive away. 
They are available for those consultations.
    I think we are going to have more frequent and meaningful 
conversations. I think our leaders will have a better 
understanding of Western communities. And I sincerely believe 
we are going to have earlier decision making and problem 
solving earlier in the process, instead of it getting all the 
way back to Washington, over to M Street or at headquarters. 
Those problems would have been solved by on-the-ground 
experienced--with our experts from Washington, DC. I sincerely 
believe this will strengthen the Agency.
    I must say I have been mightily impressed with the career 
people that I work with. They have been tremendous--and I am 
speaking on substantive issues. I am not talking relocation 
here. But on substantive issues, whether it is energy, or 
recreation, or donations to the Department, or, for example, 
trying to apprehend people shooting burros in the California 
desert, I have been mightily impressed with the 
professionalism, the expertise, the knowledge, and the 
responsiveness of the career people who work for the Bureau of 
Land Management. I could not be more pleased with their work 
and their performance. I don't want to lose a single one of 
them.
    And that is my effort. I am not trying to drain the swamp, 
I am trying to make it more possible for them to do their job.
    Mr. Tonko. Well, I agree with you, and I do understand 
their professionalism, and I do respect it. And I don't want it 
to be disrespected, or to have morale deflated. So, I would 
like to direct your attention to the screens for some graphics 
that I think demonstrate the enhanced coordination.
    [Slide.]
    Mr. Tonko. Are you concerned that there are only four 
states with direct flights to Grand Junction?
    Mr. Pendley. No, sir.
    Mr. Tonko. Well, let these slides speak for themselves. How 
is that enhanced coordination for folks from the other 39 
states who could previously fly direct to DC and meet with 
staff?
    Mr. Pendley. Well, I think many of them will not 
necessarily be going to Grand Junction. They will be going to 
other state offices. We are going to put 222 people--we are 
going to put another 74 people in these state offices, and 
those are the people that folks will be visiting.
    What we are sending to Grand Junction right now is our 
headquarters, 27 people. I think there will be need to come and 
see the Director there, the Deputy Director for operations 
there. But I think most of the people are going to want to 
travel to a state office and sit down with an Assistant 
Director for a specific area, be it recreation, be it energy, 
be it wild horse and burros.
    Mr. Tonko. Well, I still think my concerns for coordination 
have not been responded to. And with that, Mr. Chairman, I 
think I have exhausted my time, so I will yield back.
    The Chairman. Thank you.
    Mr. Hern.
    Mr. Hern. Thank you, Mr. Chairman.
    Mr. Pendley, thank you so much for being here today and 
testifying. As a steward of taxpayer dollars, I think that 
people who live on the land, live around the land have a lot 
more credibility, and will be a more responsible government 
employee, in the sense that they will be able to relate very 
closely with those folks in these field offices that you are 
talking about.
    It concerns me. I have heard kind of mixed comments from my 
colleagues across the aisle today, some commending the move, in 
a sense, and just asking to be sure and work together with 
Congress, and others being critical and making it a political 
ploy. Anything that downsizes the scope and the size of 
Washington, DC somehow seems to be destroying America.
    It is amazing to me. I have only been here for about 10 
months. It is amazing to me, the size of Washington, DC, and I 
have a hard time finding a time when there was ever a recession 
in this city. There are tower cranes everywhere, building. And 
it seems we want to concentrate more and more power here.
    For us, as a government, to want to actually move some 
people out of here to get them closer to the issues, there is 
probably not a better example than the BLM. When you look at, 
as we have talked about a lot, 99 percent of the Federal lands 
that you are responsible for are west of the Mississippi, and I 
would say even west of Kansas. And to move it into the heart 
is, I think, a very sound move. As a person that has been in 
business my entire life before coming to Congress, decisions 
are always made better when they are closer to what they have 
to manage.
    So, I applaud you and the Administration for wanting to do 
this. It should have been done a long time ago. Whether it 
meant Democrat or Republican, it shouldn't have mattered. We 
should be trying to get our decision-making and policy-making 
processes closer to where the issues are. So, I really look 
forward to working with you and the Department, as we move 
forward, to do anything we can to help make that happen.
    And, hopefully, the political fights can be set aside for 
this, what I would call a good move. And, again, my colleagues 
across the aisle, many are in support of this. They have asked 
for some concerns, whether it is hiring practices or whatever 
it may be. But I would think that it would be much easier to 
even hire in those areas for people who have grave concerns for 
what is going on in their mind that want to be a part of a 
solution.
    And that is the reason I ran for office. When you have 
concerns, you have an opportunity to go get engaged. So, I 
think you will have a very receptive employee base in Grand 
Junction that will want to work and help solidify the positions 
that the BLM is advocating for for our Federal lands. I really 
applaud you for that.
    I am sure that you either have done or are working on not 
just a justification financially for the move beyond decision 
making, but I have to believe that in perpetuity this process 
will save a lot of money for the Federal Government, going 
forward. And I would hope that all of us in here with our 
deficits running $1 trillion a year, debt at $23 trillion, that 
we would all want to do a piece of this in a very bipartisan 
solution to help save money anywhere we can and make great 
decisions. And this is one that I applaud you on.
    Mr. Chairman, I don't have any other questions. I could ask 
the same questions and be very redundant in asking Mr. Pendley 
to respond to them.
    But Mr. Pendley, I guess just one question would be--Have 
you looked at a long-term 20-year approach, or a 50-year 
approach to what the savings would be to the government?
    Mr. Pendley. Our Office of Management and Budget has looked 
at it and projected out a $90 million savings over a 20-year 
period. I can't speak specifically to those numbers, but that 
is their calculation.
    I think the bottom line is that the Secretary's decision 
was not driven by the numbers. It was driven by maximizing 
service to the American people, and delegating our 
responsibilities out to the field where decisions need to be 
made, and increasing our presence out there. But I think we 
will benefit by savings, and whether it is aviation costs, 
flight costs, travel costs, location pay, or rentals, it is all 
about the bottom line.
    Mr. Hern. If I might add to that, we saw the slide there 
about flights from Dulles--which most of us don't fly out of, 
by the way. I would like to see Reagan put up there--but the 
reason those are that way is because all the power in the 
Federal Government is concentrated here, which has driven the 
need for those flights. If you move certain flights or 
businesses or departments somewhere else, there will be flights 
driven to those areas, as well, correct, to certain areas, 
whether it be Salt Lake, or California. There would be direct 
flights to those, as well.
    Mr. Pendley. That is my understanding of how the market 
works.
    Mr. Hern. My colleague reminded us of that earlier. If 
there is a need, we will be there. Thank you.
    Mr. Pendley. Thank you.
    Mr. Hern. I yield back my time, Mr. Chairman.
    Mr. Pendley. Thank you, Congressman.
    The Chairman. Thank you. Who is next?
    Mr. Fulcher.
    Mr. Fulcher. Thank you, Mr. Chairman. And I, too, will 
shorten things up because there is no sense in being redundant 
on some of these questions.
    But I can tell you that I spent the last 5 weeks, Mr. 
Pendley, in my district in Idaho, and received quite a few 
positive comments about that.
    Mr. Pendley. Wonderful.
    Mr. Fulcher. So, I think the perception is generally good, 
where the rubber meets the road.
    I would say I did get one question that I wasn't quite 
certain how to answer. So, I will just forward that to you to 
try to get your input on it. One of the concerned people said 
that Grand Junction is a long ways away from the appropriators 
in Washington, DC. And I am assuming that they are concerned 
about budget and the amount of budget appropriation that the 
Department would get, and so on.
    What is the best response to that question?
    Mr. Pendley. Well, the best response is our core 
headquarters responsibilities--and that includes budget, and 
congressional affairs, regulatory affairs, and public affairs, 
and our FOIA duties--are all still here in Washington. And they 
are not just in Washington, they are not at M Street. They are 
down the hall from the Secretary and the Deputy Secretary and 
our decision makers.
    We are going to be able to be responsive to the Congress. 
We are going to be able to be responsive to OMB and to the 
Secretary. And I think our BLM employees involved in that area 
are going to have more interaction with the Secretary and the 
Deputy Secretary than ever before in the history of the Bureau. 
I think it is going to strengthen their learning experience.
    Mr. Fulcher. Thank you. And just maybe a comment as opposed 
to another question here, but I come from the business world, 
and that is my background, in business. I know it is different 
than government, but it is very, very common to have regional 
leadership, regional vice presidents, based on geography, based 
on markets, and so on and so forth. So, from that standpoint, 
it is certainly common.
    And I do recall, though, that when we would do that, when 
it got larger, when we would do that type of thing, those who 
were in opposition to it often were the ones who were afraid 
about losing control.
    And I would also say that if you are from a Western state 
and you are a long ways away from Washington, DC, and you have 
a tremendous amount of Federal resources that you are dependent 
upon, what you want to do is you want to localize that to some 
extent.
    So, generally, I think I agree with the majority of my 
constituency, that it is a wise move. I just appreciate the 
help. Thank you.
    Mr. Pendley. Thank you.
    Mr. Fulcher. I yield back. Oh, I yield my time to Mr. 
Curtis, please, Mr. Chairman.
    Mr. Curtis. Thank you. I would just like to express a 
regret that I wasn't the one that thought of putting up that 
chart on airlines, because I would have used that chart to show 
how hard it is to get from all of those cities to Washington, 
DC. And the reality of it is we are here to serve, and we 
shouldn't ask them to come to us, we should be going to them.
    Thank you. I yield my time.
    Mr. Pendley. Thank you.
    Mr. Fulcher. I yield back, thank you.
    The Chairman. Thank you very much. Mr. Pendley, some 
questions for myself.
    I am curious about some of the position moves that were 
determined. The data that we received from the Department shows 
that four legislative affairs specialists are slated to move to 
Reno, Nevada, and the Bureau's international affairs 
specialist, the person in the Bureau that coordinates with the 
State Department and foreign governments, is being moved to 
Salt Lake City. Could you explain how it was determined that 
these were the best locations for them?
    Mr. Pendley. Well, Mr. Chairman, it is my understanding 
that we are not sending congressional liaison employees to the 
West. We are going to have our congressional people here.
    We also sought to work with individual employees as to 
their particular needs.
    The Chairman. OK.
    Mr. Pendley. And with the locations to which they are being 
assigned.
    The Chairman. At the briefing with your staff, the staff 
received, that was the information we had gotten very recently.
    Mr. Pendley. Excuse me. I want to be precise. Let me ask 
that I submit that, if you would, sir, for the record, and I 
will get a response to you so we can be on point.
    The Chairman. Yes, the associated question is--Is there a 
national legislature that is forming in Reno that none of us 
here know about?
    And with that, let me just--the other couple of questions.
    Has the Department of the Interior done any surveys or 
analysis on how many people might leave the Agency if they are 
forced to relocate to the West in this case?
    Mr. Pendley. No, we have done no studies on that.
    The Chairman. And the 45 staff from your testimony, was an 
estimate?
    Mr. Pendley. It is my understanding that was a projection 
based on historical data of the number of people who are 
eligible for retirement and typically retire. I am advised that 
most BLM employees do not retire when eligible, but stick 
around for another 5 years. And we are hoping that what we are 
trying to do with the employees will cause them to stick 
around, especially if they have the opportunity somewhere in 
the West.
    The Chairman. Mr. Director, has any analysis been done to 
show how this particular move will impact BLM staff, 
particularly in the areas in which there have been efforts to 
diversify the staff--women, people of color that are over the 
age of 40, what that retention is going to be like?
    Mr. Pendley. The Bureau of Land Management has a very 
robust diversity and inclusiveness program.
    The Chairman. We have no analysis to----
    Mr. Pendley. I presided over two of those briefing 
sessions, and we are committed to diversity and inclusiveness, 
and we will continue to work on that issue. We will not allow 
it to fall by the wayside just simply because we are moving 
West.
    The Chairman. And I am assuming that any analysis dealing 
with the loss of institutional knowledge or memory relative to 
the moves--there has been no analysis done in terms of what 
impact that will have.
    Mr. Pendley. No, Mr. Chairman, no analysis, simply because 
we are hoping these people will stay with us. We are hoping 
that we will provide sufficient inducements that----
    The Chairman. Of the 9,000 employees, what percentage are 
not in DC?
    Mr. Pendley. I believe 97 percent are not in DC. We are 
talking about 3 percent, and the part of the 3 percent is the 
part that works on the lands out West, the 245 million acres 
that we manage. Those who work on issues that are core 
Washington, DC functions, they will remain.
    The Chairman. And let me just--and thank you, I think you 
clarified it in your testimony, Director. In the opening 
statement, I mentioned Chief of Staff Mulvaney's comments about 
draining the swamp, forcing career public servants out of work. 
He made it clear he thinks that taking steps that get Federal 
employees to quit is a positive thing. From your testimony, you 
disagree with that. Am I misreading your testimony on that 
point?
    Mr. Pendley. I can only speak for myself and the Secretary. 
And our position is we do not want to lose a single employee.
    The Chairman. So, you disagree with the Chief of Staff's 
point on that?
    Mr. Pendley. I am sorry, Mr. Chairman. I can just speak for 
my staff, and myself, and my Secretary. We are doing everything 
we can, and the Secretary is authorizing me to do everything we 
can to retain employees.
    The Chairman. And the lingering doubts, Mr. Director, 
questions, objections to this move, ``reorganization,'' comes 
from a lack of prior information to the Committee and to 
Congress in terms of any analysis, justifications, rationale, 
the lack of information, and the issue that was brought up by 
my colleagues around the tribal consultation issue, and the 
issues that were brought up about cost/benefit analysis, and 
the other analysis points that I made. I think that suspicions 
about motivation in terms of why this move is going on--and 
they abound, as they should, given the fact there has been no 
transparency on it. And, to this date, the full justification, 
rationale, data, whatever could be produced has not been 
produced for the Committee, so i.e., this hearing.
    You brought some perspective to it. And you clarified the 
point about not agreeing with the Chief of Staff of the White 
House. But beyond that, I think those questions continue to 
linger, and we are going to continue to press the point about 
getting responses to them, sir.
    Let me move to the Members that are present with us.
    Ms. Holmes Norton, you have some questions. You have 2 
minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. I very much 
appreciate the opportunity to ask my questions here.
    Mr. Pendley, I believe we see a pattern here. In the Fiscal 
Year 2020 appropriation, I have an amendment that would block 
movement of two USDA offices out of the Nation's Capital. There 
is a pattern of this Administration to move even vital parts of 
the Administration out of the District, the Nation's Capital.
    As I understand it, your entire--first of all, 97 percent 
of the Agency is where it should be, in the field. This is 
different from other agencies. So, we are talking about very 
few employees that are necessary for this Committee, for the 
Congress of the United States, or the President of the United 
States to be informed.
    Let me ask you about coordination. I am concerned not only 
with the Congress, but with virtually nobody left in DC. It 
looks like the entire directorate would be gone with no 
leadership presence in DC. One wonders how the BLM would 
coordinate with other agencies such as Fish and Wildlife, the 
Department of Defense, the U.S. Forest Service, or the National 
Park Service, all a part of what you need in order to fulfill 
your mission.
    How are you going to do that with virtually no leadership 
here in the District of Columbia?
    Mr. Pendley. Representative, I will be here. The Deputy 
Director for Policy and Programs will be here, as well as our 
congressional, regulatory affairs, public affairs, FOIA, and 
budget people.
    Ms. Norton. How many people will be left in DC?
    Mr. Pendley. Sixty-one. But significantly, our partners in 
the field, the Fish and Wildlife Service, the National Park 
Service, the U.S. Forest Service, the U.S. Department of 
Defense, all of those have operations in the field with whom 
our state offices coordinate----
    Ms. Norton. And they all have directions from Washington, 
and do not have their entire staff being moved to the field.
    Look, I don't object at all to the fact that almost 
everybody in BLM is in the field. I think it is where it should 
be.
    But I am looking at history and wonder if you have looked 
at recent years' history of the movement of BLM staff. In the 
1990s, the BLM moved its wildlife staff out West. But they had 
to move them back in during the wildfires because Congress made 
you do so, because they were unable to do any oversight on the 
wildfires. Have you looked at that history, sir?
    Mr. Pendley. It is my understanding that in the 2000s, we 
moved our Deputy Director and our Assistant Directors and our 
staff all out to Boise to best handle the wildlife fire issue. 
That is a huge issue for the Bureau of Land Management. Seventy 
percent of our firefighting forces at the Department of the 
Interior are BLM employees. That is crucial to our operations. 
And we are keen on getting our human resources, human capital 
resources people out to Grand Junction to----
    Ms. Norton. My point only, sir, was--and my time is running 
out--you had to move people back to Washington because we, the 
Congress of the United States, also have to do oversight.
    Have you looked at the history of what this same move has 
done to USDA? They have experienced a 71 percent loss of staff. 
That is top scientists, people who knew the agencies best. The 
only answers I have heard from you is you are hoping staff will 
stay. Here's the evidence: when you have to move your top 
people with all the experience out of the Nation's Capital, you 
lose people. Have you taken that into consideration? Have you 
made a survey of your staff to say, ``How many of you would 
remain if we moved to Grand Junction'' ?
    Mr. Pendley. A week from today we are going to notify the 
people of what specific positions are being relocated. We will 
be sitting down with those employees. Our human resources 
people, our employment assistance people----
    Ms. Norton. Would you do a canvass at that time to find out 
how many of your employees, people who have been with you a 
long time, people who build in all the expertise, would you to 
this Committee promise to have before this Committee a survey 
of staff, so that the Committee will have information on how 
many will refuse and how many will be glad to move to Grand 
Junction?
    Mr. Pendley. We are going to be meeting with people one on 
one. We are going to be meeting with family members. We are 
going to be asking their personal needs and being responsive to 
those needs. I don't think we can provide that information, 
because that is going to be a one-on-one, employee-to-employee 
discussion.
    Ms. Norton. Thank you very much, Mr. Chairman.
    The Chairman. Mr. Tipton.
    Mr. Tipton. Thank you, Mr. Chairman.
    Mr. Pendley, thank you for taking the time to be able to be 
here. It happens to be in my district, where the headquarters 
for the BLM will be located. And I appreciate a lot of the 
explanations that you are giving.
    And I did want, Mr. Chairman, to be able to submit for the 
record without objection a letter from Colorado Mesa University 
and the president there, Mr. Tim Foster, applauding the move 
and encouraging it to Grand Junction.
    The Chairman. So ordered.
    Mr. Tipton. Thank you. A lot of the concerns that I have 
actually heard here today--and wanted to be able to sit in on 
this hearing--was about some of the logistics that are going 
on.
    I would echo a few of the words that were coming from my 
counterpart, Mr. Curtis, whose district butts up against mine 
in the state of Utah, the difficulty to be able to get to 
Washington from the majority of the country. We are going to 
have another panel that is going to be sitting here, and we 
have the economic developer out of Mesa County, where Grand 
Junction is located. It is going to be talking about the 
efforts of the community to be able to actually work with the 
BLM to be able to address some of the flight concerns.
    But here is the real concern.
    Mr. Pendley. Yes, sir.
    Mr. Tipton. The real concern is are we getting the real 
response out of Washington, DC with the people that are making 
the decisions on the impacts on the lands in the West?
    When we look at the 99 percent of the public lands that are 
in the western United States, when we look at Mesa County, 78 
percent of those are public lands; 46 percent of those, I 
believe, are actually BLM lands. Is it going to be useful to be 
able to actually have the decision makers on the ground?
    When I have toured through my district, there are a lot of 
bouquets that are given out to the local BLM officials, Forest 
Service representatives, as well, those that deal with the 
public lands. But the frustration, ultimately, is separation 
between Washington, DC and the West, and how those are handled. 
Could you maybe speak to that issue? I think that is the 
important thing that we need to be focusing on.
    Mr. Pendley. Absolutely. And I could not agree more. 
Nothing beats being on the ground. Nothing beats seeing 
something up close and personal. We cannot be a good neighbor. 
We are committed to being a good neighbor. We cannot be a good 
neighbor if we are not first a neighbor.
    And it just totally changes someone's perspective when they 
are living out West. These are the people they meet at the 
Albertson's, or church, or wherever they happen to be, that 
they know up close and personal, and not just because they are 
the BLM person, but because they live down the block, or they 
live in the next town over.
    And having them on the ground, we can truly have a better 
appreciation for our Western communities. We have more 
meaningful conversations and engagements, and we can solve 
problems earlier in the process instead of all of a sudden some 
county commissioners have to fly out to Washington, DC and sit 
down with the Deputy Director or some Assistant Director and 
say, ``This is really going to mess us up,'' we will have had 
those people right there, meeting with commissioners, meeting 
with the locals, and understanding it, they will not be solving 
that problem in Washington, it will be solved locally.
    Mr. Tipton. Thank you, sir.
    And, Mr. Chairman, I want to be respectful of the 
Committee's time. I appreciate the opportunity to be able to 
participate. I know we have another panel, so I yield back.
    The Chairman. Thank you, Mr. Tipton.
    I thank the witness for your valuable testimony, sir. I 
appreciate it.
    Mr. Pendley. Thank you.
    The Chairman. To the Members for their questions. At this 
point, I invite our second panel to take their places at the 
witness table.
    For the second panel, oral statements are limited to 5 
minutes, but your entire statement will be part of the hearing 
record.
    The lights in front of you will guide you. When they turn 
yellow, that means you have 1 minute left, and when it is red 
your time has expired.
    Mr. Pendley. Mr. Chairman, thank you for your time.
    The Chairman. Thank you, sir.
    [Pause.]
    Ms. Haaland [presiding]. Thank you all so much for being 
here.
    The Chair will now recognize Dr. John Freemuth, 
distinguished Professor of Public Policy and the Cecil Andrus 
Endowed Chair of Environment and Public Lands at Boise State 
University.
    Thank you. You have 5 minutes.

 STATEMENT OF JOHN FREEMUTH, CECIL D. ANDRUS ENDOWED CHAIR FOR 
    ENVIRONMENT AND PUBLIC LANDS; UNIVERSITY DISTINGUISHED 
        PROFESSOR, BOISE STATE UNIVERSITY, BOISE, IDAHO

    Dr. Freemuth. Go Broncos. Graduate of Boise State, good to 
see you.
    [Laughter.]
    Dr. Freemuth. Let me start quickly with the words of James 
Madison. They actually inform what we are talking about today. 
And he said, ``The Federal Constitution forms a happy 
combination: the great and aggregate interests being referred 
to the national; the local and particular to the state 
legislatures.'' My point here is simply that the historic trend 
of the Bureau of Land Management over its history is to become 
a national agency with values that go from providing for human 
occupancy and use, grazing, oil and gas, to now more wildlife 
and environmental values with constituencies that run 
throughout the United States.
    That has been its history. I would say it has pretty much 
followed the path now of the U.S. Forest Service as a multiple-
use agency.
    If we are going to talk about reorganization, we all know 
that there is no such thing as a neutral reorganization. Those 
of us who study public administration know that there will be 
people advantaged and disadvantaged by this particular 
reorganization. We could probably conclude that, in this case, 
should it come to pass this way, the more local and particular 
interests will be advantaged, much like they were back in the 
day when my mentor, Phil Foss, wrote ``Politics and Grass'' 
about the BLM in the late 1950s.
    But if this is going to proceed, we need to consider some 
past examples that Congresswoman Norton spoke to in the past. 
When they did move all the fire folks to Boise, where I am 
from, they had to relocate some to Washington, DC because 
certain aspects of wildland fire operations--yes, it is in 
Boise--but certain policy and budget decisions ended up back in 
Washington to some extent.
    My concern, too, for the professionals in this agency is 
what is necessarily going to stop another administration from 
deciding that people belong back in Washington. And the point 
here is that we will whipsaw these people back and forth like, 
unfortunately, we see at times when regulations are rewritten 
from administration to administration, or perhaps whether we 
might see that regarding the Antiquities Act and national 
monument, which, of course, is not on the agenda for this 
particular Committee.
    In Idaho, we were getting the higher-graded range 
conservationists. They are coming to Idaho and, of course, we 
are a range state, as Congressman Fulcher knows very well. But 
it is unclear to people what is going to happen when that 
happens. I don't think 13s and 14s are going to process 
permits, and that might disrupt relationships that the range 
cons that we have in Idaho already have with our permittees, 
especially southern Idaho.
    It is also maybe going to put a chill on the BLM 
professionals already in the field, if all of a sudden 
positions they thought they could compete with are now being 
filled by Washington people instead. In other words, there will 
be no professional movement like they thought there might be in 
the past.
    One other thing to consider is that--and granted, this is 
not part of this proposal. But, nonetheless, BLM has a very 
successful collaborative framework with its RAC, its resource 
advisory councils. They are very decentralized and very 
deliberative. And this Administration seems to want to reduce 
the number of Federal advisory committees, which, ironically, 
can put a bit of a chill on the very thing we all agree on, 
which is a localized collaboration and getting people together 
around the table to try to solve these very difficult problems 
that agencies like the BLM and so forth and so on have to deal 
with.
    Last point, Ed Shepard is sitting next to me. I have worked 
with him a long time. I worked with PLF on their student 
congresses, where they bring young Americans together to learn 
about BLM management. It is interesting to me that 600 former 
BLM officials of all persuasions, from oil and gas to 
wilderness, 12,000 years of experience, and they all don't 
think this is a good idea. That is pretty rare, to have that 
kind of unanimity. And I think it is at least worth 
considering, some of the things that these folks who have been 
here in Washington are concerned about.
    Thank you very much.

    [The prepared statement of Mr. Freemuth follows:]
    Prepared Statement of John Freemuth, Cecil Andrus Professor of 
  Environment and Public Lands and University Distinguished Professor,
                         Boise State University
    Thank you for the opportunity to speak to the House Natural 
Resources Committee on the proposed reorganization of the Bureau of 
Land Management (BLM), primarily the proposed move of the national 
headquarters to the western United States and Grand Junction, Colorado. 
My testimony has three components: summary of key points, a context 
statement regarding BLM public land policy and history, and a 
discussion of the current reorganization proposal.

    I am Distinguished Professor of Public Policy and the Cecil Andrus 
Endowed Chair of Environment and Public Lands at Boise State 
University.
                               key points
    The historical trajectory of policy related to BLM has been to 
treat these as national lands, rather than local lands, managed for a 
diverse set of public benefits.
    BLM is a decentralized agency. The question is not about where 
agency leadership is located but who makes decisions. Centralized 
decisions that contradict locally and regionally crafted solutions can 
admittedly be a problem. But decisions that need to be made in 
Washington will be made by the people who are in Washington. If the BLM 
Directorate is not in Washington, it will be much less likely to be 
part of the decision. Examples are presented below.
    Reorganizations proposed at the Secretarial level without 
consulting those affected are not neutral and will create winners and 
losers. The suggested outcomes for such reorganizations, such as 
``efficiency,'' ``effectiveness,'' or ``close to those affected,'' are 
less important than other outcomes. Examples are presented below.
    Reducing the number of BLM's Resource Advisory Councils (RACs) is 
counterintuitive as they are locally based and collaborative in 
purpose. Also, although not part of the reorganization question, 
collaboratively-based discussions and solutions brought by stakeholders 
can help unify local and regional support for BLM.
                        the public land context
    Perhaps the words of James Madison in Federalist 10 do best in 
framing this context:

        The federal Constitution forms a happy combination in this 
        respect; the great and aggregate interests being referred to 
        the national, the local and particular to the State 
        legislatures.

    The trajectory of the public lands, notably for our purposes the 
BLM managed lands, has been one of an aggregation of interests and 
policy, becoming national rather just local in scope.
    Public land policy passed through several eras. U.S. land policy 
predates the founding of the United States itself, as both the British 
and the colonists, for example, regulated the cutting of forests to 
preserve a supply of timber for building naval vessels. After the 
Revolutionary War, the new American nation quickly sought both to 
acquire more land and to ensure private sector ownership through land 
disposal. These policies have been termed the Acquisition and Disposal 
phases of public land policy by Marion Clawson. One precursor to BLM, 
the General Land Office (GLO) was created to administer the sale of 
public lands. Disposal was enacted to raise revenue and promote new 
settlement. The native inhabitants of these lands were removed from 
much of the public lands, usually by force. These early policies shaped 
much of the thinking around land use in the United States and can be 
traced into the modern era, as disposing public land to private 
ownership remains attractive to some people.
    The 1860s brought a new policy direction concerning Federal land in 
the western United States, a policy approach referred to as 
Reservation. This policy began in earnest in 1872 with the creation of 
Yellowstone National Park, the first national park in the United States 
and the world. Reservation meant that certain public lands would not be 
sold, but instead be retained or reserved for public purposes that were 
national in scope. Hence National Parks.
    By the 1880s, there were growing concerns over deforestation. 
Deforestation led Congress to give the President the power to create 
``forest reserves'' in 1891. Renamed ``national forests,'' they were 
transferred from the Department of Interior and placed under the 
administration of the U.S. Forest Service (USFS), which was created in 
1905. Congress later took away that presidential power in 1907 but did 
provide for the creation of additional national forests in the East 
under the 1911 Weeks Act, which allowed for purchase of certain private 
lands in the East for conservation purposes. Gifford Pinchot, first 
Chief of the USFS, helped make it the first professional land 
management agency in the United States. Pinchot and others made clear 
that the forests were to be managed to produce resources to be used by 
citizens. As time passed, we entered the era of Management of our 
public lands.
    In the case of the public domain lands the Management Era really 
began with the passage of the Taylor Grazing Act in 1934. A few years 
before the Taylor Grazing Act was passed, Federal officials, including 
Secretary of Interior Ray Lyman Wilbur and President Herbert Hoover, 
offered to transfer the pre-BLM public lands minus the sub-surface 
mineral estate to the states to manage. The states, however, declined, 
citing the poor condition of the surface estate. The Taylor Grazing Act 
was passed to manage and regulate western livestock grazing and to help 
reduce overgrazing. One key phrase of that act stated: ``That in order 
to promote the highest use of the public lands pending its final 
disposal, the Secretary of the Interior is authorized, in his 
discretion, by order to establish grazing districts.'' Some interpreted 
disposal to mean ``getting rid of'' but that was not what Congress 
chose to do. The Grazing Division was created in the Department of 
Interior to implement the Act, and the Division later became the 
Grazing Service. The Grazing Service was merged with the GLO in 1946 to 
create the BLM.
    The early BLM was dominated by and generally conformed to the 
desires of western Congressmen and their rancher and mining 
constituencies, leading scholars such as Phillip O. Foss to refer it as 
a ``private government'' or assert that the agency had been 
``captured'' by the interests it was supposed to regulate. The BLM was 
sometimes referred to as the ``Bureau of Livestock and Mining,'' as 
those were the primary commercial uses and users of these lands. Often, 
BLM employees came (and still come) from smaller western towns and 
ranch backgrounds and had been primarily trained at western land grant 
universities, reinforcing the tradition of placing a priority on using 
Federal lands for their natural resources. Viewed as a western agency, 
the BLM catered to local and particularized interests during this time 
period, and in a way that helps one understand the actions of 
contemporary individuals who believe western lands managed by BLM 
should be managed for people like themselves.
    The passage of the Federal Land Policy Act and Management Act of 
1976 (FLPMA) superseded the Taylor Grazing Act, modified and revoked 
many existing public land laws, and made it national policy that the 
BLM lands would be retained in Federal ownership. FLPMA stated that the 
BLM lands should be managed: ``In a manner that will protect the 
quality of scientific, scenic, historical, ecological, environmental, 
air and atmospheric, water resource, and archeological values; that, 
where appropriate, will preserve and protect certain public lands in 
their natural condition; that will provide food and habitat for fish 
and wildlife and domestic animals; and that will provide for outdoor 
recreation and human occupancy and use'' (Pub. L. No. 94-579, Section 
102(a)(8)). To implement FLPMA the BLM became a multi-profession agency 
very similar to the U.S. Forest Service and its organization evolved to 
reflect that multi-professionalism. The BLM lands became national lands 
managed for a diverse set of purposes for the people of the United 
States.

    A change in BLM logos clearly illustrates this change.

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    

    FLPMA's passage, in combination with other new environmental 
laws and growing public interest in non-commercial purposes such as 
recreation, wildlife and wilderness, ignited the Sagebrush Rebellion of 
the late 1970s. There had been previous protests dating back to the 
creation of forest reserves early in the 20th century, but this 1970s 
rebellion brought new attention to Federal land management, primarily 
BLM-managed lands. Now, Foss's ``capture'' era appeared over. BLM was 
slated to manage for multiple uses much like the Forest Service, and 
that meant users and uses beyond grazing and mining. Citizens who might 
wish to better understand the era of that Sagebrush Rebellion should 
consult R. McGreggor Cawley's Federal Land, Western Anger: The 
Sagebrush Rebellion and Environmental Politics.
                         the blm reorganization
    Two of the most eternal, vexing and often intermixed questions 
regarding public land management have always been ``who decides?'' and 
``by what set of criteria?'' Answers to these questions advantage 
certain perspectives and actors, while disadvantaging others. ``Who 
decides'' questions are question of power and control. This proposed 
reorganization, as any reorganization like it, is not neutral. There 
are winners and losers, those advantaged and those disadvantaged. It 
seems obvious that Madison's ``local and particular interests'' are 
those advantaged, and those arguing that BLM lands are national lands, 
disadvantaged. It is also important to understand that other suggested 
reasons for reorganization, efficiency and effectiveness, are not the 
only goals of a public agency like BLM. It must be responsive, both in 
terms of diverse values and in terms of diverse cultures and 
demographics. It should also be representative of the various publics 
it serves.
    One of the arguments presented for the reorganization of BLM is 
that it will bring decisions and decision makers ``closer'' to those 
affected. While it is true that BLM is located almost completely in the 
western United States in terms of surface management, it has been well 
established by the Public Lands Foundation and others that 95%+ of BLM 
employees are already in the western U.S. BLM is also currently 
organized by state, not by region. Governors and congressional 
delegations have more input and relationships with BLM state leadership 
than they do if BLM was organized by regions. Conversely the Director 
of BLM has a constituency that is Congress, other Federal agencies and 
so on. It is much easier to work with those constituencies if one is 
near to them as Director. It is also where senior leadership builds the 
relationships that allow them to make more effective and sustainable 
decisions.
    Where decision makers are located may not be as important as who 
they are. Sometimes it has been my experience working with BLM that 
local and state level decisions have been reversed in Washington, 
sometimes without effective communication and frustrating BLM decision 
makers in the West. But as importantly, if BLM leadership is relocated 
to Grand Junction, then it will be even more likely that important 
national decisions will be eventually made, not by that leadership but 
by political appointees in Washington.
    Experience with the wildfire part of BLM provides evidence. When, 
for a time, all of BLM Fire and Aviation was in Boise, including both 
policy and budget and operations, policy direction and budget migrated 
up to the Secretarial level. In other words, decision making and power 
abhorred a vacuum.
    There is another part of the reorganization that needs to be 
rethought. In the case of Idaho, several range specialists, apparently, 
will be transferred to the state. The listed reasons for this include 
helping with litigation, permit management and help with what appears 
to be BLM Idaho state priorities, though it is hard to be certain from 
the way the description is written. There are a few problems with this 
staff change. One, it will be more difficult than perhaps realized, to 
integrate high level policy specialists with field-level range 
specialists and expecting them to help with permits may seem farfetched 
and will not bring more resources to the ground. Dropping these 
specialists into a rural state where sitting range specialists have 
already developed relationships with permittees may cause unanticipated 
problems. Finally, these policy specialists frequently work with policy 
specialists from other natural resource areas and isolating these 
specialists from each other will lead to ineffective communication and 
problem solving.
    A related issue is an apparent disconnect between the desire to 
move decisions to a more ``local'' level and the desire of the current 
administration to reduce the number of Federal advisory committees by 
one-third. The BLM's RACs are one of the most effective forums for 
localized discussion, deliberation and collaboration; reducing their 
number seems counterintuitive. Having chaired the BLM's Science 
Advisory Board (SAB) (abolished in 2001) I can attest that that board 
provided useful advice to BLM and might have been useful today as sage 
grouse numbers once again decline. BLM staff support to the SAB was 
exemplary in our view. Although not the focus of this hearing, there 
have been several collaborative efforts centered on BLM-managed lands 
that suggest that locally driven solutions within the context of 
national laws can work without the need for reorganization.
    Finally, reorganizations have consequences--some intended, some 
not, and some left open for reversal later. There have been questions 
over whether this reorganization will weaken BLM, causing some of its 
most effective personnel to leave and thus opening the door to what 
some claim would be the transfer of BLM lands (only Congress can do 
that) or their sale, and some may be leaving already. I do not know if 
this is true, but it is certainly possible. It is also possible that a 
future administration will return BLM leadership to Washington, a 
decision that will whipsaw the agency. This reversal occurred in the 
past with the ``rightsizing'' initiative. This is not unlike what a 
future administration might decide to do with Bears Ears and Grand 
Staircase-Escalante National Monuments, a policy whipsaw that often 
exhausts those who must implement it. There is plenty of wisdom about 
political leadership of agencies and changes in policy or 
reorganization work best if the sitting professionals and managers are 
consulted because it is much more likely that the proposals will be 
amended to be more successful. But when professionals and managers are 
not consulted you are more likely to get resistance and higher chance 
of failure.
                               conclusion
    The best way to conclude this statement is to reference the 
concerns of the Public Lands Foundation (PLF). This organization of 
former BLM employees, employees who served through the West in local 
and state offices, and in Washington, have taken a uniform position 
against this reorganization. A rough calculation suggests that they 
have 12,000 years of experience working for the agency. I know PLF 
well, having spoken to them at past meetings and worked closely with 
them on the four Student Congresses they held to bring young college 
students interested in public lands together to learn about real issues 
from current and former professionals. PLF members run the gamut from 
wilderness specialists to oil and gas specialists. If they collectively 
take the position they have taken, it means something to a close 
observer of public lands like me and it should to the Committee as 
well. Thank you for the opportunity to speak with you today.

                                 ______
                                 

    Ms. Haaland. Thank you, Mr. Freemuth. The Chair now 
recognizes Mr. Edward W. Shepard, President of the Public Lands 
Foundation.
    Mr. Shepard, you have 5 minutes.

  STATEMENT OF EDWARD W. SHEPARD, CR, PRESIDENT, PUBLIC LANDS 
                  FOUNDATION, NEWBERG, OREGON

    Mr. Shepard. Good morning, and thank you for the 
opportunity to present our views on this reorganization. PLF is 
not political. Our members have proudly served BLM Directors of 
both political parties, so our perspective is based on decades 
of on-the-ground experience managing the public lands. 
Cumulatively, we represent thousands of years of experience and 
knowledge on management and the organization, and at all levels 
and locations of the organization.
    We strongly oppose this reorganization plan. The espoused 
objectives are sound and good. How they want to get to meet 
those objectives, we don't feel are right.
    The plan would remove BLM headquarters, leadership, and 
staff in DC from having a seat at the table with national 
agencies within the Department of the Interior and with other 
agencies, such as the U.S. Forest Service and Agriculture, with 
the Congress, and with Washington-based NGOs. It would place 
the Director and Assistant Directors in one location in Grand 
Junction, Colorado, and would separate them from their 
remaining staff, which would be located over several locations 
in the West.
    BLM is a multiple-use agency by its history and by the 
mandates of the Federal Land Policy and Management Act of 1976. 
As a multiple-use agency, it is imperative that the disciplines 
work together on a day-to-day basis to coordinate policy and 
activities, and separating and isolating staffs in several 
locations would severely limit their ability to do so.
    And we feel this plan is so radical that we really question 
if it was studied by non-political budget analysts or 
organizational experts, and whether career BLM senior 
management was involved or consulted.
    One reason given for the organization is to move decision 
making closer to the field. We agree decision making should be 
closer to the field, but we do not believe that this 
reorganization is necessary to achieve that goal.
    We fully believe that this reorganization would 
functionally dismantle the BLM, and ignores the reality that 
BLM is already Western-based. Ninety-seven percent of the staff 
is in the field, and has a structure in place to be responsive 
to Western constituents and stakeholders. Today, it is well 
organized to serve both the Western constituents and the 
Washington, DC-based clientele. Most of the managers are on the 
ground at field, district, and state offices, and are able to 
make decisions and interact with governors, tribes, other 
agencies, congressional staff in the field, and the other state 
and Federal agencies they work with, and the public.
    State Directors and Field-Level Managers currently have the 
delegated authority to make decisions on the ground and to 
facilitate coordination with state and local governments and 
tribes. However, in recent years there has been reduced 
decision making at the field level, not so much because of the 
BLM headquarters, but because decisions have been pulled back 
by the Department and other political appointees.
    If the goal of the plan is to return decision making to the 
local level, then we suggest the Department return the 
decision-making authority to local BLM managers who work daily 
with the folks in the communities.
    We ask that, before this plan is implemented, that the 
Congress require an independent analysis by the Congressional 
Budget Office or Government Accountability Office on the actual 
cost and savings.
    And, finally, I would like to address the profound effect 
this is having on BLM employees across the organization, 
primarily here in Washington, but also out in the field, who 
wonder what is going to happen to them, career-wise. A lack of 
transparency and communication with employees has raised 
anxiety to really harmful levels, and morale levels are very 
low. And remember, these are real people, they have real 
families, and they need to be considered.
    Many of the Washington-based employees being directed to 
move have personal circumstances that give them no other option 
than to leave the Agency, and this is going to have a long-term 
detrimental effect on the professionalism of BLM.
    Additionally, it is going to have a disproportionate 
negative impact on women and minorities in the BLM Washington 
office, and this office has made significant progress in 
recruiting women and minority into leadership and professional 
positions, and many of the employees have indicated they can't 
leave.
    In conclusion, although we might agree with some of the 
objectives of this, we don't agree with the process. We feel 
that the people are in the field that need to make decisions, 
that are doing the operational work, and the folks in 
Washington need to be here to address the issues back here. 
Thank you.

    [The prepared statement of Mr. Shepard follows:]
  Prepared Statement of Ed Shepard, President, Public Lands Foundation
    Thank you for the opportunity to present the Committee our views 
regarding the Department of the Interior reorganization plan to 
restructure and move the Headquarters office of the Bureau of Land 
Management (BLM). As a national, non-profit organization with more than 
600 members, comprised principally of retired, but still dedicated, BLM 
employees, the Public Lands Foundation (PLF) has a unique body of 
experience, expertise and knowledge of public land management. The PLF 
is not political; our members have proudly served BLM Directors of both 
political parties so our perspective is based on decades of on-the-
ground experience managing the Nation's public lands.
    While the BLM has encountered several calls for reorganization over 
more than seven decades, none has raised as much concern for us as this 
one. The PLF is strongly opposed to the BLM reorganization plan 
submitted to Congress on July 16, 2019. This plan would remove the BLM 
Headquarters staff and leadership in Washington, DC from having a seat-
at-the-table with other national agencies within the Department of the 
Interior. It would also severely weaken the BLM's ability to 
collaborate with other Federal agencies whose headquarters are located 
in Washington, DC in the development of policies and implementation of 
programs for all Americans in the management of our national public 
lands.
    This plan is so radical that we question whether it was studied or 
analyzed by non-political budget analysts or organizational experts and 
whether career BLM senior management were involved or consulted. In 
short, we believe this plan would require the BLM to serve the short-
term wants of locally powerful stakeholders to the detriment of all 
other constituents and the long-term needs of the public lands. The 
break-up of the Washington Office structure would ensure the BLM 
promotes parochial, local interests, rather than the national interest.
    Most PLF members have experienced a variety of reorganization 
efforts. For the most part, these have proven to be counter-productive 
and costly to taxpayers. In the end, these previous efforts were found 
to be problematic and were ultimately reversed by the next 
administration. The PLF would ask that this reorganization plan be 
withdrawn.
                               background
Organization
    We fully believe this reorganization would functionally dismantle 
the BLM while ignoring the reality that the BLM is already a western-
based agency with 97 percent of its staff in the field and a structure 
already in place that is responsive to western constituents and 
stakeholders. Moving Headquarters employees to Grand Junction, Colorado 
and to several other locations across the West would not aid in the 
decision-making process and would hinder or eliminate the BLM's 
participation in legislative, budget, and policy discussions with the 
Department and Congress in Washington, DC. Today, the BLM is well 
organized to serve both western constituents and the Washington Office 
clientele. The relocation plan would result in programs and policies 
being fragmented and inconsistent among states and virtually all major 
policy decisions being made by the Department in Washington, DC without 
the benefit of input from BLM career professionals.
    Such a reorganization would also continue to increase the 
precipitous drop in the number of experienced BLM senior specialists 
and managers in Washington, DC, who have dedicated themselves to caring 
for and managing the Nation's public lands and resources for the 
benefit of the American public and for current and future generations. 
Many of the people being directed to move have personal circumstances 
that give them no other option than to resign, retire or leave the 
agency. This drain of institutional expertise would have serious 
detrimental consequences for years to come for the management of the 
country's public lands and minerals.
    The BLM is organizationally aligned to have office locations that 
provide for the appropriate coordination necessary to make sound 
resource management decisions. The western offices of the BLM provide 
the operational function for the organization. The current 
decentralized nature of the BLM allows for efficient and timely 
responses to western constituents. Approximately 97 percent of the BLM 
employees are currently located on-the-ground in Field, District, and 
State Offices to make land use decisions based on public interest, 
resource conditions, cooperating agency concerns, and BLM policy. These 
local staffs build and maintain interactive relationships with 
governors, state legislators, congressional members, county 
commissioners, tribes, other Federal agencies, and various local 
government and user groups.
Local Decision Making
    The PLF strongly supports the delegation of authorities to BLM 
State Directors, District and Field Managers. These BLM managers 
currently have the delegated authority to make land-use decisions, 
leasing and permitting decisions, conduct monitoring and compliance 
activities, provide public land-user assistance, and facilitate 
coordination with state and local governments, other Federal agencies, 
and tribes.
    In recent years, there has been reduced decision making at the 
field level as a result of unprecedented involvement by the Department 
and other political appointees--not from BLM Headquarters. If the goal 
of this plan is to return decision making to the local level, then we 
suggest that the Department return decision-making authority to local 
BLM managers who work daily with local communities. We also recommend 
that if the goal is to improve operational effectiveness, then the 
funds should instead be used to hire additional on-the-ground field 
staff across the West.
Leadership/Presence in Washington
    The BLM Headquarters is currently located in Washington, DC. The 
Bureau Directors of all other Department of the Interior agencies and 
the U.S. Forest Service within the Department of Agriculture are also 
headquartered in Washington, DC. Like its sister agencies, the BLM has 
a significant presence in the East with some of the most significant 
natural gas development anywhere in the Nation, notably in Louisiana 
and Arkansas. An agency without a strong leadership presence in 
Washington, DC has no input into daily discussions regarding policy, 
budget, legislation and resolution of issues. This would quickly result 
in a very inefficient and inconsistent organization that would be 
forced to make decisions state-by-state, which may or may not be 
consistent or in the national interest. Alternatively, decisions would 
be elevated to the Secretary's Office, which would result in decisions 
being made with little-to-no agency input. Local stakeholder input, if 
any, would be reserved for those whose interests align only with 
prevailing political interests.
    In fact, the reorganization plan would replace Washington, DC, 
where no single state has an advantage, with a headquarters office in 
Grand Junction giving a real advantage to Colorado. This would 
translate into inequities with other western states in terms of 
funding, program priorities, policy positions, and other management 
issues. Ultimately, this would result in poor and uneven management of 
the public lands across the West, where decisions would be weighted 
toward those states with particularly strong political ties, and to the 
detriment of the natural resources and the many constituents and 
stakeholders, who would lose their voices in how their public lands are 
managed.
    Additionally, the decision to place some resource program staffs in 
specific states would tip the scales for that program's management in 
favor of the host state while fostering management by silo where each 
program would be distant--both geographically and policy-wise--from the 
BLM Headquarters office. This would again foster uneven and 
inconsistent management and encourage each resource program to act 
independent from the BLM as a whole.
    Under this reorganization plan, the BLM could not ensure the 
management of our public lands for the ``national interest,'' as 
required by the Federal Land Policy and Management Act (FLPMA) of 1976. 
The BLM Headquarters staff and leadership would be removed from the 
Federal Government seat-of-power and placed in a remote location in the 
West with little influence in national public land issues.
Budget
    We request that before Congress makes a decision on this 
reorganization you require an independent analysis by the Congressional 
Budget Office or Government Accountability Office of actual cost 
savings, if any. The cost savings purported by the reorganization plan 
have not been subject to rigorous analysis and do not recognize the 
significant long-term costs to the BLM. Taken together, these will 
adversely affect the BLM's ability to be one of the Nation's leading 
revenue raisers. Currently, the BLM brings in more money than it 
spends, making it one of the few agencies in government to do so. 
Factors that need to be considered include:

    <bullet> Utilizing funds to move some 250 employees to western 
            offices will reduce or eliminate relocation funds for 
            several years. The best use of funds for employee moves are 
            for rotating employees throughout their career with the BLM 
            among different duty stations, including Washington, DC. 
            This exposes employees to a broad range of experiences and 
            creates a highly skilled workforce for the future.

    <bullet> Loss of experienced staff who will take new positions or 
            retire because they are not in a position to relocate, 
            exacerbating an already steep decline in experienced senior 
            and highly skilled employees.

    <bullet> Loss of productivity by staff during the disruption of the 
            reorganization effort; the costs for replacement of staff 
            who decide to leave during the reorganization; the costs of 
            inefficiency from scattered Washington Office staff and 
            managers and associated increase in travel costs to 
            facilitate coordination; and the likelihood that the move 
            to the West will be changed in the future and the BLM 
            Headquarters Office would have to be reestablished in 
            Washington.

Morale/Personnel
    The reorganization plan will have a profound, disproportionate and 
negative impact on women and minority employees in the BLM Washington 
Office. The BLM Washington Office has made significant progress in the 
recruitment of women and minority employees into leadership and 
professional positions in the agency and many of these employees have 
indicated a move would create significant hardships. Some 40 percent of 
the headquarters staff has indicated a reluctance to move to the West 
at this time.
                               conclusion
    The reorganization plan suggests that the relocation of the BLM 
Headquarters staff and leadership is necessary to delegate more 
responsibility to the field, maximize services to the public, and 
increase BLM's presence close to the resources in the West. What this 
reorganization plan will do is sideline the BLM from any influence in 
national public lands policies in Washington, DC and hinder the 
multiple use, sustained yield mission on these public lands. We urge 
you to reject the plan or set it aside until a more thorough, 
independent study is conducted on the costs and benefits of such a 
plan.

                                 ______
                                 

    Ms. Haaland. Thank you very much. The Chair now recognizes 
the Honorable Tony Small, Vice Chairman of the Ute Indian 
Tribal Business Committee.
    You have 5 minutes, Mr. Small.

  STATEMENT OF THE HON. TONY SMALL, VICE CHAIRMAN, UTE INDIAN 
         TRIBAL BUSINESS COMMITTEE, FORT DUCHESNE, UTAH

    Mr. Small. Good morning, members of the Committee. Thank 
you for the opportunity to testify on the reorganization and 
relocation of BLM to Grand Junction, Colorado, which is within 
our homelands.
    My name is Tony Small. I am the Vice Chairman of the Ute 
Tribe Business Committee. I am testifying on behalf of our 
tribe and in support of the joint comments submitted by over 20 
large treaty tribes from South Dakota, Nebraska, Montana, 
Wyoming, Utah, and Idaho.
    Our comments provided proposals for the reorganization of 
Interior, including BLM. We submitted our comments on September 
21, 2018. In the year since, there has not been any tribal 
consultation or reorganization of Interior. The 11 
consultations Congressman Bishop was talking about were before 
this, and did not include BLM. No BLM staff attended these 
consultations, and BLM relocation was never mentioned.
    In the spring of 2019, Interior took an action on one of 
our requests. They announced that the Bureau of Indian Affairs, 
Bureau of Indian Education, and Office of Special Trustees 
would not be included. Again, this decision was made without 
any consultation.
    If the Interior had consulted with us, they would have seen 
that there are many improvements that should be made to these 
agencies. The impact of reorganization on Indian tribes extend 
far beyond these three agencies. In fact, we will be affected 
more than anyone else by Interior reorganization and relocation 
of BLM.
    Reorganization is already underway. Over the last couple of 
years, long-standing offices and experienced staff have 
vanished, been relocated, or reorganized. These staff and 
offices provided services and programs that were guaranteed in 
treaties and agreements between us and the United States. The 
United States was founded on these treaties and agreements, and 
any changes to these programs or services requires 
consultation.
    The relocation of BLM to Grand Junction will have a 
dramatic impact on our interests. We are a major oil- and gas-
producing tribe. We rely on energy development to fund our 
government and provide services to our members. We create 
hundreds of millions in economic activity. Even though Congress 
specifically excluded Indian lands from BLM, the Secretary 
violated FLPMA by directing BLM to provide oil and gas permits, 
conducting inspections, and much more on Indian lands. If BLM 
reorganizes, these activities should go back to BIA.
    In addition, the millions in funding that goes to BLM 
should be transferred to BIA to properly manage energy 
development on Indian lands. This is important to BLM. BLM 
manages public lands for multiple use for the general public. 
BIA manages Indian lands in the best interests of tribes. BLM 
has no business making public land decisions on Indian lands. 
However, as long as BLM continues its activities on Indian 
lands, Interior and BLM are required to consult with us on 
reorganization. Moving BLM to Grand Junction will impact energy 
permitting on our lands.
    No one is talking about moving the White House or Congress 
to Grand Junction, or any other agencies involved in energy 
permitting on Indian lands. Moving BLM will reduce 
coordination, drain expertise, and eliminate accountability. 
Rather than drain the swamp, BLM will become a tool of special 
interests, and will lose focus on its national missions, 
including trust responsibility to tribes.
    Grand Junction is in our original homelands. In 1880, we 
entered into an agreement with the United States to give up 
millions of acres and to resettle along the Grand River near 
modern-day Grand Junction. These lands were rich with water 
resources, but the United States forced us at gunpoint farther 
west into what would become eastern Utah. In this rocky desert, 
a 1.9 million acre reservation was established for our benefit.
    Ever since, our Uncompahgre Reservation in Utah has been 
under attack. First, non-Indians over-grazed lands intended for 
our stock. And, today, BLM permits energy development on our 
lands. Billions have been made in energy leases and royalties 
on our Uncompahgre Reservation. BLM splits this money with the 
state. We have never been paid for the use of our lands. Year 
after year, the United States forces us to go to court to 
protect our lands and enforce treaties, agreements, and trust 
responsibilities. This must stop.
    The United States was founded on treaties and agreements 
with Indian tribes. I have said it before, and I will say it 
again. Without these treaties and agreements, the United States 
would not be here. Any organization of Interior or BLM must be 
done with our interests in mind, and in consultation with us. 
You have treaties, agreements, and promises to live up to.
    Thank you for your consideration of our testimony.

    [The prepared statement of Mr. Small follows:]
        Prepared Statement of Ute Indian Tribe of the Uintah and
                           Ouray Reservation
                              introduction
    Chairman Grijalva, Ranking Member Bishop and members of the 
Committee, thank you for the opportunity to testify on the proposed 
reorganization and relocation of the Bureau of Land Management (BLM) 
Headquarters to Grand Junction, Colorado and the Ute Indian Tribe's 
(Tribe) ancestral homelands. My name is Tony Small and I am an elected 
member of the Ute Indian Tribe's Business Committee and serve as Vice 
Chairman of the Business Committee.
    The Tribe offers this testimony on its own behalf and also in 
support of the inter-tribal comments submitted by over 20 other large 
treaty tribes from South Dakota, Nebraska, Montana, Wyoming, Utah and 
Idaho. The Ute Indian Tribe worked with these tribes to identify tribal 
priorities and put forward guidelines and principles for the Department 
of the Interior to include in its proposed reorganization initiative. 
Those comments were submitted to Interior about 1 year ago on September 
21, 2018. Since then, Interior only acted on one of the proposals in 
our comments--removing the Bureau of Indian Affairs (BIA), Bureau of 
Indian Education (BIE) and Office of the Special Trustee (OST) from the 
proposed reorganization.
    Interior has not provided any other response or reached out to us 
or other tribes to schedule consultation on these important matters 
that impact the daily lives of tribal citizens. Interior's own Policy 
on Consultation with Indian Tribes (Consultation Policy), issued on 
December 1, 2011, requires consultation on the proposed reorganization 
of Interior, the relocation of BLM, and all matters affecting Indian 
interests. Interior's failure to consult with Indian tribes on the 
proposed reorganization and ongoing relocation of bureaus, agencies and 
offices that administer Indian lands, natural resources, trust assets 
and interests is unacceptable.
   grand junction colorado is within the ute indian tribe's homelands
    The Ute Indian Tribe is a federally recognized tribe. Our 4.5 
million-acre Uintah and Ouray Reservation is located in northeastern 
Utah. However, since time immemorial the Uintah, Whiteriver, and 
Uncompahgre Bands of the Ute Indian Tribe occupied ancestral homelands 
stretching from present-day Salt Lake City, Utah to Denver, Colorado.
    Our ancestral homelands include Grand Junction, Colorado. In 1868, 
the United States entered into a treaty with the Ute Bands that would 
become the current Ute Indian Tribe of the Uintah and Ouray Reservation 
as well as other Bands of Ute Indians. Under that treaty, the Ute Bands 
ceded portions of their aboriginal lands to the United States while 
reserving approximately 15.7 million acres of land for the undisturbed 
use and occupation of the Bands located wholly within the boundaries of 
what would become the state of Colorado.
    In 1874, the discovery of large and valuable mineral deposits on 
the 1868 Reservation prompted the United States to force the Ute Bands 
to cede 3.7 million acres of their 1868 treaty lands. Mineral 
discoveries and the continued increase of white settlers within the 
remaining reserved tribal lands caused Congress to force the Ute Bands 
to relinquish additional portions of the 1868 Reservation. In 
particular, in 1880 Congress forced the Uncompahgre Band to cede its 
interest in the remaining lands of the 1868 Reservation in exchange for 
the right to settle upon agricultural lands along the Grand River, near 
present day Grand Junction, Colorado.
    Upon arriving at the Grand River and despite an abundance of water 
and resources, the United States decided that ``better'' alternative 
lands would be more suitable for the Bands in the high wilderness 
desert of what would become northeastern Utah. At gunpoint and 
including a period of detainment in present day Grand Junction, the 
United States forced the Uncompahgre Band out of Colorado further west 
into what would become Utah. In this high wilderness desert, the 
President issued an 1882 Executive Order setting apart approximately 
1,900,000 acres as a Reservation for the Uncompahgre Band. Over more 
than a century later, the Uncompahgre Band continues to occupy our 
Uncompahgre Reservation, despite the fact the United States has not 
treated our reservation like any other reservation in the United 
States.
    Specifically, for the past century, the United States continues to 
push actions and policies intended to take and limit our ability to use 
and benefit from our lands. Initially, non-Indian settlers were 
encouraged to settle on our lands through now discredited allotment 
acts and homestead land policies. Then the United States encouraged 
non-Indian grazing on our lands that took resources intended for our 
livestock. Finally, despite long-standing agreements between BIA and 
BLM regarding Indian and non-Indian grazing within our Uncompahgre 
Reservation, in 1948, BLM sought the approval of the Secretary to take 
administrative control of the remaining lands within Uncompahgre 
Reservation.
    BLM has unlawfully managed these lands since 1948 for grazing and 
oil and gas leasing. For example, on December 12, 2017, the BLM 
conducted an oil and gas lease sale in the Green River District that 
included 34 parcels within the exterior boundaries of the Uncompahgre 
Reservation. Despite our protest, BLM continued with the sale and 
raised millions in lease bonus payments that will be split between the 
United States and the state. Billions more in royalties will be made 
from oil and gas development on our lands and, without intervention 
from Federal authorities, these royalties will be split between the 
United States and the state. The Ute Indian Tribe has never received 
any payment from the United States for the BLM's leasing of our lands.
    This history, injustice and mismanagement of our lands is brought 
to the forefront again by the proposed relocation of BLM to Grand 
Junction, Colorado on lands that should have been reserved and held for 
the Uncompahgre Band. The United States has failed to fulfill its 
obligations as a trustee for the Tribe's land and resources. The United 
States has a trust obligation and statutory duty to restore tribal 
lands, protect our homelands, and manage our resources in the best 
interest of the Tribe. Instead, year after year, the Tribe is forced to 
resolve these issues in court.
    The proposed relocation of BLM to Grand Junction, Colorado without 
any tribal consultation or consideration of the impacts to the Tribe 
and other large treaty tribes is another stain on this history of 
broken treaties, agreements, and promises to Indian tribes. The United 
States' trust responsibility and government-to-government consultation 
requirements are the modern-day implementation of these treaties and 
agreements. The United States was founded on these treaties and 
agreements and has an ongoing obligation to consult with Indian tribes 
on matters affecting tribal interests. This includes the proposed 
relocation of BLM into the Ute Indian Tribe's homelands.
   inter-tribal proposal on department of the interior reorganization
    On September 21, 2018, a coalition of large treaty tribes from 
across the Great Plains, Rocky Mountain and Western regions submitted 
an ``Inter-Tribal Proposal on Department of Interior Reorganization'' 
to former Secretary of Interior Ryan Zinke. The tribes involved 
included the Ute Indian Tribe, the Yankton Sioux Tribe, the Winnebago 
Tribe, the Paiute Indian Tribe of Utah, the Eastern Shoshone Business 
Council, and other tribes that are members of the Rocky Mountain 
Leadership Council and the Great Plains Chairman's Association. In the 
year since the proposal was submitted, Interior has not provided a 
response or reached out to any of these tribes to engage in 
consultation.
    The Ute Indian Tribe worked with these tribes to develop our inter-
tribal proposal as our large treaty tribes will be the most impacted by 
any reorganization of the Department of the Interior. The 
reorganization of Interior must be done with prior and meaningful 
tribal participation and uphold Interior's trust responsibility to 
tribes. We are not off to a good start.
    The large treaty tribes' inter-tribal proposal set forth guiding 
principles that Interior must consider in any reorganization of the 
agencies, bureaus and offices involved in managing or overseeing issues 
related to Indian affairs. These guiding principles provided that any 
reorganization must: (1) be developed only after true consultation with 
tribes, (2) respect tribal sovereignty, (3) uphold treaty rights, (4) 
ensure tribal economic freedom, (5) not cut funding, (6) emphasize the 
trust responsibility, (7) increase funding to the necessary departments 
and programs to fulfill the unmet needs of tribes and individuals, (8) 
honor self-determination for tribes, (9) respect nation-to-nation 
relationships, and (10) respect sacred lands. Furthermore, the inter-
tribal proposal clarified that the proposed reorganization would 
require congressional approval and cannot be done under the auspices of 
an Executive Order because agency organization is typically defined by 
statute.
    In its ongoing reorganization and relocation of agencies, bureaus, 
offices and employees, Interior has failed to meet or act on any of the 
guiding principles set forth in the large treaty tribes' inter-tribal 
proposal. First and foremost, Interior has not engaged tribes through 
information sharing or consultation to discuss the tribes' comments. 
Instead, Interior moved forward with its reorganization efforts, 
including the proposed relocation of BLM's headquarters, to the 
detriment of tribal interests and in violation of its trust 
responsibility.
          lack of tribal participation in the planning process
    Any reorganization or relocation of Interior's component bureaus, 
agencies and offices will affect the interests of Indian tribes more 
than anyone else and cannot be done without meaningful tribal 
participation. This has already not happened. Early on, BIA held 
listening sessions to gather comments and input from Indian tribes, but 
agency wide reorganization plans were already developed and underway. 
Without any notice or consultation, offices, experts and staff that 
Indian tribes relied on to deliver services and run programs vanished 
or were relocated. In addition, since these listening sessions were 
held more than 2 years ago, there has been no follow up or actual 
government-to-government consultation.
    Listening sessions are not consultation. Interior's Consultation 
Policy makes clear that ``Consultation is a deliberative process that 
aims to create effective collaboration and informed Federal decision 
making. Consultation is built upon government-to-government exchange of 
information and promotes enhanced communication that emphasizes trust, 
respect, and shared responsibility.'' Consultation Policy at 2. These 
listening sessions did not produce ``collaboration'' or an ``exchange 
of information.''
    We appreciate that some tribal comments were heard and that in the 
spring of 2019, Interior stated that BIA, BIE and OST would not be 
included in Interior's proposed reorganization. However, even this 
decision was made without any tribal consultation. While we oppose 
broad relocation and reorganization of BIA and BIE, both of these 
agencies should be improved by internal reorganization principles as 
described in our September 21, 2018 proposal.
    Beyond these listening sessions with BIA, there has been no 
discussion or consultation with Indian tribes on the relocation of 
BLM's headquarters and its impact on Indian interests. This is a clear 
and obvious violation of Interior's Consultation Policy and the trust 
responsibility. For all tribes, BLM plays an important role in the 
management of Indian resources. Interior is required to consult with 
Indian tribes on its plans for BLM the same as BIA or BIE.
    Over this same time period, the Government Accountability Office 
(GAO) has been studying Federal agency consultation policies and the 
failure of agencies to fulfill those policies and other consultation 
requirements. In a March 2019 report entitled ``Tribal Consultation--
Additional Federal Actions Needed for Infrastructure Projects,'' GAO 
found that the Federal Government's process of meaningful consultation 
is wholly inadequate to ensure appropriate tribal participation in 
decisions that will affect tribal interest. Specifically, the GAO 
report identified a number of factors that hinder effective 
consultation including agencies' processes for initiating consultation, 
lack of respect for tribal sovereignty and the government-to-government 
relationship, tribal resources to participate in consultation, Federal 
officials' knowledge on tribal consultation, and interagency 
coordination on consultation.
    As GAO affirmed, in order to fulfill its trust obligations, any 
efforts related to the reorganization of Interior, including the 
relocation of BLM, must be halted until Indian tribes have had a 
meaningful opportunity to engage in informed consultation and reach an 
agreement concerning important governance principles, including tribal 
treaty rights, the Federal trust relationship, and nation-to-nation 
relations. Because both the broader Interior reorganization and the 
proposed relocation of BLM will affect tribes and tribal interest in 
drastic ways, the Federal Government must enter into a process of true 
consultation with all tribes prior to undertaking any further 
reorganization measures.
    Moreover, it is of paramount importance that any engagement or 
consultation with tribes on this matter is carried out in a manner that 
is consistent with the terms of the United Nations Declaration on the 
Rights of Indigenous Peoples (UNDRIP). In 2010, President Obama 
officially endorsed UNDRIP and the United States maintains an 
affirmative legal obligation to adhere to its terms and conditions. 
More specifically, the Department of the Interior's consultation with 
tribes on these reorganization efforts should include and be guided by 
the concept of ``free, prior, informed consent'' (FPIC) which is a 
cornerstone of UNDRIP.
    FPIC requires agencies to include tribes early and throughout the 
process, and to ensure a level of fairness that would result in 
voluntary consent. Implementing a FPIC process shows tribes that their 
interests and rights will be affirmed and protected in any 
reorganization effort. FPIC is an effective solution to the many 
problems of current consultation policies. It would result in 
consistency, predictability, and participation at a government-to-
government level that respects tribal self-determination and protects 
tribal rights and resources.
    Given the failure of Interior to consult with tribes in a manner 
that adheres to FPIC principles as well as its failure to comply with 
the findings of the GAO Report, we support efforts by Representative 
Betty McCollum and other members of the House Committee on 
Appropriations to freeze or eliminate funding for reorganization until 
Interior has consulted with tribes. This is a necessary first step to 
ensure that tribal interests and concerns are addressed in any 
reorganization of Interior and relocation of BLM.
  reorganization and relocation of blm will impact tribal oil and gas 
                              development
    The Ute Indian Tribe is a major oil and gas producer and has been 
developing oil and gas on the Reservation for over 70 years. The Tribe 
leases about 400,000 acres for oil and gas development, and has about 
7,000 wells that produce 45,000 barrels of oil a day. We rely on oil 
and gas development to provide essential government services to our 
members including land, fish and wildlife management, housing, 
education, emergency medical services, public safety, and energy and 
minerals management. Our tribal government has 60 tribal departments 
and agencies. The Tribe is a major employer and driver of economic 
development in the Uintah Basin, generating tens of millions of dollars 
each year.
    While BLM lacks authority under the Federal Land Policy and 
Management Act (FLPMA) to oversee and manage activities on Indian land, 
the Secretary has unlawfully sought to delegate many important 
authorities on Indian lands to BLM. On our Uintah and Ouray 
Reservation, BLM is responsible for approving Applications for Permits 
to Drill (APDs) and Communitization Agreements (CAs), and inspecting 
oil and gas operations. BLM also conducts resource evaluation, mineral 
appraisals, and production verification and Indian lands. In addition, 
BLM provides technical assistance to Indian tribes and Indian mineral 
owners and works with tribes when analyzing impacts of development 
proposals under the National Historic Preservation Act. Beyond resource 
development, BLM works with tribes on land transfers, wildlife 
management, and access to sacred sites.
    These functions have been carried out by BLM in direct 
contravention of BLM's enabling legislation, the Federal Lands Policy 
Management Act (FLPMA). Under FLPMA, Congress expressly prohibited BLM 
from exercising any authority to regulate tribal lands and limited 
BLM's role to the management of public lands. Section 1702(e) of FLPMA 
specifically excludes tribal lands from the definition of public lands, 
and therefore excludes tribal lands from BLM's administration or 
control. However, the Secretary unlawfully delegated BIA's authority 
over oil and gas development in Indian Country to BLM in direct 
violation of Congress' intent. This unlawful delegation of authority 
has resulted in tribal lands being managed as public lands, resulting 
in extreme delays and unnecessary bureaucratic obstacles in the 
approval of energy and economic development projects on our lands.
    To add insult to injury, in addition to its unlawful interference 
and management tribal lands resource development and tribal economies, 
BLM has not held any consultation sessions with Indian tribes on its 
proposed reorganization and relocation. For example, how will 
reorganizing BLM into ``Unified Regions'' based on watersheds address 
Indian interests? Neither Interior nor BLM have provided any 
explanation. Prior to taking any reorganization or relocation actions, 
Interior and BLM are required to consult with tribes on how 
fundamentally changing the regional structure, decision-making process, 
oversight, and location of the BLM's headquarters will impact tribal 
resources and interests.
    The relocation of BLM's headquarters will also adversely impact 
tribal interests through the elimination of long-serving career 
employees that tribes relied on to coordinate their activities with 
other Interior bureaus and Congress. It has been widely reported that 
requiring these career employees to uproot their families and move 
across the country will lead to a drain of expertise and leadership 
within BLM. Many of those employees have years of experience working 
with tribes and abruptly losing their expertise will impact Indian 
interests.
    In addition, moving BLM headquarters to Grand Junction, Colorado 
will impact BLM's relationships with every other Federal Government 
branch and agency still in DC. In addition, to the White House and 
Congress, there are a number of other Federal agencies that have 
authority over public lands, including the U.S. Forest Service, 
Department of Energy, Army Corps of Engineers, Bureau of Reclamation, 
and others who will not be relocated. Removing BLM headquarters staff 
out of Washington, DC and away from these other important agencies and 
branches of government will result in the breakdown in communications 
on important discussions and decisions affecting the management of 
Federal lands. The move will also remove BLM from the direct oversight 
of Congress and open BLM up to the influence of special interest 
groups.
         reorganization of interior to support indian interests
    Instead of using Interior's reorganization to harm tribal 
interests, Interior should use the opportunity to recommit itself and 
its bureaus, agencies and offices to support tribal self-determination, 
upholding its trust obligation to tribes, and affirming the government-
to-government relationship between Indian tribes and the Federal 
Government. Without working with tribes to work to resolve 
jurisdictional and economic issues, any reorganization effort will do 
little more than perpetuate a broken and ineffective Federal system of 
oversight and control which keeps tribes dependent on the Federal 
Government.
    The most important way Interior's reorganization can support tribal 
interest is to ensure that reorganization affirms and upholds the 
political relationship between Indian tribes and the United States. 
Indian tribes are separate sovereigns that pre-date the formation of 
the United States. As separate governments, Indian tribes and their 
members do not fall into the racial categories of the United States. 
Instead, the unique legal and political status of Indian tribes is set 
out in the Constitution, hundreds of treaties, laws, executive orders, 
and court decisions since the founding of the United States.
    Affirming the political status of Indian tribes is a fundamental 
tenant of Federal Indian law which is increasingly under attack through 
legal challenges that serve to uproot the Indian Child Welfare Act, 
undermine the treaty rights of federally recognized tribes to possess 
and use eagle under the Eagle Protection Act and delegate our treaty 
rights to ``race based'' as opposed to ``government to government'' 
classifications. The political status of Indian tribes was upheld by 
the U.S. Supreme Court in Morton v. Mancari which embraced the 
political and government-to-government relationship between tribes and 
the United States.
    In the wake of these challenges, Interior's reorganization should 
reaffirm Interior's trust responsibility to tribes and ensure that 
treaty obligations are protected and upheld. Instead, in recent years, 
Interior has shifted its trust relationship with tribes away from trust 
resource management to focus on how to best protect the United States 
from further liability in the wake of the Cobell v. Salazar court 
settlement. Rather than placing further limits on the government's 
fiduciary and trust responsibilities to uphold and fulfill treaty 
obligations to tribes and Indian communities, Interior should work to 
support and tribal self-governance by seeking to resolve the 
jurisdictional, social and economic limitations that have and continue 
to cause the underlying problems that exist in Indian Country.
    This reaffirmation of Interior's trust responsibility must apply to 
non-monetary assets such as land, water, and other natural resources 
along with the management of tribal monetary assets. Interior's 
reorganization should be carried out in a manner that is consistent 
with Congress' intent that BIA, as opposed to BLM, maintain 
administration of Indian lands, as BLM's public land management 
policies contain restrictive and burdensome requirements that should 
never apply to Indian lands. In exercising its authority over public 
lands, BLM is required to manage public lands for: multiple use, 
sustained yield, and to balance competing resource interests, including 
in part, historical, ecological, environmental, and archaeological 
values. Those standards are significantly different from the standards 
that BIA is required to apply when managing Indian lands in the best 
interests of Indian trustees and respecting tribal self-determination 
regarding Indian lands. Allowing the BLM to enforce its public land 
regulatory regime on Indian lands contradicts the Federal Government's 
nearly 40-year standing policy of self-determination for Indian tribes.
                               conclusion
    The Department of the Interior's proposed reorganization, including 
the relocation of BLM's headquarters to Grand Junction, Colorado, will 
disproportionally impact large treaty tribes. Any reorganization or 
relocation of BLM must renew and uphold the United States' treaty 
obligations and trust responsibilities to Indian tribes, and fulfill 
government-to-government consultation requirements with Indian tribes. 
Reorganization efforts should take important steps to improve the 
programs and services that Interior provides to tribes and their 
members according to the guiding principles set forth in the large 
treaty tribes' inter-tribal proposal.
    These programs and services are the modern-day implementation of 
the treaties and agreements that the United States entered into with 
Indian tribes. The United States was founded on these treaties and 
agreements and these commitments are a solemn and sacred obligation 
that must be upheld to ensure the integrity and moral responsibility of 
this great nation.

    Thank you for your consideration of our testimony.

                                 ______
                                 

    Ms. Haaland. Thank you very much, Mr. Small.
    The Chair recognizes Mr. Tipton for 30 seconds to introduce 
Ms. Robin Brown.

    Mr. Tipton. Thank you, Madam Chair. It is a pleasure for me 
to be able to have the opportunity to introduce Robin Brown, 
who happens to be from my district out of Grand Junction, 
Colorado.
    Robin is the Executive Director of the Grand Junction 
Economic Partnership, which is the economic development agency 
for Mesa County. Its primary focus is recruiting businesses 
into Colorado's Grand Valley.
    Prior to moving to Grand Junction in 2010, it is worthy of 
note that Robin spent 8 years as an attack Army helicopter 
pilot, deploying twice to Iraq. She also managed public 
relation businesses and founded ``Spoke and Blossom,'' a 
lifestyle magazine for western Colorado.
    I would like to thank Robin for her service to our country 
and for being here today to talk about the benefits of moving 
the BLM headquarters to Grand Junction, Colorado.

 STATEMENT OF ROBIN BROWN, EXECUTIVE DIRECTOR, GRAND JUNCTION 
         ECONOMIC PARTNERSHIP, GRAND JUNCTION, COLORADO

    Ms. Brown. Thank you, Congressman.
    As the Congressman said, my name is Robin Brown. I am the 
Executive Director of the Grand Junction Economic Partnership, 
which is the economic development agency for the Greater Grand 
Junction area.
    Grand Junction, with a population of 151,000 people, is the 
largest metropolitan area in western Colorado. We are located 
about 3\1/2\ hours west of Denver on Interstate 70, halfway to 
Salt Lake City on the western side of the Rocky Mountains. We 
are also about a 5-hour drive from Nevada, an $80 plane ride to 
Las Vegas, and we have 1,500 Federal employees.
    There has been a lot of misinformation about Grand Junction 
today, so I just wanted to get a few corrections in there. We 
have 18 to 20 daily flights a day from our airport that go to 
many more locations than were on the slide earlier.
    Mesa County, where I reside, is 76 percent public lands. 
Our economy depends on that land, in both the above-ground and 
below-ground natural resources that come from them. In Grand 
Junction, we believe that we can do it all on public lands in a 
way that both protects and conserves the very lands that we 
rely on for a healthy economy.
    Colorado has the toughest oil and gas regulations in the 
country, and the industry has responded using technology to 
severely reduce emissions, while increasing production. Today, 
we are able to extract fossil fuels in a safer and cleaner way, 
reducing the impact on climate change, while also providing 
high-paying jobs and a direct economic impact to our rural 
communities.
    With all of that energy production going on, we are also an 
outdoor recreation mecca. From my back door, I can hike in a 
national monument, mountain bike on world-class, single-track 
trails, kayak the Colorado River, or just sit on my back porch 
and look at the abundant wildlife that wanders through, whether 
it is deer, bighorn sheep, pheasant, quail, mountain lions, or 
bear.
    If I hop into my car, I can hunt big game, fish, 
snowmobile, Nordic or downhill ski within a 40-mile drive from 
my home. Colorado has the best public land hunting in the 
country, and people come from all over the world to take 
advantage of it.
    It is not unusual to run across wild horses in Mesa County. 
They roam the desert area north of Grand Junction, known as the 
Bookcliffs. Just south of those desert lands are vast 
rangelands where local ranching families run cattle for beef 
production, which is Colorado's No. 1 Ag. export.
    National conservation areas, we have three. Wilderness 
study areas, yes. Grand Junction is home to Colorado Mesa 
University, with a current enrollment of 11,000 students. 
Within the University, the Natural Resource Center works with 
Federal, state, and local governments to adopt policies that 
promote the value of multiple-use and sustained yield.
    The Unconventional Energy Center conducts research to help 
energy producers understand regulatory predictability and both 
reduce operating costs and the impact on the environment. This 
Institute positions Grand Junction as the epi-center of energy 
innovation.
    Both of these institutes work closely with our regional BLM 
office as they study, research, and implement land use policies 
and procedures. In other words, every single thing that the BLM 
does can be researched, studied, and put into practice in Mesa 
County, Colorado.
    The arguments against moving the headquarters is based on a 
lack of trust. Well, I wouldn't trust somebody I have never 
met, either. So, I invite you all out to Grand Junction to meet 
the very people who worry you so much. And then we could 
correct a lot of the misinformation that has been put out 
today.
    I would introduce you to Janie Van Winkle. Janie is a 
second-generation beef rancher that grazes her cattle on public 
lands. She is also the best conservationist I know, because, as 
a rancher, she understands that the lands that she drives her 
cattle over year after year have to remain healthy in order for 
her herds to remain healthy.
    I would introduce you to Scott Winans. Scott is the 
president of the Colorado Plateau Mountain Bike Association, a 
non-profit, all-volunteer organization that builds, maintains, 
and advocates for mountain bike trails all over western 
Colorado. There is no better advocacy group for the proper 
maintenance and long-term health of our trail system. Try 
riding your bike on a trail after it rains, or taking a 
shortcut where there is no trail, and you will get a quick and 
fierce lesson of proper trail etiquette, as you would deserve.
    I would introduce you to Quint Shear, a fifth-generation 
Coloradan and land man who could tour you through a number of 
wellpads on the Grand Mesa that intertwine in and out of his 
favorite hunting and hiking grounds.
    With proper planning, these industries can and already do 
co-exist.
    The idea that BLM leadership shouldn't be influenced by the 
communities that rely on our public lands is misguided. It 
tells me that you don't trust Janie, Scott, Quint, or people 
like us from rural communities to advocate for the highest and 
best use of our public lands.
    It also tells me that you don't trust your own leadership 
to know the difference between those with good intentions and 
those with bad. And that is ironic, because last year in 
Washington, DC there were 11,654 registered lobbyists that 
spent $3.4 billion influencing you. So, I don't quite see why 
it is OK to be influenced by more lobbyists than most of these 
communities have in total population, with more money than all 
of our annual budgets combined, but not OK to be influenced by 
the communities who know, love, and protect our public lands 
best because they live, work, and play on those lands every 
single day.
    Congressmen and women, on behalf of the people of western 
Colorado, on behalf of Senators Michael Bennet and Cory 
Gardner, on behalf of Congressman Tipton and Governor Jared 
Polis, I encourage you to support the relocation of the BLM 
headquarters to Grand Junction, Colorado, a place where there 
is actually BLM land. Thank you.

    [The prepared statement of Ms. Brown follows:]
 Prepared Statement of Robin Brown, Executive Director, Grand Junction 
                          Economic Partnership
                          about grand junction
    Grand Junction, Colorado is the largest metropolitan area in 
western Colorado and is located on the western slope of the Rocky 
Mountains halfway between Denver and Salt Lake City, Utah. The Greater 
Grand Junction area includes the cities of Grand Junction and Fruita 
and the town of Palisade and has a total population of 151,000. Grand 
Junction is located in Mesa County and is home to Colorado Mesa 
University and the Grand Junction Regional Airport. The Average Annual 
Wage is $42,692. 76 percent of Mesa County is public lands and over 
1,500 Federal employees live and work in Mesa County from the 
Department of Energy, U.S. Forest Service, Bureau of Land Management, 
and the Colorado National Monument. Grand Junction's economy depends on 
its public lands, whether it's responsible energy production, rangeland 
management, or outdoor recreation.

    Everything within the BLM's mission can be researched, studied and 
put into practice in Mesa County, Colorado.

                             cost of living

    <bullet> Grand Junction is the most affordable metropolitan area in 
            Colorado.

    <bullet> The median price of a Single Family Home is $260,000.

    <bullet> Closing costs are, on average, less than 1 percent of the 
            loan amount.

    <bullet> Average time to close is less than 30 days.

    <bullet> Average cost per square foot for residential properties is 
            $164 s/f.

    <bullet> Median residential rent is $1,250 per month or .98 cents 
            per square foot.

    <bullet> Inventory: There are approximately 200 homes and 
            apartments listed for rent and over 650 active listings for 
            sale at this time.

                         commercial real estate

    <bullet> Grand Junction has a variety of move-in ready commercial 
            office space available for lease, as well as a number of 
            prime lots available should the DOI choose to build to 
            suit.

    <bullet> Average lease rates are $15 per square foot for Class B 
            office space and $25 per square foot for Class A office 
            space. This includes utilities and NNN.

                        colorado mesa university
    Colorado Mesa University is the 4th fastest growing university in 
the country with a current enrollment of 11,000 students. CMU has a 
variety of programs, including engineering, computer science, 
cybersecurity, health sciences and nursing, agricultural science, 
geology, archeology, biological science, and construction technology.
    The Redifer Institute is home to multiple research and policy 
institutes at CMU. One of those institutes, the Natural Resource 
Center, promotes the adoption of natural resource and land use policies 
by Federal, state and local governments that support and promote the 
value of multiple use and sustained yield by providing scientific data 
and programmatic solutions to guide the development of future policy.
    Another institute, the Unconventional Energy Center, conducts 
research projects that help energy development practitioners with 
regulatory predictability, reducing operating costs, increasing the 
effectiveness of extraction and reducing impacts on the environment. 
This institute positions Grand Junction as the epicenter of energy 
innovation.
                               air travel
    The Grand Junction Regional Airport currently has 17 daily, direct 
flights to 8 locations. Direct flight locations include Denver, Salt 
Lake City, Dallas, Phoenix, Las Vegas, Los Angeles, Mesa and Chicago. 
Flights support both business and tourism travel. There are 30 flights 
every day to Washington, DC with one connection. In 2018, the city of 
Grand Junction passed a lodging tax to be used by the Air Service 
Alliance to increase direct flight destinations through a minimum 
revenue guarantee. The Alliance is currently considering San Francisco 
(to reach Asia).
                           opportunity zones
    Mesa County has seven Opportunity Zones--the most of any county in 
Colorado. The combination of affordable real estate, a growing economy, 
and the tax incentive have made Grand Junction attractive to developers 
and investors. There are multiple opportunity zone developments 
underway throughout the city of Grand Junction, including multi-family 
housing, mixed-use commercial and Class A office space.
                   mesa county relocation task force
    The Mesa County Relocation Task Force is a hands-on, customized 
team that will ensure an easy transition for all employees and their 
families. Services include:

    <bullet> Pre-move visits to all employees and their families to 
            provide information about the region and a single point of 
            contact to assist families at all times.

    <bullet> Our Real Estate Team will assist employees and their 
            families in finding suitable housing and includes both 
            rental and purchase assistance.

    <bullet> Our School Placement Team will provide a complete 
            inventory of all public, charter and private schools and 
            assist all students and their families with enrollment, 
            school calendars, academic programs, special needs, and 
            extracurricular activities, including sports.

    <bullet> Our Trailing Partner Program will assist all spouses and 
            partners with prioritized, personal job placement in the 
            local region, as well as training programs and/or admission 
            to Western Colorado Community College and Colorado Mesa 
            University.

          locate your blm headquarters where there is blm land

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


               oversight hearing testimony, expanded
    Grand Junction is the only metropolitan area in western Colorado 
with a population of 150,000. We are located about 3\1/2\ hours west of 
Denver on Interstate 70 halfway to Salt Lake City on the western side 
of the Rocky Mountains.
    Mesa County, Colorado where Grand Junction is located, is 76 
percent public lands. We have BLM land, U.S. Forest land, National Park 
land, and State Park land. Our economy depends on that land and both 
the above ground and below ground natural resources that come from our 
public lands. Historically, we've been dependent on energy--
specifically the natural gas in the Piceance Basin--as our only 
economic driver and have weathered the boom and bust cycles that come 
with the industry. However in recent years, our community has worked 
hard to diversify our economy by growing outdoor recreation 
manufacturing, tourism, agriculture, healthcare, manufacturing and 
aerospace. Recent job numbers show that all of these industries have 
grown while energy has remained stable, leading me to believe that we 
should be able to weather a downturn in the energy industry in a way 
that we've never been able to do in the past.
    In Grand Junction, we believe in an all-of-the-above approach to 
economic development. What that means is that we believe that we can do 
it all on public lands in a way that both protects and conserves the 
very lands we rely on while balancing that use with an economy that 
depends on those lands. Colorado has the toughest oil and gas 
regulations in the country and the industry has responded using 
technology to severely reduce emissions while increasing production. 
Today we are able to extract fossil fuels in a safer and cleaner way 
reducing the impact on climate change, while also providing high-paying 
jobs and direct economic impact to our rural communities.
    With all of that energy production going on, we are also an outdoor 
recreation mecca. From my back door, I can hike in a national monument, 
mountain bike on world class single-track trails, kayak the Colorado 
river, ride my dirt bike, ATV or rock crawling jeep on BLM land, or 
just sit on my back porch and look at the abundant wildlife that 
wanders through--whether it's deer, bighorn sheep, pheasant, quail, 
bobcats, mountain lions or bear. If I hop into my car, I can hunt big 
game or birds, fish, snowmobile, cross country ski or downhill ski, 
within a 40-mile drive from my home. Colorado has the best public land 
hunting in the country and people travel from all over the world to 
hunt in my backyard.
    It's not unusual to run across wild horses in Mesa County. They 
roam the desert area north of Grand Junction known as the Bookcliffs. 
It's also not unusual for a cease-fire to be called at the Cameo 
Shooting Complex managed by Colorado Parks & Wildlife because horses or 
bighorn sheep wander down into the complex. Just south of those desert 
lands are vast rangelands where local ranching families run cattle for 
beef production, which is Colorado's No. 1 Ag. export. National 
Conservation Areas? We've got three. Wilderness Study areas? Check.
    Colorado Mesa University (CMU) is the 4th fastest growing 
university in the country with a current enrollment of 11,000 students. 
The University is an incredible partner to our community with programs 
such as health sciences and nursing, engineering and computer science, 
agricultural science, geology, archeology, and biological science, 
creating talent pipelines that will both allow our local companies to 
grow and attract new business to the area in search of our highly 
qualified workforce.
    Within CMU, the Redifer Institute is home to multiple research and 
policy institutes. One of those institutes, the Natural Resource 
Center, promotes the adoption of natural resource and land use policies 
by Federal, state and local governments that support and promote the 
value of multiple use and sustained yield.
    Another institute, the Unconventional Energy Center, conducts 
research projects that help energy development practitioners with 
regulatory predictability, reducing operating costs, increasing the 
effectiveness of extraction and reducing impacts on the environment. 
This institute positions Grand Junction as the epicenter of energy 
innovation.
    Both of these institutes work closely with our regional BLM office 
as they study, research and implement land use policies and procedures.

    In other words, every single thing that the BLM does can be 
researched, studied and put into practice in Mesa County, Colorado.

    Colorado is unique in that our state is cut in half by the physical 
barrier that is the Rocky Mountains, which run north to south through 
the center of our state. The vast majority of people, business, both 
private and public investment, along with 86 percent of the state GDP 
are located on the eastern side of the Rockies along the I25 corridor. 
However, the vast majority of public lands are located on the western 
side of the Rockies. In fact, this is true at the national level as 
well--99 percent of public lands are west of the Rockies. These lands 
also make up, at least in the west, our most rural communities.
    Politically and culturally, our country is experiencing a divide 
between our rural and urban communities that is unlike any other time 
in our history. The industries in rural communities are vastly 
different than those in urban cities. So are lifestyles, foods, 
languages, and education. The people that make up our urban communities 
don't physically see where the power to turn on their lights comes 
from, or where the beef in their burgers are raised, nor do they 
understand the long-term repercussions when they overcrowd and misuse 
our trails when they come to recreate.
    In Colorado, having a 14,000-foot natural feature called the Rocky 
Mountains divide the state in two further complicates and exacerbates 
that divide. Accidents and weather often close our interstate--
sometimes multiple times in a day--delaying freight deliveries that are 
vital to our West Slope economy and also making travel to the state 
capital difficult, expensive and sometimes impossible. In Colorado, our 
urban rural divide isn't just political and cultural, but it's also 
actually physical. And that divide often complicates policy and 
decisions made at the state level for communities and industries that 
leadership are often unfamiliar with. And if this is a problem in our 
own state, how can it not be a problem to have a headquarters located 
2,000 miles away from the very lands they are supposed to manage?
    The argument against moving the headquarters is based on a lack of 
trust. A lack of trust in BLM leadership to understand when they're 
being influenced and a lack of trust in the very communities that hold 
these lands so dear. Well I wouldn't trust somebody I'd never met 
either. So I invite you all out to Grand Junction to meet the very 
people who worry you so much.
    I'd introduce you to Janie Van Winkle. Janie is a second generation 
beef rancher that grazes her cattle on public lands. She's been running 
cattle since she could sit on a horse and will eventually pass her 
business on to her son. Janie is the best conservationist I know 
because as a rancher, she understands, almost more than anybody else, 
that the lands that she drives her cattle over year after year have to 
remain healthy in order for her herds to remain healthy for generations 
to come.
    I'd introduce you to Scott Winans. Scott is an engineer for a 
company called MRP that designs and manufactures mountain bike 
components. He's also the president of the Colorado Plateau Mountain 
Bike Association--a non-profit, mostly volunteer organization that 
builds, maintains and advocates for singletrack mountain bike trails. 
There is no better advocacy group for the proper maintenance and long-
term health of our trail system. Try riding your bike on trails after 
it rains or taking a short cut where there is no trail and you will get 
a quick and fierce explanation of proper trail etiquette, as you would 
deserve.
    I'd introduce you to Quint Shear--a 5th generation Coloradoan and 
landman who could tour you through a number of well pads on his 
family's ranch that intertwine in and out of his favorite hunting and 
hiking grounds. With proper planning, these industries can co-exist.
    Speaking of hunting, I'm a public lands hunter and last fall went 
with my 12-year-old son, Hank, on his first elk hunt. Being with him 
when he shot his first elk was one of the greatest experiences of my 
life. He is an incredibly conscientious hunter and conservationist and 
I am hopeful that he will one day hunt those same lands with his 
children.
    The idea that BLM leadership shouldn't be influenced by the 
communities that live, work and play on our public lands is misguided. 
It tells me that you don't trust Janie, or Scott or Quint or people 
like us from rural communities all over the West to advocate for the 
highest and best use of our public lands. It also tells me that you 
don't trust your own leadership to know the difference between those 
with good intentions and those with bad. And that's ironic because last 
year in Washington, DC, there were 11,654 registered lobbyists that 
spent $3.46 Billion influencing you. So I don't quite see why it's OK 
to be influenced by more lobbyists than most of these communities have 
in total population with more money than all of our annual budgets 
combined, but not OK to be influenced by the communities who know, love 
and protect our public lands best because they live, work and play on 
those lands every single day--sometimes over multiple generations.
    Congressmen and women, on behalf of the people of western Colorado, 
I encourage you to support the move of the BLM headquarters to Grand 
Junction, Colorado--a place where there is actually BLM land.

                                 ______
                                 

    The Chairman [presiding]. I turn to Ms. Haaland for any 
questions she might have.
    Ms. Haaland. Thank you, Mr. Chairman. First, I would like 
to submit, without objection, a letter from Assistant Secretary 
Sweeney that cites especially that consultations occurred for 
the Department of the Interior. And it is very clear that they 
occurred for the Department of the Interior.
    I am clarifying with this letter that no consultations were 
made for the BLM, specifically. Without objection, I would like 
to submit this letter, please.
    The Chairman. So ordered.

    [The information follows:]

        United States Department of the Interior,  
                           Office of the Secretary,
                                             Washington, DC

                                                  September 5, 2019

Hon. Raul M. Grijalva, Chairman,
Committee on Natural Resources,
U.S. House of Representatives,
Washington, DC 20515.

    Dear Chairman:

    Thank you for your letter dated July 23, 2019, to Secretary 
Bernhardt regarding the United States Department of the Interior's 
(Department) tribal consultation efforts on the Department's 
reorganization. Secretary Bernhardt asked that I respond to you on his 
behalf.

    President Trump's Executive Order (EO) 13781, Comprehensive Plan 
for Reorganizing the Executive Branch, challenged all Departments and 
Agencies to reorganize to better meet the needs of the American people. 
EO 13175, Consultation and Coordination With Indian Tribal Governments, 
directed each agency to have ``an accountable process to ensure 
meaningful and timely input by tribal officials in the development of 
regulatory policies that have tribal implications.''

    In order to comply with EO 13781 and EO 13175, the Department 
conducted extensive tribal consultation on the reorganization of the 
Department, which includes the Bureau of Land Management. These 
conversations included 11 formal consultation sessions and an 
additional 7 listening sessions at offices and facilities, large 
gatherings, and other venues. We posted transcripts of all 18 sessions 
we conducted at https://www.bia.gov/as-ia/raca/doi-reorganization. 
Additionally, in 2018, the Secretary held two Tribal leader roundtables 
specifically on the Department's reorganization efforts. The Department 
also received comments from 32 individuals or groups that submitted 
comments in response to the tribal listening sessions.

    The feedback gathered from the tribal consultations revealed a 
preference for the bureaus serving Indian country to retain their 
current structure rather than becoming part of the unified regions. We 
respected that feedback, and as a result, the Bureau of Indian Affairs, 
the Bureau of Indian Education, and the Office of the Special Trustee 
for American Indians have not realigned their regional field structure 
to the new unified regions.

    Additionally, the Department' s reorganization effort has been 
consistent with and responsive to the feedback received from a broad 
range of partners and stakeholders, including Members of Congress.
    Thank you for your shared interest in this important topic. I look 
forwarding to working with you and the other House Natural Resources 
Committee members and will plan to share additional details when 
available as the Department continues its planning efforts.

            Sincerely,

                                              Tara Sweeney,
                                 Assistant Secretary-Indian Affairs

                                 ______
                                 

    Ms. Haaland. Thank you.
    Vice Chairman Small, my question is for you. On July 23, 
Chairman Grijalva requested the Department of the Interior to 
suspend the BLM reorganization until adequate tribal 
consultation occurred. They responded to us just last week, 
essentially claiming the consultation they had done was more 
than adequate. Do you feel this is the case?
    Mr. Small. No, I don't. I think there should be more 
consultation with tribes.
    Ms. Haaland. Did you speak specifically with any of these 
folks about BLM issues?
    Mr. Small. No.
    Ms. Haaland. Thank you. Why is it important that tribes be 
given a chance to consult on the BLM organization, 
specifically?
    Mr. Small. Because, like in my testimony, I was talking 
about the energy portion of it. They handle a lot of the energy 
and the leasing part of that for the tribes. So, it is going to 
affect tribes, not only ours, but other tribes with fishing and 
different issues that tribes have. So, there needs to be more 
consultation with tribes.
    Ms. Haaland. Thank you. In your experience, have agency 
reorganizations and alterations generally improved services to 
tribes?
    Mr. Small. When there has been consultation, but most of 
the time no.
    Ms. Haaland. Most of the time they don't benefit, or most 
of the time they don't do the consultation?
    Mr. Small. Most of the time they don't benefit and don't do 
the consultations.
    Ms. Haaland. OK, thank you. How might this hastily planned 
reorganization impact your tribe?
    Mr. Small. The reorganization would impact my tribe 
financially and every which way, holding up leases. It is the 
one-stop shop that the tribe would have. You would be having 
people in two or three different time zones trying to work on 
issues. And we have been through that before with our energy 
issues, and it just doesn't work. It doesn't work. And the 
impact is going to be detrimental to us, because we depend so 
much on our energy.
    Ms. Haaland. Thank you. As I have shown in my Honoring 
Promises legislative proposal, which I am leading with Senator 
Warren, it is time for the Federal Government to start taking 
its commitments and obligations to tribal nations seriously. 
This needs to involve reorganizations, it needs to involve 
shifting resources. But it cannot take place without the input 
of tribal communities, and it should not be allowed to put 
important tribal resources in jeopardy.
    And I thank you all for being here, for testifying.
    Mr. Chairman, I yield--oh, I have one more. I am sorry. 
Thank you. I don't have eyes behind my head. I have a question 
for Mr. Shepard.
    Mr. Shepard, the Public Lands Foundation has expressed 
concerns that this reorganization will impact diversity at the 
BLM. I find this especially concerning, as minorities make up 
less than 30 percent of the Department of the Interior 
workforce. Can you briefly explain why this reorganization 
would disproportionately impact diversity at the BLM?
    And do you believe that this will undermine efforts to 
address the long-standing challenge of increasing diversity at 
the Department?
    Mr. Shepard. Well where BLM has had some of its greatest 
success has been back here in Washington, DC--attracting women 
and minorities into professional and leadership positions.
    And the people that are here and in those jobs have found 
that they really, at this time, cannot leave. Many of them 
have, not only women and minorities, but the other employees, 
also.
    When you look at the demographics of the West, it is a 
little tougher to recruit women, minorities in particular, in 
the West. BLM has done a better job of bringing in women and 
minorities, but we are nowhere near where they need to be.
    So, I think losing the folks that we have which are doing a 
great job would be a big detriment to the Bureau for a long 
time.
    Ms. Haaland. Thank you very much. I yield to the Chairman.
    The Chairman. Mr. Fulcher.
    Mr. Fulcher. Thank you, Mr. Chairman. A question for Ms. 
Brown.
    When we were listening to testimony earlier, there was a 
significant number of concerns that were raised about access, 
about air travel, lack of access to common airports, 
connections. How do you respond to that, please?
    Ms. Brown. Well, we have 18 to 20 direct flights a day from 
Grand Junction to 8 locations. Our air service is actually 
improving tremendously, as our economy has improved. Currently, 
we have two other direct flights that are coming on-line in the 
next 2 years. So, it is not at all hard.
    Manufacturing is a large industry for us. We have a lot of 
manufacturers that regularly travel to Asia or around the 
country to do their work. You can work on a global scale from 
Grand Junction.
    Mr. Fulcher. Thank you, Mr. Chairman. One follow up.
    Ms. Brown, there are other ways to communicate, as well, 
and more and more of that is done via the web, whether it be 
some sort of conference call or Internet video call, those 
types of things.
    Ms. Brown. We do have Internet in the West.
    Mr. Fulcher. Well, that is my question in terms of 
broadband. What is the broadband coverage? And is it universal 
across that region? Because not all parts of the country are 
that way.
    Ms. Brown. Yes. There are markets where I could see where 
that would be a concern, but we are a large enough market that 
we have plenty of fast and good, reliable service. My husband 
actually is in the energy industry, works out of our house, and 
does all of his work online across the global----
    Mr. Fulcher. Last question. You said you had BLM ground in 
Mesa County, Grand Junction area. How much of that ground do 
you have?
    Ms. Brown. How many acres?
    Mr. Fulcher. How many acres? What is the----
    Ms. Brown. I probably should know that. I don't. It is 360 
degrees. It surrounds me.
    Mr. Fulcher. The point is there is----
    Ms. Brown. Plenty.
    Mr. Fulcher. There is a lot of that within the immediate 
region, and your----
    Ms. Brown. Yes, 76 percent of our county is public lands, 
and most of that is BLM. There is some U.S. Forest Service and 
national monument.
    Mr. Fulcher. OK, Mr. Chairman, thank you. I yield back.
    The Chairman. Mr. Gohmert.
    Mr. Gohmert. Thank you, Mr. Chairman.
    Ms. Brown, I note you seem concerned or maybe a little bit 
bothered that people are concerned about moving the Bureau of 
Land Management's office to Grand Junction. And I have to say 
it causes me concern because 99 percent has already come out, 
99 percent of the land of the BLM is west of the Mississippi.
    I have been to Grand Junction, it is a lovely place. It is 
beautiful. But this basically puts the BLM headquarters right 
in the middle of the land they control. And that is so 
inconsistent with a bloated bureaucracy ruling on high from 
Washington to actually have the people that are managing the 
land at that land.
    So, I hope you don't take offense. This is just very 
uncharacteristic for the Federal Government to do something 
that makes this much sense. People immediately become 
suspicious when the Federal Government does something that 
makes sense like this. So, I hope you don't take too much 
offense to that.
    Have you spoken to many of the Federal employees that work 
in Grand Junction now that you brought up in your written 
testimony?
    Ms. Brown. Well, because we have so many in Grand Junction, 
yes, I, in my social circle, meet and are friends with many 
Federal employees.
    Mr. Gohmert. Do they all pretty much indicate being 
offended that they have to work in Grand Junction?
    Ms. Brown. Well, I think if you have spent your entire life 
dedicated to an organization like the BLM or some other public 
lands management agency, you usually like the things that come 
with those public lands. So, my sense is you want to live near 
those lands, you want to take part in the activities that come 
with those lands. And I think that most of the employees that I 
know, whether they work for the Department of Energy, U.S. 
Forest Service, National Park Service, or BLM are very happy to 
live in Grand Junction.
    I would say I was a little surprised--one of the 
testimonies mentioned that 40 percent of the BLM employees in 
DC would not want to move. And I would argue that if you have a 
BLM employee that doesn't want to live near BLM land, that is 
probably the sign that you should reorganize.
    Mr. Gohmert. Yes, I think that is a wonderful point. They 
don't get out enough, as we say back in east Texas. They just 
don't get out enough.
    You mentioned before about the relocation task force that 
is there to help with the move. Could you give us more detail 
about what that will do?
    Ms. Brown. Sure. We recognize very clearly how hard it is, 
and we recruit a lot of companies to Colorado. Right now we 
have a lot of interest in California companies to come to 
Colorado. And we have an employee relocation program that helps 
move employees and helps make that transition as easy as 
possible. So, we help you find housing, we help get your kids 
in schools, any special needs programs that are necessary. We 
familiarize the people with the area, especially if--a lot of 
people have not been to Grand Junction, especially from the 
coastal areas. And probably the most important one is helping 
spouses find jobs. Most households these days, I think, are 
dual income. So, helping to find a job for the spouse--or the 
partner, I should say, the trailing partners program--is almost 
as important as getting the company. We do a lot of hand 
holding and making sure that transition is as seamless as it 
can be.
    Mr. Gohmert. Well, what structure do you have for doing 
that? Do you have actual employees on the task force that are 
helping to seek jobs for the government spouses?
    Ms. Brown. We have a number of great partners in Grand 
Junction, specifically the Mesa County Workforce Center, that 
helps us to do the job placement.
    Also, my board is made up of CEOs and presidents all across 
the valley. We do a lot of direct--depending on the experience 
and the industry that person is in, helping to make those 
direct connections. And you can do that in a smaller town, 
really build those relationships and get both the partner and 
the employee kind of enmeshed as quickly in the community as 
possible.
    Mr. Gohmert. So, if there are BLM employees or spouses of 
BLM employees that are moving to Grand Junction, with whom 
should they get in contact to help them take advantage----
    Ms. Brown. They should get in touch with me at the Grand 
Junction Economic Partnership.
    Mr. Gohmert. And do you have a phone number there?
    Ms. Brown. I do. It is (970) 683-8778.
    Mr. Gohmert. All right. Thank you. That is now part of the 
record, and hopefully they will take advantage of it.
    Ms. Brown. Yes.
    Mr. Gohmert. Thanks for being here.
    The Chairman. Mr. Gosar.
    Dr. Gosar. Yes. Ms. Brown, I do see some consequences with 
this move. It is the Palisades peaches and the Olathe corn. 
People are going to discover that Colorado has the best peaches 
in the country.
    Ms. Brown. Agreed.
    Dr. Gosar. I am very familiar with the area. The multiple 
times that I have been there, it is a warm community. It is an 
embracing community. And one of the things that I noticed in 
your testimony is that you embrace an all-of-the-above energy 
policy. Why is that important right now?
    Ms. Brown. We have historically been dependent on only one 
industry, and that was energy. And that hasn't served us well, 
just because of the boom-and-bust cycle that comes with being 
reliant on one industry. So, in the last 3 to 4 years we have 
made serious efforts at diversifying the economy. We have seen 
incredible results over the last couple of years. Tech is 
probably our fastest-growing industry. Outdoor industry and 
manufacturing is another really fast-growing industry, and we 
love those industries.
    But we don't want to again be reliant on just one. In 
Colorado, we have a lot of towns that we watch that only have 
tourism, or only have outdoor rec. And you don't want to be 
beholden to one industry, no matter what, because of 
seasonality and a variety of reasons.
    So, over the last 2 years we have really built a diverse 
economy based on many, many industries. And we feel that we can 
weather most storms that come. But all of those industries--
almost all of them--rely on our public lands, simply because of 
the abundance of them around us.
    Dr. Gosar. I am from Arizona and we drink whiskey because 
water is for fighting over. Can you tell us what major river 
you are close to?
    Ms. Brown. The Colorado River runs direct--well, we are 
named for the junction of the Colorado and the Gunnison River.
    Dr. Gosar. So, you are telling me that we would actually 
have people in the know making decisions that would have to 
live and understand the river dynamics?
    Ms. Brown. Absolutely, yes.
    Dr. Gosar. So, there is another plus.
    Ms. Brown. Yes.
    Dr. Gosar. Wow. And the last time I looked, there was an 
over-commitment on Colorado River water to the population base. 
Am I right?
    Ms. Brown. Yes, water is serious business in the West.
    Dr. Gosar. Wonderful. You also said in your testimony that 
all of these studies and verifications can be outlined of why 
Grand Junction fits the bill. Can you elaborate a little bit 
more on that?
    Ms. Brown. I mean, I think I just named--we do every single 
thing within the BLM's mission in our county. And then we have 
a great university that helps us study and develop that land 
use policy----
    Dr. Gosar. State?
    Ms. Brown. Mesa--Colorado Mesa University.
    Dr. Gosar. Yes, OK.
    Ms. Brown. Yes, the fastest growing university in Colorado, 
fourth fastest growing in the Nation.
    So, we have a number of programs there that help and work 
with our land management agencies to help to study, research, 
and develop that policy.
    Dr. Gosar. I am very familiar with that university. My 
daughter plays for Regis.
    Ms. Brown. Oh.
    Dr. Gosar. Yes, so out there you have a very good athletic 
program.
    Ms. Brown. We do.
    Dr. Gosar. Yes. Very, very good.
    Ms. Brown. Yes.
    Dr. Gosar. The other thing that I wanted to highlight is 
you make a very important fact of conservation--involved in 
hunting, if I am not mistaken.
    Ms. Brown. Yes.
    Dr. Gosar. So, you understand the real conservation aspects 
are those hunters that are involved, and people that 
understand. I look at Ducks Unlimited. I look at the Rocky 
Mountain Elk Foundation.
    Ms. Brown. Absolutely.
    Dr. Gosar. Can you highlight a little bit more about the 
environmentally friendly conservation aspect of Grand Junction 
and that west side of Colorado?
    Ms. Brown. We have all kinds of advocacy groups for all 
kinds of issues that span--I mean, you could name it when it 
comes to public lands or game management.
    I served as the Western hunting representative for the 
Wildlife Council, which is the marketing arm for CPW. So, 
understanding how game is managed, and the importance of the 
long-term viability of those species, is incredibly important 
to our community because hunting also is an economic driver. It 
brings a lot of money into the community, as well, both hunting 
and fishing.
    Dr. Gosar. Yes. Oh, absolutely. And hiking and everything 
else.
    Ms. Brown. Yes.
    Dr. Gosar. So, very, very dynamic. And I think that is 
important to pick out, that people that don't want to go out 
there really probably don't understand the real dynamics of 
what is going on within the public lands use.
    Ms. Brown. Absolutely. And I think it is indicative of the 
urban/rural divide that exists across the Nation today, and why 
this discussion is what it is, because I think that communities 
in urban areas--and vice versa--communities in rural areas do 
not understand each other anymore.
    Dr. Gosar. Yes. Maybe we ought to send everybody some sea 
slugs.
    Ms. Brown. Or peaches.
    Dr. Gosar. There you go. I just want to commend you. I 
think it is a great location. It is centrally located. There 
are so many aspects here. Hands-on, to me, is everything.
    Ms. Brown. Thank you.
    Dr. Gosar. I applaud your effort, and I am looking very 
forward to seeing a government closest to the people. Thank 
you.
    Ms. Brown. Thank you.
    The Chairman. Mr. Bishop.
    Mr. Bishop. Well, first of all, we have to settle one issue 
that is probably the most important one. I can invite you to 
Peach Days back in Brigham City, Utah, which is the 
headquarters of peaches.
    [Laughter.]
    Mr. Bishop. If you really want good peaches, it is our 
rocky soil. So, you can take that crap back if you want to at 
some point. We will take you to Peach City and have the peach 
pie and everything else that is around. Where? Yes, Georgia? It 
is crap. We have the peaches there.
    Beyond that, Ms. Brown, I appreciate you being here. One of 
the other witnesses said that if we move this to Grand Junction 
it will have a profound disproportionate and negative impact on 
women and minority employees. You happen to be the only woman 
on the panel. So, what is it like living in such a repressive, 
regressive area of Grand Junction, and how have you managed to 
survive under such a terrible, terrible atmosphere of 
repression?
    Ms. Brown. I keep thinking about that comment, and trying 
to understand exactly what it is saying. And I don't know. The 
only thing I can take from it is that, for some reason, rural 
communities are unfriendly--especially in the West--to women or 
minorities. I am not sure if that was what that comment meant.
    I can only speak from my personal experience that Grand 
Junction is a great place to be a woman. Many of our leadership 
positions are held by women: our airport director, mayor of 
city council, county commissioners. Both our chamber and our 
economic development agency are run by women. There are often 
times where we have meetings on public projects, and there are 
only women sitting--we could probably use a few good men out 
there. So, my experience has been great. I have no issue being 
a woman in western Colorado.
    Mr. Bishop. Thank you. I appreciate the response to some 
statements that were truly outrageous.
    One of the problems that we do have is interns. This is a 
very expensive place to live. How would that be different, if 
actually there were not only jobs in Grand Junction, but also 
Mexico, Arizona, Boise, Utah, Nevada?
    Ms. Brown. So, if it really comes down to numbers, there is 
absolutely no question that these communities in the West are 
significantly more affordable than Washington, DC. I think 
everyone would agree with that one.
    But also, Colorado Mesa University has a really high 
percentage of first-generation college kids. It provides 
opportunities for kids that might not otherwise get those 
opportunities. And, of course, having the BLM headquarters 
would be an incredible internship opportunity for kids that 
would never have the opportunity to travel all the way across 
the country to Washington, DC. and have to find an apartment.
    I mean our average home price is $260,000. There is no 
comparison to the cost of doing business or the cost of living 
in a place like Grand Junction compared to Washington, DC.
    Mr. Bishop. I realize every place has stereotypes, and 
hopefully we have broken down some of the stereotypes that have 
been presented in some of the testimony here. So, thank you for 
being here, and I appreciate that.
    Ms. Brown. Thank you.
    Mr. Bishop. I am sure Mr. Tipton appreciates it. And I have 
also been to Grand Junction for some conferences and meetings. 
It is a nice place.
    Ms. Brown. It is a nice place. Thank you.
    Mr. Bishop. I yield back.
    The Chairman. Thank you. Ms. Brown brought up the issue of 
trust, and the issue being that those of us who have objections 
and questions to this move, this relocation of Grand Junction, 
that we don't trust the people of Grand Junction. Just for the 
correction in the record, I don't think it is a question of 
distrust of the people of Grand Junction. They are fine people, 
don't have a problem with that. It is the distrust that is 
centered on this Administration, their motivation, and what is 
really behind the move that we are trying to get at.
    So, there is distrust. I would readily admit that it is 
abundant when it comes to the decision making at the Department 
of the Interior and at BLM. The people of Grand Junction 
weren't responsible for this decision.
    And if the consequences are favorable, you are supporting 
that. For some of us, we have other questions that go much 
deeper than the fine people of Grand Junction.
    Ms. Brown. I appreciate that, Chairman.
    The Chairman. Mr. Freemuth, public lands belong to all 
Americans. But it seems reorganization, in my mind, will push a 
lot of the decision making to specific states, whether it is 
Grand Junction, Reno, et cetera. What impact will this have on 
national policy from that perspective?
    Dr. Freemuth. That is a good question, Mr. Chair. Of 
course, the first point is, obviously, as Ed and others have 
said, BLM is organized by state, and the State Directors do 
have much authority to make most BLM policy. And, ironically, 
that is probably more local and regional driven than the other 
Federal agencies, which are organized more by region, not by 
state.
    But to the other part of your question, I think we all know 
that there are decisions best made in the field, but there will 
be decisions that come to Washington to be resolved, 
interagency conflicts, agencies--or questions of national 
importance that have to be talked about by Congress and others. 
And if BLM leadership is not in those conversations, then 
somebody else is going to make those decisions. And BLM won't 
be able to represent the values it holds in terms of multiple 
use in all its constituencies.
    I am not arguing that BLM ought to make the decision, but 
if it is not at the table, as the cliche goes, it is dinner.
    The Chairman. Thank you. Mr. Shepard, Acting Director 
Pendley admitted that no consultation had occurred with agency 
staff before the decision to uproot lives. You noted there is a 
lot of anxiety within the Agency because of this. Is there 
reason to believe that folks might leave BLM in significant 
numbers as a consequence of these administrative decisions that 
have been made?
    Mr. Shepard. I can't speak to how many will, but I have 
been told, and I have been told by people that said they will 
not move, they cannot move, they might move in the future, but 
they cannot move at this time. And they will leave the Agency. 
They will either go to another agency at Interior, they will go 
to the Forest Service or somebody else, or they will just leave 
government completely.
    The Chairman. And the impact on the Agency if that were to 
occur?
    Mr. Shepard. The impact to the Agency is that these are our 
senior-level people. They have years of experience in the 
Bureau, most of them with years of experience in the field. And 
that is going to leave. That is going to go.
    BLM tended to send people into Washington to get their 
experience in Washington and go back out to the field. So, many 
of them expected to go back out eventually, anyway. But if they 
are forced out and leave the Agency, then that just won't 
happen, and the field will lose that experience of the 
Washington skills that they picked up here.
    The Chairman. If you can, briefly respond to the reaction 
to your statement, relative to the effect on gender, women, and 
people of color, in terms of this reorganization.
    Mr. Shepard. Well, what I intended by that statement is 
that we have a lot of women and a lot of people of color here 
in the Washington office. And in the Washington office if those 
people don't move west and we have lost the skills that those 
people have, and the experience that they have gained--that was 
not intended to say that Grand Junction isn't friendly in any 
way, or any place else, for that matter.
    The Chairman. Yes, these are not just little boxes. These 
are people's lives, families. And the consequence of this move 
can't just be supported simply because we are moving little 
boxes. We are affecting people's lives in a very direct and 
profound way. I think we need to be cognizant of that. And 
certainly the Administration needs to be cognizant of that.
    I don't have any other questions. Let me turn now to Mr. 
Tipton for any questions he might have. Thank you.
    Mr. Tipton. Thank you, Mr. Chairman. Again, I appreciate 
the opportunity to be able to be here today.
    In the last Congress, I introduced legislation to be able 
to have the BLM conduct a study on the opportunity to be able 
to move those headquarters out to the West.
    I think it is worthy of note that this was actually 
bipartisan: Congressman Perlmutter out of Colorado and a former 
member of this Committee and now the Governor of Colorado--and 
we just saw a video of him not long ago--Jared Polis also 
signed on to that proposal.
    And now we are embracing that move of the BLM, literally, 
to the West.
    Ms. Brown, I would like to maybe get an answer from you. 
But first I would like to be able to point out that I am 
concerned that we are seeing the potential to try to drive 
political partisanship into something that is actually trying 
to be able to direct what is going to be good policy.
    Mr. Small, you had talked about the importance of energy to 
the Northern Ute Tribe. It happens to be equally important in 
Mesa County. It happens to be equally important in other areas 
of Utah, throughout western Colorado, as well. To be able to 
have the people on the ground, to be able to administer those 
programs, to be able to look at the permits, to be able to 
advance those might actually well be a benefit.
    But we would like to submit for the record, Mr. Chairman, 
if I may, a letter from the Associated Governments of Northwest 
Colorado.
    The Chairman. Without objection.
    Mr. Tipton. Thank you, sir. They write in this letter that 
the condition of public lands has declined due to the 
misunderstanding of land management principles by urban centers 
across the United States. The situation is exacerbated by the 
location of senior land management leadership in Washington. 
People who do not live and work daily with the decisions that 
they make, and the division around the appropriate management 
of public lands has served to further the urban-rural divide.
    I personally fully support the BLM's decision to be able to 
relocate the headquarters out West, and I am, obviously, very 
pleased that the Interior Secretary chose Grand Junction. I 
know that a lot went into that process of selecting Grand 
Junction.
    Ms. Brown, I am hoping maybe you can talk a little bit 
about that process of the organization, and others in Mesa 
County, how they engaged with the Department of the Interior 
during the selection process. Did the Department request 
information from you? If so, what information did the 
Department require? Were there any meetings between the 
Department representatives and the folks from Grand Junction 
and Mesa County leading up to that selection?
    Ms. Brown. I believe in May we received a request for 
information from the DOI, and then we had a series of phone 
calls exchanging information.
    But they appeared to be doing a cost comparison of cities 
across the West, was my understanding, so they wanted very 
detailed information on average cost per square foot for 
office, average cost per square foot for housing, closing 
costs, rental inventory, housing inventory, and a workforce 
report, what kind of workforce we have in Mesa County.
    So, we gathered that information over a couple of weeks and 
continued to send them, and it was just repeated phone calls 
and e-mails back and forth between the DOI and my office, 
gathering that type of information.
    Mr. Tipton. Would you speak to the benefit that you see of 
moving the BLM headquarters to Grand Junction, to the West?
    Ms. Brown. I mean the benefit, in my mind, is it better 
serves the communities that rely on public lands. But the added 
benefit--there is no question that there is a huge cost savings 
across any of the cities that were considered for the BLM 
headquarters compared to Washington, DC.
    But if it really comes down to what is the most important 
reason for this move, it is to better serve the communities 
that rely on our public lands.
    Mr. Tipton. And when we are talking about the public lands, 
how important is that in the West? You can speak specifically 
to Mesa County, but you have lived there long enough now. Just 
to the West, how important are those public lands? Responsible 
energy development, the access to the public lands for hiking, 
for fishing, for hunting? Can you speak to that?
    Ms. Brown. It is the most important factor of providing 
great jobs for the people in our community.
    It is kind of interesting, because Colorado is a microcosm 
of what is happening at the national level. Our state is 
divided, as you know, Congressman, with the Rocky Mountains and 
east of the Rocky Mountains is primarily all private land, and 
west of the Rocky Mountains is primarily all public lands. So, 
our economies are very, very different between the eastern 
plains and the western part of the state, and it is the most 
important thing that affects our economy and the jobs and 
getting kids off free, reduced lunch.
    Mr. Tipton. I wanted to applaud, really, a lot of the 
comments that you have made. I think we have heard through some 
of the questions, not with malintent, but some of the 
distinguishing factors would be a real benefit to be able to 
move to Grand Junction. I appreciate you making the effort to 
be out here and to be able to advocate for it.
    Ms. Brown. Thank you.
    Mr. Tipton. Thank you, Mr. Chairman, and I yield back.
    The Chairman. Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. Again, thank 
you for your courtesy in allowing me to ask questions. And I 
have appreciated the testimony of all the witnesses.
    I do want to lay to rest this affordability question. It is 
an argument for decentralizing the entire Federal Government. 
There is a reason that the framers decided that the Federal 
agencies and the Federal Government itself should be here.
    As to affordability, of course, parts of the country are 
more affordable than others, Ms. Brown. But do note that 
Amazon, which is a private sector employer, is moving people to 
the District of Columbia and the region. And we are not just 
talking about this city. And the reason has much to do with the 
high education levels in this region, the kind of levels that 
are needed for a headquarters staff, which brings me to my 
point.
    One has to wonder why we are here. Virtually this entire 
agency is in the field, which is where it should be. 
Essentially, the argument on the other side is against a 
headquarters staff. If this proposal were to go through, there 
would be virtually no headquarters staff, and it would be the 
only agency that did not have a headquarters staff present here 
in the Nation's Capital.
    It is an extreme proposal, to put it mildly. There is a 
reason that reorganizations are rarely done.
    And this question really goes to Mr. Shepard. Perhaps there 
are ways to improve the Federal Government. But if you 
reorganize even one agency, you throw so much up into the air 
for it to land with no experience as to what to do when it 
lands, that the Federal Government most often throws up its 
hands and says, when you look at the cost, when you look at the 
loss of personnel, when you look at the hassles, we just don't 
get enough out of reorganizations to do them.
    And the case needs to be made here--and I haven't heard it 
yet--for an over-riding necessity to say, ``We will take all of 
that, even though the agency is already in the field, we will 
throw it all up in the air to get these few employees out of 
headquarters.''
    I was intrigued, Mr. Shepard, that you mentioned what is 
always a moment to me--maybe it is because I am a lawyer. I 
look to precedent. Have we ever done this before? Will it teach 
us how to do it in the present? And you referenced that there 
had been past reorganization efforts, that they had been 
problematic, and even ultimately reversed. I wonder if you have 
any detail you could offer the Committee on prior 
reorganizations of any kind.
    Mr. Shepard. I can. One example that I can give from my 
personal experience is when I look back on the forestry staff 
here in Washington, DC. We moved a lot of folks west to what we 
called centers of excellence. And when they went out to the 
West, they became a part of that state. Whether it was intended 
to or not, that is just human nature. They became part of that 
state organization.
    And a lot of the knowledge of what went on, if you went to 
Oregon, you didn't know what was going on in Utah or Colorado, 
because you were in that state, you concentrated on that state.
    And the way this reorganization was, you won't even have 
the benefit of going over--if you are a forester and you are 
making a decision on a policy level thing, you can't walk over 
to the wildlife staff that also does policy, because you are 
not there. And that is an issue that is going to happen with 
this reorganization. You need to work together between 
interdisciplinary teams, and it won't be there when they are 
spread out all over the place.
    Ms. Norton. This point you are making is important. There 
is a whole agency involved here. Somebody has to have the 
perspective to look across the board at the entire agency. That 
is why we have headquarters staff here in the first place.
    In the case of BLM, the Congress, in its wisdom, has said, 
notwithstanding the need for a headquarters staff, we are going 
to put virtually all of you in the field. Yet, there comes this 
extreme proposal before this Committee to essentially have 
almost no headquarter staff. I cannot believe that the House 
and the Senate will look kindly on this matter.
    Mr. Shepard. If I could quickly add one thing on that, it 
is not only interdisciplinary within the BLM, it is also 
working with other agencies. All of the natural resource 
agencies are headquartered in Washington. There is a lot of 
work that goes on between those agencies and BLM would not have 
career professionals at the table.
    The Chairman. Thank you. I want to thank all of the 
witnesses.
    Under Committee Rules, Members could submit questions to 
the witnesses within 3 business days following this hearing, 
and the hearing record will be held open for 10 business days 
for those responses.
    I want to thank all of you, and also thank Vice Chairman 
Small. I didn't have a question for you, but I appreciated you 
clarifying the consultation issue. I very much appreciated it.
    With that, let me adjourn the meeting and thank everybody.

    [Whereupon, at 12:39 p.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Prepared Statement of the Hon. Rob Bishop, Ranking Member, Committee on 
                           Natural Resources
    I appreciate my friend from Arizona for convening this hearing 
today. I, along with my fellow Republicans on this Committee, have long 
contended that the best land management decisions are made by those who 
live, work and raise families closest to the areas impacted. I believe 
this move of Bureau of Land Management headquarters out west is long 
overdue and will yield tremendous results for land management.
    Unfortunately, based on the misleading title of today's hearing, I 
fear we are in store for some melodramatic hyperbole from some of my 
friends on the other side of the aisle. It is important that we 
separate political posturing from the simple realities of what we are 
discussing today.
    The facts are quite straightforward. The BLM manages close to 250 
million acres of land. An astounding 99 percent of these lands are 
located west of the Mississippi River. Moving BLM decision makers 
closer to the lands that they manage will undoubtedly improve agency 
efficiency, accountability, and local engagement. To argue otherwise is 
ignorant at best, and willfully misleading at worst.
    We have already seen great success with this concept at the 
National Interagency Fire Center, where the BLM relocated their 
Assistant Director, Deputy Assistant Directors, and staff for the Fire 
and Aviation program to the National Interagency Fire Center (NIFC), 
the Nation's support center for wildland firefighting, located in 
Boise, Idaho. By all accounts, this relocation has increased efficiency 
and improved coordination efforts to combat the deadly wildfires that 
have continued to afflict our Western states.
    These clear benefits seen in the realm of fire activities will most 
assuredly translate to other BLM functions as well. By having more 
leadership on the ground, the BLM will be able to respond quicker, 
coordinate more effectively, and manage with more clarity and on the 
ground perspective.
    I think it is also important to dispel any misconception that this 
is somehow a partisan issue. There is broad support for this move 
amongst a wide variety of stakeholders from diverse political 
persuasions. One of the more vocal supporters of this move is a former 
Democratic member of this Committee and current Governor of Colorado, 
Jared Polis. I'd like to briefly share a clip of his thoughts which I 
believe concisely summarize the many merits of this scheduled move.
    I couldn't agree more. This is a good move for BLM, this is a good 
move for taxpayers, and this is a great move for the West.
    My hope is that today we'll now evaluate the tools of this 
Committee and oversight functions of Congress to expand upon and 
improve reorganization of the DOI, and work with rather than against 
the Department to improve the delivery of services to the people we 
represent.

                                 ______
                                 

                        Statement for the Record
                            James L. Caswell
          Former Director, Bureau of Land Management 2007-2009
    Thank you, Mr. Chairman and Ranking Member Bishop, for the 
opportunity to present my views about the Administration's proposal to 
reorganize the BLM and move the majority of the Washington Office 
employees to the west. I am uniquely qualified to comment on this 
proposal as I served in the George W. Bush Administration as the 16th 
Director of the Bureau of Land Management. In addition, I have lived 
and worked in the Pacific Northwest for 54 years, 33 of those years in 
Idaho, and all as a public lands natural resource professional for the 
State of Idaho, USDA Forest Service, or BLM.

    As a former director, resource manager, and leader I oppose the BLM 
reorganization plan as submitted to Congress on July 16, 2019. My 
extensive experience as a public land manager leads me to conclude this 
proposal to move BLM leadership and staff from Washington D.C. to 
various locations throughout the west is not in the public interest and 
will hamstring the agency. To move the director and principle staff to 
a relatively small western community signals either a lack of 
understanding about the complexity and role of agency leadership or, 
worse, signals a deliberate attempt to weaken the agency. If 
implemented, the reorganization will functionally dismantle the BLM.

    In a recent Outdoor Life article William Perry Pendley, the current 
Deputy Director for Policy and Programs, is quoted as saying: ``Our 
frustration in the west is simply we're dealing with a landlord who's 
2,000 miles away. You just don't understand situations without being on 
the ground. You just have a better perspective. You can read all you 
want. You can listen to all the PowerPoints you want. You can have as 
many conference calls as you can plug into a day, but you don't 
understand until you've got boots on the ground.''

    I could not agree more; Mr. Pendley is 100% correct and has hit the 
nail on the head. It also is the principle reason why the current BLM 
reorganization proposal is so outrageous. The BLM is a decentralized 
organization with decision authority delegated to the field level. That 
is why there is a state office in each of the 10 western states, 
Alaska, and the east, usually located in the state capital or close by 
in the nearest major political and cultural center for that state. In 
addition, there are 54 district offices with between 2-5 field offices 
each appropriately located throughout each state. The location of these 
offices is in county seats and rural communities serving public land 
users, and working with other federal, state, and tribal cooperating 
agencies, and county commissioners. That is a lot of local boots on the 
ground to properly deal with Mr. Pendley's stated frustration.

    It is also misleading to claim that all decisions affecting public 
lands are made in Washington D.C. That simply is not true. What is true 
is that some high-profile decisions made at the field level or by State 
Directors are reviewed by the Director or the Department for 
concurrence. This is not unique, and it occurs throughout government at 
both the state and federal levels. What is also true is that referrals 
are often the result of political concerns brought to Washington by the 
Assistant Secretary of Lands and Minerals, the Secretary's Office or 
some other political operative in the Department. Does anyone really 
believe that simply moving the BLM headquarters to Grand Junction, 
Colorado, will magically remove the politics from resource management 
decisions? I think not. In fact, it will only get worse because the 
leadership and senior specialists will be spread all over the country 
from Alaska to New Mexico, and California to Colorado. Internal 
coordination, collaboration, and communication will be difficult at 
best, and staff work in support of the Department will suffer.

    Further, it is disingenuous to imply that BLM career leadership and 
resource professionals who serve the American people in Washington D.C. 
have no understanding or connection to the ground and do not understand 
western issues or relate to local community needs and interests. 
Nothing could be further from the truth. Most, if not all, career 
professionals built their careers from the ground up by serving in the 
field, moving to ever-more-responsible positions in different locations 
around the west. Most of the current leadership has served multiple 
tours in Washington D.C. They understand and have lived in both the 
political environment inside the beltway and in local community 
environments throughout the west.

    Washington D.C. is the seat of power for our republic. It is home 
to every department, bureau, agency, lobbyist, non-governmental 
organization, interest group and, most importantly, the U.S. Congress 
that does business with the BLM Director and senior staff. If the 
reorganization is implemented as proposed it will effectively take the 
BLM off the playing field. It is unreasonable to expect that 
discussions about policy, budget, programs, legislation, new 
initiatives, or priorities that occur every day will include the 
directorate in Grand Junction. While some of these discussions are 
scheduled, many are impromptu. It is a very fast-paced and dynamic 
environment that changes quickly and often. If relocated, the BLM 
leadership will become out of touch and rendered ineffective and 
irrelevant. They will be out of sight, out of mind. Is there anyone who 
really believes this reorganization will improve decision making, 
accountability, or internal coordination among senior resource 
specialists? Will it improve program delivery or better serve our 
public lands, local communities or the American people? The biggest 
joke of all is the claim this relocation will save money. Where are the 
facts to support that assertion?

    The one outcome of the proposal that can be counted on is that the 
Deputy Director for Policy and programs (a non-career, non-Senate 
confirmed political appointee) will quickly become the face of BLM in 
Washington D.C. That outcome is inevitable and consistent with human 
nature. D.C. operatives want face-to-face access to policy makers, and 
that individual will be the Deputy Director of Policy and Programs if 
this reorganization is implemented as proposed.

    Mr. Chairman, this proposed relocation and dismantling of BLM 
headquarters is just bad public policy plain and simple. If not 
rescinded or modified into a workable proposal, the BLM will be 
sidelined from any influence in national public lands policy within the 
beltway. Further, it will damage the bureau's ability to influence 
Department priorities, policy, budgets, and programs. It will endanger 
the future of our public lands and constrain the ability of BLM to 
manage in the public interest as required by the Federal Land Policy 
and Management Act (FLPMA) of 1976.

    Mr. Chairman, I want to thank you for today's hearing. Your 
oversight is welcomed and desperately needed. Today's hearing will show 
that the perceived benefits of such a move are without merit, and the 
adverse consequences could be profound. I ask that you work with your 
Senate colleagues to hold a hearing and do everything possible to halt 
the implementation of this plan as currently proposed.

    The BLM, the resources it manages, and the people it serves are 
important, and the agency definitely deserves a national headquarters 
in our Nation's Capital.

    Please include this statement in the hearing record.

                                 ______
                                 

      Coalition to Protect America's National Parks

                                                  September 4, 2019

Hon. Raul M. Grijalva, Chairman,
Committee on Natural Resources,
House of Representatives,
Washington, DC 20515.

    Dear Mr. Chairman:

    On behalf of the Coalition to Protect America's National Parks, I 
am writing concerning the September 10, 2019, hearing about the 
proposed reorganization of the Bureau of Land Management (BLM) and its 
effect on the National Park Service (NPS) and our nation's treasured 
national parks. The Coalition is largely comprised of retired National 
Park Service employees with over 1,700 members and roughly 40,000 years 
of experience leading and working in the National Park Service. The 
Coalition studies, educates, speaks, and acts for the preservation and 
protection of the National Park System and mission-related programs of 
the National Park Service.

    This administration seems to think that the bureaus within the 
Department of the Interior exist in a vacuum. Nothing could be further 
from the reality found in the day-to-day management of the department. 
Numerous BLM lands surround or are neighbors to national parks. Our 
national parks depend on compatible land management to retain 
ecosystem, cultural, and historical integrity. There were numerous 
times in past administrations that the director of the National Park 
Service and the director of the Bureau of Land Management, or their 
senior staffs, met to resolve conflicts between the bureaus in order to 
be good stewards of the land.

    In the past administration this included issues involving uranium 
mining, solar arrays, wildlife corridors, science, Grand Canyon water, 
law enforcement matters, fire management, budget priorities, and many 
others. The Park Service and the BLM did not always agree; however, 
many conflicts were resolved and those conflicts were kept within the 
department. In a similar manner, the NPS also had to work with other 
federal agencies including the U.S. Forest Service, the National 
Oceanic and Atmospheric Administration, and the U.S. Army Corps of 
Engineers. Moving the head of BLM and its senior staff to various 
locations within the western United States will only result in greater 
and unresolved conflict between the missions of the agencies. Such 
failures of collaboration more likely will become publicized and lead 
to congressional hearings, and expensive and time-consuming litigation.

    The current structure of our land management agencies, which has 
worked for decades, has the senior leadership based in Washington, 
D.C., in order to respond personally to Congress and the White House 
and to collaborate with the leadership of other agencies. This location 
enables them to be available to meet with members of Congress and their 
staffs, to discuss issues face to face with fellow agency leadership, 
and to effect change and institute policy on regional and national 
levels.

    The proposed DOI reorganization is not being done to create a more 
efficient decision-making process, but rather, as Secretary David 
Bernhardt admitted before a recent audience at the Heritage Foundation, 
to have these federal employees be subject to the pressure of the 
states and local individuals when it comes to the management of our 
public lands. Secretary Bernhardt contends that Department of the 
Interior (DOI) employees have been acting ``arbitrarily based on policy 
preferences'' in making federal lands decisions without offering any 
evidence to back up his statement.

    Not only are Secretary Bernhardt's comments insulting to DOI 
employees, but as with many statements out of the department, the real 
purpose or this reorganization and many other policy changes is to hide 
from the American public the reasons for its actions. The secretary is 
merely continuing the pattern he followed in his work during the 
administration of former President George H. Bush where he advocated 
for allowing individuals and corporations to exploit federal lands 
while circumventing laws, rules, and regulations. Many examples of 
similar results have been widely documented in the last two plus years 
where individuals and corporations previously represented by now-
Secretary Bernhardt and other political appointees within the 
department have been able to have rules withdrawn or changed, and 
policies revised, to benefit them. Unfortunately, our parks, public 
lands, and the American public suffer the consequences of these unwise 
actions.

    The alleged goal to have agency staff closer to the resource is 
contradicted by a review of existing staff assignments. Most agency 
staff and leadership are already in the field. They are already close 
to the resources they are managing and in position to respond quickly 
to needs of their local communities. For example, the NPS 2019 budget 
submitted to Congress showed that with 19,668 full-time staff, only 285 
were in Washington, with the rest in the field. And as the Washington 
Post recently pointed out in the article of July 15, there are only 360 
BLM employees in Washington while 9,260 are in the field.

    The specious arguments offered by the department about the reasons 
for the reorganization are undermined by facts and the recent comments 
by Acting White House Chief of Staff Mick Mulvaney who asserted that 
the recent push to relocate federal workers from the Washington, D.C. 
area is all about ``draining the swamp.'' As Mulvaney revealed, the 
proposed move of BLM and other agency leadership is not to fix a 
problem of organization, but to break a system that works.

    This result was confirmed by Secretary Bernhardt's August 9, 2019, 
memorandum to all DOI employees where he assigned the responsibility of 
the 12 newly appointed Field Special Assistants who report directly to 
the secretary to ``provide a clear and distinct point of contact for 
stakeholders to elevate, and seek prompt resolution on, issues that 
involve multiple Bureaus.'' This structure totally bypasses the NPS and 
BLM regional directors as well as the Office of the Directors in 
Washington, D.C. Any conflicts between the NPS and the BLM in the 
future will be resolved by, in many regions, individuals who have no 
experience or expertise in the two bureaus, their missions, or the laws 
that guide their mission. And with these assignments lasting 
``typically'' one year, the rotation of individuals into these 
positions will prevent the development of any expertise or continuity 
and keep the decision-making authority squarely within the secretary of 
the interior's office.

    We urge the committee to examine the facts of the proposed 
reorganization and its effect not only on the BLM, but also on the NPS 
and other bureaus within the department and on other federal agencies 
that work with the BLM on a regular basis. Your first commitment by law 
is to the protection of our national parks and public lands and not 
catering to the desires of states, corporations, or individuals that 
want to exploit them for their own profit and purposes.

    Finally, as taxpayers, we oppose the proposed reorganization 
because it is a colossal waste of federal funds badly needed for 
countless projects to preserve landscapes and the wildlife they 
support. This cost will only be exacerbated when the next 
administration recognizes the futility of this reorganization and 
decides to move the BLM staff back to Washington, D.C. in order to have 
them effectively carry out their mission by being responsive to 
Congress and the American public without undue pressure from those 
seeking to profit off the public lands.

    We are committed to our mission to support the NPS in the 
protection and preservation of America's national parks. And we are 
concerned that reorganization, relocation, and smear campaigns targeted 
at the very people who protect our national treasures will have 
devastating results for our public lands.

            Sincerely,

                                              Phil Francis,
                                                              Chair

                                 ______
                                 

                        Statement for the Record
                     Conservation Lands Foundation
                Anne Shields, Member, Board of Directors
                    Brian Sybert, Executive Director

    Chairman Grijalva, Ranking Member Bishop, and Members of the 
Committee, thank you for the opportunity to provide testimony on the 
pending move of the Bureau of Land Management's headquarters to Grand 
Junction, Colorado.

    As the only nonprofit in America solely dedicated to protecting the 
National Conservation Lands, the mission of Conservation Lands 
Foundation is to protect, restore and expand the National Conservation 
Lands through education, advocacy and partnerships. We do this work in 
partnership with our Friends Grassroots Network--more than 70 
community-based groups that advocate for protecting the public lands in 
their backyard and advancing strong conservation management policies 
and practices.

    The knowledge, credibility, and volunteer spirit of these 
community-based groups perfectly complement the experience, knowledge 
and commitment of thousands of Bureau of Land Management (BLM) 
employees based in communities throughout the American West to fulfill 
both BLM's mission and the desire of the American public who want their 
public lands protected today and for future generations. This 
partnership has helped to achieve meaningful conservation outcomes and 
the fulfillment of BLM's conservation mandate for management of the 
National Conservation Lands, particularly as funding for BLM has been 
reduced significantly over the past decade.

    However, the Trump administration has made it their business to 
attack the integrity of the National Conservation Lands, the 
communities and the American public who overwhelmingly support them, 
the cultural, historical and ecological values they protect, and the 
outdoor recreation-based economies they hold.

    This effort began in April 2017 with Executive Order 13792, which 
called for a review of national monuments designated legally under the 
Antiquities Act since 1996. It continued with Presidential Proclamation 
9681, modifying the Bears Ears National Monument, and Presidential 
Proclamation 9682, modifying the Grand Staircase-Escalante National 
Monument, both illegal uses of the Antiquities Act by President Trump 
on December 4, 2017.

    Despite millions of public comments, 99% of which supported 
preserving the original boundaries for Bears Ears National Monument and 
Grand Staircase-Escalante National Monument and all monuments under 
review, former Secretary Zinke recommended significantly reducing the 
boundaries and protections for Bears Ears and Grand Staircase-
Escalante.

    The monuments, reduced by 1.1 million acres and more than 861,000 
acres respectively, have since that time been subject to reduced 
protections which are now being further reduced through destructive 
resource management plans.

    Now we see the administration overtly dismantling the agency 
charged with managing these lands. With 97 percent of BLM staff already 
stationed at field offices throughout the west, relocating BLM's 
headquarters and its key policy staff outside of Washington, DC only 
serves to keep BLM's staff leadership out of sight and puts policy 
decision-making in the hands of a few political appointees and more 
removed from congressional oversight. Among those appointees is William 
Perry Pendley, who has advocated for the transfer and sale of federal 
lands to the states and private interests. Now, he is the acting 
director of the agency managing those lands, seeing through the 
dismantling of BLM so that opponents of public lands can continue their 
assault.

    BLM's senior staff officials direct policy and budgets and are very 
important to ensuring effective coordination between BLM and Congress. 
This move will harm the ability of BLM to fulfill its mission, will 
negatively impact hundreds of BLM employees who work every day to 
fulfill that mission, and people in communities across the country who 
partner with BLM every day to steward America's public lands.

    The relocation of BLM's headquarters is the linchpin in the broader 
effort by the Trump administration and opponents of public lands to 
dismantle and sell off the federal estate.

    BLM has a mandate, through the Federal Land Policy and Management 
Act, to manage lands for multiple uses, including conserving areas 
important for protecting America's natural heritage, wildlife, 
Indigenous cultures, and a thriving recreation community that supports 
local economies.

    Protecting public lands with a focus on conservation is not and has 
never been a partisan issue. Under President Reagan, BLM created more 
than four million acres of Wilderness and Research Natural Areas, and 
under President George W. Bush, the agency created more than 10 million 
acres of protected BLM lands. These National Conservation Lands 
comprise less than 15 percent of the roughly 250 million acres that BLM 
manages, and they have been managed with a priority on conservation by 
both Democratic and Republican administrations until 2017.

    This administration is pursuing a blatant strategy to ignore 
bipartisan support for public lands and hand them over to the oil and 
gas industry. It's nothing less than a fast-and-furious assault on tens 
of millions of acres of National Monuments, cultural sites and other 
iconic American lands and handing them over to oil and gas companies.

    In fact, over the next 16 months, the Department is expected to 
approve management plans that put at risk more than 42 million acres of 
our nation's iconic and important lands to oil and mineral development. 
These are places that are visited and cherished by millions of 
Americans, and they support local economies in rural communities across 
the American West. They are also sacred places for America's indigenous 
communities and among the last remaining intact habitats for wildlife 
important to America's hunters and anglers.

    In the past four months alone, BLM has done a bait-and-switch on 
six management plans covering 22 million acres in Alaska, Colorado, 
Idaho, Montana, and Oregon. The plans this administration is going 
forward with are significantly different than the drafts that local BLM 
officials and community members had collaborated on to reach consensus 
and figure out what made sense for their community. These draft plans 
were gutted without regard to local input and concerns. In all six 
areas, BLM is proposing eliminating protections on 94 percent of the 
lands with wilderness features, with minimal new safeguards for only a 
fraction of one percent of the areas. In the coming weeks and months, 
BLM is slated to release more plans affecting an additional 20 million 
acres, and we anticipate similar destructive planning decisions.

    Public lands, by their very nature, belong to all of us. But the 
Department of the Interior is taking the public out of public lands; 
blatantly ignoring the public and its mandate to conserve these places 
for the past, present and future values they hold for all Americans. 
Dismantling BLM makes it impossible to properly conserve our cherished 
public lands and this direct assault must end.

    We call on Congress to stop it.

    Thank you, Mr. Chairman and members of the Committee, for the 
opportunity to share this testimony.

                                 ______
                                 

                             Defenders of Wildlife,
                                             Washington, DC

                                                  September 9, 2019

Hon. TJ Cox, Chairman,
Hon. Louie Gohmert, Ranking Member,
House Committee on Natural Resources,
Oversight and Investigations Subcommittee,
1324 Longworth House Office Building,
Washington, DC 20515.

Re: Hearing on September 10, 2019, titled ``BLM Disorganization: 
        Examining the Proposed Reorganization and Relocation of the 
        Bureau of Land Management Headquarters to Grand Junction, 
        Colorado.''

    Dear Chairman Cox and Ranking Member Gohmert:

    Defenders of Wildlife (Defenders), and on behalf of our more than 
1.8 million of members and supporters, respectfully submits this letter 
for the record on the Subcommittee's September 10, 2019, hearing on the 
proposed reorganization and relocation of the Bureau of Land Management 
(BLM) headquarters. We strongly oppose the administration's plan and 
urge the Congress to bar its execution.

    Defenders is a national non-profit conservation organization that 
for over 70 years has protected and restored imperiled species and 
special landscapes throughout North America. Based in Washington, DC, 
the organization also maintains six regional field offices and numerous 
satellite offices and has worked with BLM and in the interest of BLM 
managed habitat and wildlife for decades.

    The BLM stewards the National System of Public Lands--248 million 
acres of deserts, grasslands, shrublands, forests, wetlands, and tundra 
stretching from Florida to Alaska--for the benefit of the American 
people. With 445 threatened, endangered and candidate species and 
another 2200 sensitive and rare species, the BLM also has a critical 
role in sustaining our nation's natural heritage and biodiversity. As 
an organization dedicated to the conservation and restoration of native 
species of wildlife and plants and their habitats, Defenders shares a 
common interest with the BLM in the protection and proper management of 
America's public lands, waters and wildlife.

    Defenders is deeply concerned about the Department of the 
Interior's (DOI) efforts to reorganize the BLM and relocate the 
agency's headquarters. This politically driven effort would have 
significant negative ramifications on the agency's efficient and 
effective stewardship of our public lands, waters, and wildlife. 
Instead, it seems more like a thinly veiled attempt to wound and 
disable an already embattled agency than a genuine effort to improve 
how BLM delivers on its mission. The absence of any data and analysis 
demonstrating how benefits of the proposal outweigh the clearly defined 
costs and impacts, in terms of both personnel, efficiency and mission 
effectiveness, underscore this supposition.

    The DOI intends to move the BLM Director and 26 senior managers to 
a new headquarters in Grand Junction, Colorado, and then scatter all 
but 61 of the remaining DC-based employees among existing BLM state and 
field offices in ten western states. These employees will be physically 
separated from each other, their colleagues in other agencies, and 
national stakeholder organizations that are either based in Washington, 
DC, or regularly interact with BLM headquarters staff. The DOI also 
intends to transfer 74 national positions to BLM state offices to 
perform state-based functions, reducing the headquarters capacity by 13 
percent. The 61 staff remaining in Washington, DC, include the Deputy 
Director of Policy and Programs along with staff responsible for 
legislative, public, and regulatory affairs and administration of the 
Freedom of Information Act. DOI has already begun the reorganization 
process, having solicited bids for office space for occupancy in Grand 
Junction starting September 16, 2019. The proposal is seriously opposed 
by numerous sportsmen groups,\1\ conservation organizations,\2\ and the 
Public Lands Foundation, an organization of former BLM employees that 
advocate for the agency and its mission.\3\
---------------------------------------------------------------------------
    \1\ Letter dated August 7, 2019 to Congressional leadership from 
Montana Wildlife Federation and 13 additional organizations.
    \2\ Letter dated August 6, 2019 to Congressional leadership from 
Coalition to Protect America's National Parks et al.
    \3\ Letter dated July 22, 2019 to Congressional leadership from the 
Public Lands Foundation.

    The DOI has not explained how it will reconcile reorganization of 
the BLM with other new organizational structures within the department. 
Specifically, the DOI in August 2019 reorganized the majority of its 
bureaus to share a new 12-region structure.\4\ Each region will have a 
Field Special Assistant who reports directly to the Secretary and 
serves as a ``multi-agency leader and convener'' on Secretarial 
priorities \5\ and a Regional Field Committee with representatives from 
the affected bureaus.\6\ Even as the BLM is expected to participate in 
this new burdensome reporting system, it appears that the agency will 
also retain its current state-based structure.\7\ The lack of alignment 
or integration between these structures is a recipe for inefficiency 
and confusion.
---------------------------------------------------------------------------
    \4\ Memorandum dated July 15, 2019 from Secretary Bernhardt to 
Assistant Secretaries and Heads of Bureaus and Offices entitled 
Implementation and Standardization of the Unified Regions.
    \5\ Ibid.
    \6\ Ibid.
    \7\ Letter from Department of Interior Assistant Secretary for Land 
and Minerals Joseph Balash sent separately to Senator Lisa Murkowski 
and Senator Tom Udall dated July 16, 2019 providing information on the 
Department's planned reorganization of the BLM. (``[T]he BLM has 
committed that the State Office structure will be maintained.'')

    While improving efficiency of operations and public responsiveness 
of federal agencies is always a laudable goal, bureau reorganizations 
are expensive and can considerably compromise employee morale and 
efficiency. Such extreme restructuring should only be undertaken when a 
compelling and demonstrable need presents itself and the reorganization 
---------------------------------------------------------------------------
is likely to address identified problems.

    Conspicuous in its absence is the demonstration of need for BLM 
reorganization. The DOI has not identified organizational problems 
related to national office operations or location that in any way would 
justify the proposed dissolution of the national office. For instance, 
the DOI has not provided a report, cost-benefit analysis, management 
evaluation or any other documentation illustrating organizational 
inefficiencies or failures stemming from national office operations, 
composition, or location. Further, the DOI has not explained how 
scattering the national staff across the West and relocating the 
Director and Associate Directors to rural Colorado will lead to any 
measurable improvement in operations and efficiencies in support of 
their mission.

    In its July 16, 2019, letter to Senators Udall and Murkowski, the 
DOI claimed that moving the headquarters to rural Colorado will 
position these decision-makers closer to the resources they manage; 
facilitate intra-agency, stakeholder and partner coordination; reduce 
costs; and improve decision-making based on on-the-ground 
experience.\8\ These justifications are specious at best and misleading 
at worst. And there has been no specific data to back up their overly 
broad assertions. As explained below, the reorganization is quite 
likely to result in the opposite outcomes.
---------------------------------------------------------------------------
    \8\ Id. at 4, 8-12.

    The BLM has about 11,000 dedicated employees. More than 95 percent 
are stationed in state and field offices located near the lands and 
resources they manage. A small force of highly skilled and experienced 
professionals work in Washington, DC, to craft systemwide policy, 
oversee national programs, prepare budgets, advise lawmakers, and 
collaborate with other federal agencies and interest groups. In doing 
so, they interact daily with other federal agencies, the Office of 
Management and Budget, the White House, Congress, Departmental 
officials, and stakeholders. Many of these employees, prior to their 
headquarters position, spent years in field or state positions and are 
therefore extremely valuable in ground-truthing Washington, DC, 
decisions both within the BLM and across agencies and political 
branches. While small, the headquarters office serves as the nerve 
center of the BLM, performing essential functions that ensure the 
National System of Public Lands continues to function as an 
---------------------------------------------------------------------------
interconnected network of lands, waters and wildlife.

    Managing these extensive natural resources is a complex enterprise 
that demands cross-disciplinary and cross-jurisdictional collaboration. 
Issues must be evaluated and addressed at multiple scales, including 
eco-regional, national and even continental perspectives. Unlike field 
staff charged with administration of local resource areas, national 
staff are needed and are positioned to apply the large-scale, multi-
disciplinary, and multi-jurisdictional approach that is required to 
effectively and efficiently implement the agency's mission. They are 
purposely co-located with one another, with their counterparts in other 
agencies, with lawmakers and executive branch leadership, and with 
partners and stakeholders, many of whom are headquartered in 
Washington, DC, or visit regularly to conduct business there. When 
staff need to rapidly respond to a request for information, they can 
walk down the hall to collaborate with colleagues and experts across an 
array of resource topics such as fish and wildlife, energy, cultural 
resources, livestock grazing, and watershed management. Similarly, when 
staff need to tackle a complex and multi-scale issue, they can easily 
collaborate with their Washington, DC-based counterparts in other 
agencies and centrally located stakeholder groups.

    BLM staff are best able to do their jobs and safeguard the national 
interest when they can oversee national programs, develop budgets, and 
ensure consistent implementation of policy separate from regional bias 
or influence. Just as other Federal agencies maintain major 
headquarters in Washington, DC, and outside of any state boundary, the 
BLM's national office benefits from being located separate from BLM 
state offices. Its neutral location buffers the national staff from 
being unduly influenced by one state over others and enables them to 
implement their program oversight and implementation duties more 
equitably and through a national lens. In this way, BLM can assure that 
they are serving the national interest and operating as an agent for 
all Americans.

    DOI's proposed reorganization of the BLM and relocation of the 
headquarters to rural Colorado will upset this purposeful arrangement 
and make it more difficult for the BLM national staff to perform their 
national duties and ultimately to protect our nation's public lands and 
waters and the wildlife that depend on them. Specifically, the DOI 
reorganization plan will:

    Drain Critical Resource Management Expertise. The BLM employees 
that work in the Washington, DC, headquarters are highly skilled with 
years of experience in resource management and policy. DOI's 
reorganization will cause the agency to lose this critically important 
wealth of expertise. Forcing Washington, DC-based staff to move away 
from Washington, DC, to various western locales risks expert planners, 
scientists and managers quitting the BLM or even federal service 
altogether because they are understandably unwilling or unable to 
recklessly uproot their families and personal lives when little or no 
rationale for doing so has been provided by the DOI. Further, the 
proposed reorganization will remove 74 national staff (13%) from their 
national positions and transfer them to field positions in BLM state 
offices, further draining critical expertise from national programs.

    Balkanize Resource Management Functions. The DOI restructuring 
splits up and scatters Washington, DC-based resource management experts 
across 10 western states, physically separating these specialists from 
each other, agency leaders, including their directorate leads, and from 
the counterparts they work with in other agencies. This will hinder 
interdisciplinary collaboration and cooperation--both internally and 
externally--and silo resource management programs. Additionally, 
isolating national staff from their peers and co-locating them with 
state-office staff risks them working less on national work and instead 
being drawn into the priorities of a particular state office at the 
expense of national priorities and the needs of other state offices.

    Undermine Participation and Representation in National Policy 
Making. National policy and organizational budgeting are developed and 
managed from Washington, DC, where Congress, agency leaders, and 
stakeholder organizations conduct business. Removing BLM career experts 
from this mix reduces the agency's participation and representation in 
major policy discussions and decisions, and ultimately disempowers and 
disenfranchises the BLM. Professional resource managers will not 
regularly be representing the National System of Public Lands at 
important policy and strategic meetings.

    Consider that many of BLM's national fish and wildlife partners are 
located in Washington, DC. Those that are not based there, regularly 
travel to the capital to meet with agencies, Congressional offices, and 
other stakeholders. In contrast, only 3 percent of the agency's 
partners are located in Utah where the fish and wildlife conservation 
staff are slated to relocate. Most key stakeholders are much less 
likely--or will be unable--to engage with the BLM if staff are not 
located in Washington, DC, and instead scattered throughout the western 
states.

    Diminish the Role of Science in Policy and Decision-Making. Moving 
BLM's leadership and professional staff out of Washington, DC, has real 
ramifications for the quality and timeliness of agency decision-making 
and the fate of our national resources. The proposed changes will 
undermine staff's ability to participate in onsite multi-agency 
collaborations since many of these will continue to occur in 
Washington, DC. BLM national staff, for instance, participate in inter-
agency working groups on migratory birds, amphibians and reptiles, and 
threatened and endangered species to advance conservation and recovery 
of at-risk species. Further, BLM national staff will not be able to 
easily collaborate with one another to provide well-considered cross-
disciplinary analyses and recommendations to agency leadership, 
particularly troubling when rapid responses are required.\9\ More 
decisions will be made at the Secretarial level without benefit of 
career staff's science and policy expertise.\10\ All of this will 
reduce the influence of science in decision-making and diminish the 
level of stewardship afforded to fish, wildlife, and other resources 
under BLM stewardship.
---------------------------------------------------------------------------
    \9\ See, e.g., letter dated July 22, 2019 to Congressional 
leadership from the Public Lands Foundation at 2 (``An agency that does 
not have any appreciable leadership presence in Washington has no input 
into daily discussions regarding policy, budget, legislation, and 
resolution of routine issues . . .. There will be limited ability for 
the historic interdisciplinary coordination that occurred in the 
Washington office that is so important in establishing consistent 
procedures for the multiple-use management of our public land 
resources.'')
    \10\ Ibid. (``This reorganization proposal will result in a weak 
and ineffective management structure, a loss of national coordination 
and oversight capability, a loss of consistent agency policy 
development and implementation, and a subrogation of national interests 
to powerful local interests . . .. This will quickly result in a very 
inefficient and inconsistent organization that will be forced to make 
decisions state-by-state that may or may not be consistent or in the 
national interest. Alternatively, decisions will be elevated to the 
Secretary's Office, which will result in decisions made with no agency 
and local stakeholder input.'')

    The BLM's Species Recovery Fund initiative illustrates the 
importance of inter-agency coordination. Administered by the BLM in 
close coordination with partners such as the U.S. Fish and Wildlife 
Service, U.S. Forest Service and the Department of Defense, the 
initiative coordinates projects designed to support down-listing or 
delisting of federally protected species. Not being present with agency 
partners in Washington, DC, will make it more difficult, if not 
impossible, to coordinate this highly successful initiative. Species 
that benefited from this coordinated effort in recent years include the 
Inyo California towhee, Borax Lake chub, Maquire daisy, and coral pink 
---------------------------------------------------------------------------
sand dune tiger beetle.

    Disrupt Essential Functions and Undermine Morale. In August, Mick 
Mulvaney, the acting chief of staff to the President, touted the fact 
that moving agencies outside of Washington, DC, is a ``wonderful way to 
streamline government'' due to employees quitting rather than 
relocating. Indeed, BLM reorganization will divert scarce resources 
away from delivering essential, mission-critical functions, distract 
staff, and further undermine morale. As in any business, successful 
delivery of the mission happens by the hard work of qualified and 
dedicated staff. By ordering staff to relocate to far flung locations, 
separating them from their professional colleagues, and erecting 
barriers to fruitful collaboration, the DOI will further demoralize and 
distract career experts and diminish agency responsiveness, which will 
ultimately impact the stewardship of our public lands, water, and 
wildlife. At a time of shrinking appropriations for conservation, 
recreation and other vital management programs at the BLM, it is 
blatantly irresponsible to invest scarce funding into a process that 
will almost certainly fail to improve government performance or provide 
a fair return to taxpayers.

    In summary, while the Secretary asserts increased functionality and 
efficiency, reorganization will more likely deal a significant blow to 
the BLM and the public lands and resources it oversees. Absent a strong 
presence in Washington, DC, the agency will be sidelined in its role. 
Decisions will be made by the Secretary and other political appointees 
without the stabilizing presence and input of career professionals. 
Fanned out across the western U.S., resource experts won't easily be 
able to collaborate or coordinate with one another, their colleagues in 
other agencies, and non-governmental partners. And the wealth of 
expertise that resides in the national office will be eroded--all to 
the detriment of our national lands and waters and the wildlife that 
depend on them.

    Absent a compelling showing of why this reorganization is needed 
and how it will advance the BLM's capacity to steward the National 
System of Public Lands for the benefit of all Americans, it seems 
increasingly clear that the administration's goal is to dismantle the 
BLM's nerve center to facilitate its exploitation agenda. On behalf of 
our more 1.8 million supporters and the thousands of wildlife species 
who call our National System of Public Lands home, we respectfully ask 
Congress to oppose and block this damaging reorganization.

    Thank you for your attention to this critically important issue.

            Sincerely,

                                     Jamie Rappaport Clark,
                                                  President and CEO

                                 ______
                                 

            National Parks Conservation Association

                                                  September 9, 2019

Hon. Raul M. Grijalva, Chairman,
Hon. Rob Bishop, Ranking Member,
Committee on Natural Resources,
U.S. House of Representatives,
Washington, DC 20515.

Hon. TJ Cox, Chairman,
Hon. Louie Gohmert, Ranking Member,
Subcommittee on Oversight and Investigations,
Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairmen Grijalva and Cox and Ranking Members Bishop and 
Gohmert:

    We respectfully request that this letter be submitted for the 
record for the House Natural Resources Committee Subcommittee on 
Oversight and Investigations' September 10th Hearing, ``Oversight: BLM 
Disorganization: Examining the Proposed Reorganization and Relocation 
of the Bureau of Land Management Headquarters to Grand Junction, 
Colorado.''

    Since 1919, National Parks Conservation Association (NPCA) has been 
the leading voice of the American people in protecting and enhancing 
our National Park System. On behalf of our more than 1.3 million 
members and supporters nationwide, I write with deep concern about the 
relocation and reorganization of the Bureau of Land Management (BLM) 
and the broader Department of the Interior (DOI) reorganization of 
which it is a part.

    We commend the committee for holding this important hearing. As we 
have stated in numerous letters, including in one we requested be 
submitted for the record for this committee's April 30th 2019 hearing 
on the reorganization, we are deeply concerned that the reorganization 
threatens the management of our national parks, the stewardship of 
their resources, and the employees of the National Park Service (NPS). 
DOI's effort has consistently lacked transparency and has been 
accompanied largely by insufficient documentation and vague outlines as 
to the purpose, scope, and timeline of the reorganization, 
justification for the expenses, and any cost/benefit analysis. Staff 
have been confused, some being given vague directives with instructions 
to flesh out the details, occupying much staff time. Most have been 
entirely in the dark. The proposal has created uncertainty among NPS 
and other DOI staff and has further reduced morale at a time when NPS 
staff are already disheartened by understaffing and underfunding, a 
lack of an NPS director, and government shutdowns.

    On the broader reorganization, we are concerned about the 
assignment of Field Special Assistants, as their roles remain unclear, 
and there remains potential for political appointees, as well as Senior 
Executive Service (SES) career staff, in these roles to inappropriately 
overrule NPS regional directors with political priorities and decisions 
that run counter to conservation. There is no clear justification for 
these assistants, and no discernable agenda for the interagency teams 
they are tasked with facilitating. A major question remains as the 
reorganization moves forward: why? What precisely is broken to justify 
an effort of this magnitude, particularly given its implications for 
our national parks and other public lands?

    We have concerns as well about the BLM move, more specifically. BLM 
lands have connectivity with treasured NPS landscapes, and decisions at 
BLM can affect the protection of resources on NPS lands. We fear that 
moving BLM staff west will lead to inappropriate influence from 
stakeholders, and that a disconnect between NPS leadership and 
lawmakers in DC could yield decisions that marginalize NPS' 
conservation mandate and the protection of the lands they manage. 
Moving BLM west will undermine the importance of BLM and NPS leadership 
sitting down together in Washington to resolve conflicts and make 
decisions that protect our public lands. A failure to collaborate could 
lead not only to decisions contrary to conservation but also litigation 
and congressional hearings as a result of poor decision-making. The 
move reduces accountability to Congress; perhaps that is part of the 
intent.

    We fear that this move is part of an effort to reduce staffing in 
federal agencies. We were disheartened to hear that White House Acting 
Chief of Staff Mick Mulvaney recently commented that a benefit of 
moving federal agencies out of Washington, DC is that it causes federal 
employees to quit their jobs. Given these comments and OMB's effort 
under the management of Mr. Mulvaney to reduce the size of the federal 
workforce, we are concerned this BLM move is not about fixing a poorly 
defined problem but is instead intended to reduce BLM's capacity. The 
new structure threatens to bypass NPS and BLM regional directors and 
threatens land management decisions that are not informed by science 
and are made by staff who lack necessary expertise and backgrounds in 
resource management.

    The BLM move and broader reorganization are a distraction for 
staff. They are an irresponsible use of taxpayer funds for poorly 
justified reasons with insufficient research and documentation, 
threatening the integrity of our national parks and other public lands 
and the agencies that steward them. As stated before, NPCA's view is 
that absent any clear, justifiable demonstration of the reasons for the 
reorganization, benchmarks, a timeline and realistic roadmap, and 
assurances that the effort would ultimately benefit our public lands, 
the Americans who own them, and the federal employees who steward them, 
we urge Congress to take appropriate and immediate measures to prevent 
DOI from engaging in this risky and dangerous effort.

            Sincerely,

                                               John Garder,
                         Senior Director, Budget and Appropriations

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Malone, Annie, Letter for the record in opposition of the BLM 
reorganization and the agency's treatment of wild horses, dated 
September 16, 2019.

Submission for the Record by Rep. Bishop

  --  Letter from Tara Sweeney, Assistant Secretary of Indian 
            Affairs, on tribal consultation, dated September 5, 
            2019.

Submission for the Record by Rep. Tonko

  --  PowerPoint presentation entitled ``BLM Relocation 
            Visuals.''

Submissions for the Record by Rep. Lamborn

  --  Letter from Senator Cory Gardner, Representatives Tipton, 
            Lamborn, and Buck to Chairman Grijalva and Ranking 
            Member Bishop in support of the BLM relocation, 
            dated September 9, 2019.

  --  Letter from the Associated Governments of Northwest 
            Colorado in support of the BLM reorganization, 
            dated September 9, 2019.

Submissions for the Record by Rep. Tipton

  --  Letter from the Associated Governments of Northwest 
            Colorado in support of the BLM reorganization, 
            dated September 9, 2019.

  --  Letter from Tim Foster, President of the Colorado Mesa 
            University, in support of the BLM relocation to 
            Grand Junction, Colorado, dated September 9, 2019.

                                 [all]
</pre></body></html>
